<html>
<title> - AVIATION SAFETY: CAN NASA DO MORE TO PROTECT THE PUBLIC?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      AVIATION SAFETY: CAN NASA DO 
                      MORE TO PROTECT THE PUBLIC? 

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2007

                               __________

                           Serial No. 110-70

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                               ----------

                        U.S. GOVERNMENT PRINTING OFFICE 

38-535 PDF                     WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





































                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio




































                            C O N T E N T S

                            October 31, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     5
    Written Statement............................................     6

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     8

Prepared Statement by Representative Mark Udall, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................     8

Prepared Statement by Representative Tom Feeney, Minority Ranking 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science and Technology, U.S. House of Representatives..........     9

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

Prepared Statement by Representative Brad Miller, Chairman, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science and Technology, U.S. House of Representatives..........    11

Prepared Statement by Representative Daniel Lipinski, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

                                Panel 1:

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration (NASA)
    Oral Statement...............................................    12
    Written Statement............................................    15

Mr. James E. Hall, Managing Partner, Hall and Associates, LLC; 
  Former Chairman, National Transportation Safety Board (NTSB)
    Oral Statement...............................................    18
    Written Statement............................................    19
    Biography....................................................    24

Discussion
  Release of NASA Report.........................................    25
  Reasons for Not Releasing Parts of the Report..................    25
  Information About the Data That Was Released...................    27
  Confidentiality of Information About Pilots and Commercial 
    Information..................................................    28
  Getting the Information to the Public..........................    30
  Disciplinary Action for Responsible Party......................    31
  NASA Survey and Confidentiality................................    32
  Releasing Information and Why Was the Survey Ended?............    33
  Airline Safety Compared to Other Safety Concerns...............    35
  Responsibility for Public Statement............................    36
  Why Wasn't NASA Information Made Public and Why Didn't It Live 
    Up to NASA's Standards?......................................    37
  State of Current Space Shuttle Mission.........................    37
  Quality of Data................................................    38
  The Responsibility for the $11 Million.........................    40
  Data Recovery, Peer Review, and Avoidance of Requests..........    41

                                Panel 2:

Dr. Robert S. Dodd, Safety Consultant and President, Dodd & 
  Associates, LLC
    Oral Statement...............................................    43
    Written Statement............................................    44
    Biography....................................................    46

Dr. Jon A. Krosnick, Frederic O. Glover Professor in Humanities 
  and Social Sciences, Stanford University
    Oral Statement...............................................    49
    Written Statement............................................    52
    Biography....................................................    64

Captain Terry L. McVenes, Executive Air Safety Chairman, Air Line 
  Pilots Association, International
    Oral Statement...............................................    93
    Written Statement............................................    95
    Biography....................................................    96

Discussion
  NAOMS Survey and Methodology...................................    96
  Survey Methodology and Confidentiality.........................    98
  Why Didn't the FAA Continue the Project?.......................    99
  Best Organization to Operate NAOMS.............................   100
  Termination of Program.........................................   101

             Appendix 1: Answers to Post-Hearing Questions

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration (NASA)....................................   106

Mr. James E. Hall, Managing Partner, Hall and Associates, LLC; 
  Former Chairman, National Transportation Safety Board (NTSB)...   110

Dr. Robert S. Dodd, Safety Consultant and President, Dodd & 
  Associates, LLC................................................   112

Dr. Jon A. Krosnick, Frederic O. Glover Professor in Humanities 
  and Social Sciences, Stanford University.......................   115

Captain Terry L. McVenes, Executive Air Safety Chairman, Air Line 
  Pilots Association, International..............................   121

             Appendix 2: Additional Material for the Record

Exhibit 1. Rempel, W. and Freed, D. (1991, February 3). Danger on 
  the Ground, Too Safety: Near-misses have occurred on runways 
  and taxiways, federal records show. Pilots were sometimes lost 
  or controllers moved planes into another's path. Los Angeles 
  Times. Retrieved 2007, from http://factiva.com/................   124

Exhibit 2. Brazil, J. (1994, December 11). FAA's Safety Response 
  Record Hits Turbulence, Over the past decade, the agency has 
  been slow to heed safety warnings--sometimes acting only after 
  fatal crashes, according to a Times study. Los Angeles Times. 
  Retrieved 2007, from http://factiva.com/.......................   126

Exhibit 3. Statler, I. and Maluf, D.A. (2003). ``NASA Aviation 
  System Monitoring and Modeling Project,'' SAE Aerospace and 
  Aerospace Conference...........................................   132

Exhibit 4. National Aviation Operational Monitoring Service 
  (NAOMS) Fact Sheet.............................................   137

Exhibit 5. Connell, L. (1999, May 11). Welcome and NAOMS 
  Introduction. Presented at the Workshop 1 on the Concept of the 
  National Aviation Operational Monitoring Service (NAOMS).......   138

Exhibit 6. Dodd, R. (2000, March 1). NAOMS Concept, Rationale and 
  Field Trial Development. Presented at the NAOMS Workshop 2.....   148

Exhibit 7. Connors, M. and Connell, L. (2003, December 18). 
  Future Directions. Prepared for Meeting 1, NAOMS Status and 
  Results Review.................................................   169

Exhibit 8. Rosenthal, L., Krosnick, K., Cwi, J., Connell, L., 
  Dodd, R., and Connors, M. (2003, April 9). National Aviation 
  Operations Monitoring Service (NAOMS). Prepared for Detailed 
  Program Overview; Results to Date for FAA Senior Management....   172

Exhibit 9. NAOMS (2003, August 5). National Operations Monitoring 
  Service (NAOMS). Prepared for NAOMS Overview and Status to FAA-
  JIMDAT.........................................................   278

Exhibit 10. FAA (2007, February). R&D Activities. National 
  Aviation Research Plan.........................................   304

Exhibit 11. National Aviation Operational Monitoring Service 
  (NAOMS) Air Carrier Pilot Survey (Ver AC-July 15, 2003)........   306

Exhibit 12. NAOMS document request from Chairman Brad Miller, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science and Technology to Dr. Michael Griffin, Administrator, 
  National Aeronautics and Space Administration (NASA) (2007, 
  October 19)....................................................   372

Exhibit 13. Response to Chairman Miller's October 19, 2007 
  request from William W. Burner, III, Assistant Administrator 
  for Legislative and Intergovernmental Affairs, NASA (2007, 
  October 22)....................................................   375

Exhibit 14. NAOMS document safety request from Chairman Bart 
  Gordon, Committee on Science and Technology, Chairman Brad 
  Miller, Subcommittee on Investigations and Oversight, and 
  Chairman Mark Udall, Subcommittee on Space and Aeronautics, to 
  Dr. Michael Griffin, Administrator, NASA (2007, October 22)....   378

Exhibit 15. Response to Committee October 19, 2007 and October 
  22, 2007 requests from Dr. Michael Griffin, Administrator, NASA 
  (2007, October 29).............................................   382


        AVIATION SAFETY: CAN NASA DO MORE TO PROTECT THE PUBLIC?

                              ----------                              


                      WEDNESDAY, OCTOBER 31, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 1:35 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      Aviation Safety: Can NASA Do

                      More to Protect the Public?

                      wednesday, october 31, 2007
                          1:30 p.m.-3:30 p.m.
                   2318 rayburn house office building

Purpose

    The Committee will hold a hearing on NASA policy regarding the 
agency's management of the National Aviation Operations Monitoring 
Service (NAOMS). NAOMS has been in the press due to NASA's refusal to 
release the data to an Associated Press (AP) reporter, offering the 
rationale that release of the information might undermine the flying 
public's confidence in the aviation system because it relates to 
safety. NASA's refusal to release this data has been widely condemned 
in the Nation's press with editorials in many papers. NASA's 
Administrator Michael Griffin has formally distanced himself from that 
rationale, but he has not yet made it clear when or even whether NASA 
will publicly release this data.

Witnesses

Panel 1

Dr. Michael Griffin, Administrator, National Aeronautics and Space 
Administration (NASA)

Mr. Jim Hall, Managing Partner, Hall and Associates, LLC, and Former 
Chairman, National Transportation Safety Board (NTSB)

Panel 2

Dr. Robert S. Dodd, Safety Consultant and President, Dodd & Associates, 
LLC

Dr. Jon A. Krosnick, Frederic O. Glover Professor in Humanities and 
Social Sciences, Stanford University

Captain Terry McVenes, Executive Air Safety Chairman, Air Line Pilots 
Association

Background

    On October 29, Administrator Griffin sent a letter to the Committee 
indicating that the data was being provided to the Committee, but 
noting that ``NASA believes that the data contains both confidential 
commercial data and information that could compromise anonymity that 
should be redacted prior to public release.'' Staff have been unable to 
find a NASA or Battelle staffer [the contractor on the project] who can 
articulate what commercially sensitive information resides in these 
data bases. As to anonymity, Battelle indicated that all personal 
identifying information was stripped away from the data within 24 hours 
of conducting a survey. It is unclear what data should be removed prior 
to public release and this may be a question for NASA.
    The concern NASA has expressed in its initial FOIA rejection letter 
was that public release of the data may undermine confidence in flying 
among the public. However, other data safety systems are already open 
to the public and include plenty of details that could have far more 
impact on public confidence than data contained in a spreadsheet. The 
best known is the Aviation Safety Reporting System (ASRS) which 
includes numerous stories about near misses in the air and on the 
ground. The bottom line is that when planes have actually crashed, 
people keep going right to the airport. The Committee asked NASA to 
provide all records of the aviation industry expressing concerns that 
their commercial interests could be damaged or objecting to the impact 
on the flying public's attitudes if NAOMS data were made publicly 
available, and NASA could find no responsive records.
    In addition to the FOIA issue, the hearing will provide an 
opportunity for the Committee to learn about aviation safety data 
sources and the rationale behind launching NAOMS in the first place. 
All other data systems involve voluntary self-reporting tied to either 
incidents that have happened or else data that has been filtered by 
private parties to strip information out of the report prior to being 
turned over to the government. FAA collects most of these data sources; 
NASA manages the Aviation Safety Reporting System (ASRS) for FAA. If it 
had been rolled out operationally, NAOMS would have integrated 
continuous survey data from pilots, ground controllers, ground crews, 
and cabin crews to create a complete picture of what is happening in 
the air safety system nationally. This information would not be driven 
by adverse events and would have a statistical rigor that the self-
reporting anecdotal systems lack. As a result, safety experts could 
mine the NAOMS data for insights into new safety threats as they 
emerge.
    The aviation system is changing due to new information and 
communications technologies that are being introduced into the system. 
It is also anticipated that the national airspace system will have to 
handle up to three times as much demand by 2025 compared to 2000. The 
voluntary reporting systems of the past may not be good enough, and 
certainly do not represent what could be achieved with improved data 
systems, to keep the skies over the United States safe. NAOMS was to be 
that pro-active, forward looking tool to identify problems tied to 
increasing demands on capacity and unexpected problems with the 
introduction of new technologies.
    NASA spent three years developing and field testing the NAOMS 
survey with support by Battelle and several distinguished 
subcontractors who were experts in survey methodology or aviation 
safety. Then NASA ran a survey of commercial pilots for almost four 
years. Over 24,000 pilots responded to the survey. Another 4000 general 
aviation pilots were surveyed during a span of several months over 
2002-2003. The contractor also began work to roll out a survey of air 
traffic controllers, but it was never implemented in the field. After 
spending more than $8 million to develop this tool and begin to put it 
in place, NASA shut it down before it became operational. The project 
enjoyed unusual success in gathering responses from pilots, but the 
project also ran up against competing priorities within the agency, as 
well as a lack of interest at the FAA.
    In shutting the project down, NASA has done absolutely nothing to 
either advertise the methodology and the goal they hoped to achieve or 
release any analytical products that give insights into air safety 
trends. This was true until the AP reporter pushed to get the materials 
out. Only then did the top managers for this project at NASA begin to 
try to put some sort of report together. NASA says a technical report 
will be released by the end of the year, but prior to a week ago, the 
report was described by both NASA counsel and NASA researchers to 
Committee staff as something that would represent analytical insights 
drawn from the data with recommendations for improving air safety. It 
appears that NASA has moved the goal posts even on this belated work 
product.
    The reasons that NAOMS was needed have not changed. The national 
air transportation system appears safe at the moment, but new 
technologies and stresses will produce exactly the situation that NAOMS 
was designed to help address.
    To help the Committee sort through some of this, we will receive 
testimony from Dr. Michael Griffin, the NASA Administrator. The 
Committee will also take testimony from Mr. Jim Hall (former head of 
the National Transportation Safety Board and member of the 1997 
Aviation Safety and Security Commission--the Gore Commission), Dr. 
Robert Dodd (aviation safety expert who managed the NAOMS project under 
contract to Battelle), Dr. Jon Krosnik (Stanford statistics professor 
who helped design the survey), and a representative of the Airline 
Pilots Association (ALPA), Captain Terry McVenes. ALPA actually opposes 
release of the raw data, but they do favor analysis of that 
information. NASA has also ``handed-off'' the NAOMS methodology to ALPA 
(though it has been redesigned as a web-based, not phone-based survey) 
so that they can administer the survey to their members. However, ALPA 
has told Committee staff that they have not decided what questions they 
would ask, who they would ask them of, or even when to run a survey. 
They have done nothing with NAOMS to date.
    Chairman Gordon. I want to welcome all of you, and I 
especially want to welcome our witnesses to today's hearing. 
You have made yourself available to testify on relatively short 
notice, and I appreciate your willingness to assist the 
Committee in carrying out our oversight responsibilities on 
this important issue.
    It was important that we met as soon as possible to get to 
the bottom of what has been going on and what NASA intends to 
do from this point forward. America's air transportation system 
is critical both to our nation's economic vitality and to our 
quality of life.
    However, it is no secret that the system faces increasing 
stresses as air traffic demand continues to grow, demand that 
is expected to increase by a factor of two or three by the year 
2025. And those stresses make it even more important that all 
necessary steps are taken to maintain air safety. It is the 
right thing to do, and the American public expects it.
    Our citizens want to be sure that the government and the 
aviation industry are doing all that can be done to keep the 
air transportation system safe. That is why both the public and 
Members of Congress alike have such a strong reaction to 
reports that NASA has been withholding an aviation safety 
survey database compiled by taxpayer dollars. NASA's 
explanation for its refusal to release the data was both 
troubling and unconvincing.
    Specifically, NASA has stated the data can't be released 
because, and I quote, ``It could materially affect the public 
confidence in, and the commercial welfare of air carriers.''
    Well, as I have said before, NASA needs to focus on 
maintaining and increasing the safety of the flying public, not 
protecting the commercial air carriers. And if NASA 
accomplishes that and if we have a safe traveling environment, 
then the commercial air carriers, their situation will 
certainly be enhanced. Dr. Griffin has indicated that he 
agrees, and he will testify today that NASA will publicly 
release the NAOMS data.
    While we need to clarify just exactly what will be released 
and when, and I hope it will be soon, I am pleased that he is 
taking that action, as his usual candor dictates. If scheduling 
this hearing helped bring about the change of direction at 
NASA, I think that it has been a constructive exercise by our 
oversight responsibilities.
    However, the issue we have to consider today goes beyond 
simply the release of the data NASA is withholding. We also 
have a question of priorities. As former NTSB Chairman Jim Hall 
will testify, and again, I quote, ``A true safety culture 
requires transparency and consistent vigilance.''
    Numerous individuals familiar with this report have told us 
that it has envisioned, was envisioned as a long-term, 
continuing data collection and analysis effort to identify 
aviation accident precursors and safety trends. And several of 
our witnesses today will testify that it has potential to 
provide information and insights unobtainable from existing 
data sources.
    Therefore, by most accounts, the report appeared to be a 
promising avenue for ensuring that our nation's air 
transportation system would retain its impressive safety record 
in the coming years. Yet whether it was due to shifting 
priorities, budgetary constraints, cultural differences between 
agencies, or something else, the report has largely been cast 
adrift by NASA and the FAA.
    I hope that one outcome of today's hearing will be the 
reconstruction of the report and project by NASA and the FAA. 
However, I think we in Congress also need to take a close look 
at NASA's overall aviation safety program to make sure that it 
still addresses the most relevant safety questions facing the 
Nation's air transportation system.
    That is going to be one of the focuses of today's hearings 
and in the coming months. Maintaining and improving aviation 
safety is an important task for the Federal Government to 
accomplish, working in partnership with the aviation industry. 
The stakes are high, and we need to get it right.
    We have a lot to do and to cover today, so I again welcome 
our witness at today's hearing, and I now yield to my good 
friend and colleague, Ranking Member Ralph Hall.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good afternoon. I'd like to welcome all of our witnesses to today's 
hearing. You have made yourselves available to testify on relatively 
short notice, and I appreciate your willingness to assist the Committee 
in carrying out our oversight on this important issue.
    It was important that we meet as soon as possible to get to the 
bottom of what has been going on, and what NASA intends to do from this 
point forward. America's air transportation system is critical both to 
our nation's economic vitality and to our quality of life.
    However, it's no secret that the system faces increasing stresses 
as air travel demand continues to grow--demand that is expected to 
increase by a factor of two to three by 2025. And those stresses make 
it even more important that all necessary steps are taken to maintain 
air safety. It's the right thing to do, and the American public expects 
it.
    Our citizens want to be sure that the government and the aviation 
industry are doing all that can be done to keep the air transportation 
system safe. That's why both the public and Members of Congress alike 
had such a strong reaction to reports that NASA has been withholding an 
aviation safety survey data base compiled with taxpayer dollars. NASA's 
explanation for its refusal to release the data was both troubling and 
unconvincing.
    Specifically, NASA was saying the data can't be released because it 
``could materially affect the public confidence in, and the commercial 
welfare of the air carriers. . .''
    Well, as I've said before, NASA needs to focus on maintaining and 
increasing the safety of the flying public, not on protecting the 
commercial air carriers. Dr. Griffin has indicated that he agrees, and 
he will testify today that NASA will publicly release the NAOMS data.
    While we need to clarify just exactly what will be released and 
when--and I hope it will be soon--I am pleased that he is taking that 
action. If scheduling this hearing helped bring about this change of 
direction at NASA, I think that it has been a constructive exercise of 
our oversight responsibilities.
    However, the issues we have to consider today go beyond simply the 
release of the data NASA is withholding. We also have a question of 
priorities. As former NTSB Chairman Jim Hall will testify today: ``A 
true safety culture requires transparency and constant vigilance.''
    Numerous individuals familiar with the NAOMS project have told us 
that it was envisioned as a long-term, continuing data collection and 
analysis effort to identify aviation accident precursors and safety 
trends. And several of our witnesses today will testify that it has the 
potential to provide information and insights unobtainable from 
existing data sources.
    Thus, by most accounts, NAOMS appeared to be a promising avenue for 
ensuring that our nation's air transportation system would retain its 
impressive safety record in the coming years. Yet whether it was due to 
shifting priorities, budgetary constraints, cultural differences 
between agencies, or something else--NAOMS has largely been cast adrift 
by NASA and the FAA.
    I hope that one outcome of today's hearing will be a 
reconsideration of the NAOMS project by NASA and the FAA. However, I 
think we in Congress also need to take a close look at NASA's overall 
aviation safety program to make sure that it is still addressing the 
most relevant safety questions facing the Nation's air transportation 
system.
    That is going to be one of the focuses of this committee's 
oversight in the coming months.
    Maintaining and improving aviation safety is an important task for 
the Federal Government to accomplish--working in partnership with the 
aviation industry.
    The stakes are high, and we need to get it right.
    We have a lot to cover today, so I again want to welcome our 
witnesses to today's hearing, and I now yield to my good friend and 
colleague, Ranking Member Ralph Hall.

    Mr. Hall of Texas. Mr. Chairman, I thank you and today's 
hearing on NASA's National Aviation Operations Monitoring 
Service, NAOMS, is a timely hearing, especially considering the 
amount of scrutiny this program has received in the press. 
Several issues have arisen that bring into question the manner 
in which NASA closed out NAOMS, whether it achieved its 
original goals and the agency's refusal to provide raw survey 
data to the press in response to a Freedom of Information Act 
request. I am optimistic that by the hearing's conclusion and 
we hear these very capable men and women, if there are any on 
here, that we will have a clear understanding regarding these 
and other pressing issues.
    And I do want to associate myself with NASA Administrator 
Mike Griffin's public statement that lays out the agency's 
philosophy on the treatment of research data. Like him, I 
believe NASA ought to be in the business of putting information 
in front of the public, not withholding it. That being said 
every care should be taken to protect the identities of survey 
respondents. NAOMS has promised pilots complete confidentiality 
to ensure their candid participation, and most folks believe 
that ought not to be breached.
    If information is disclosed that may allow respondents to 
be identified, there will be a serious chilling effect in 
future survey efforts funded by the Federal Government, whether 
we are talking about pilots or other citizen groups who provide 
our government meaningful insight into a whole host of 
activities. In the case of NAOMS, we should be cognizant of 
striking a balance between transparency and confidentiality.
    I have the greatest faith in the Administrator. I have been 
through half a dozen or so administrators since I have been up 
here, and I think there is none surpasses him in background, 
ability. He is a pilot, he is young, he is agile, and he is a 
lot of other things that are good for NASA. And I am just 
really proud of him and honored to have him come before this 
committee.
    NASA should release the data, but, you know, to help us all 
gain a better understanding of what it is telling us, they 
ought to provide information, whether in the form of analysis, 
methodology, or reports, to give us a clear sense of context. 
But it is also important that the data be scrubbed, I think, to 
ensure errors are omitted. Get the errors out of there.
    I want to thank our witnesses for taking time from their 
busy schedules to appear before us this afternoon and 
acknowledge their hard work and preparation. All of us 
appreciate your willingness to be here, and Mr. Hall from 
Tennessee, we certainly well you and thank you, sir.
    I yield back my time.
    [The prepared statement of Mr. Hall of Texas follows:]
           Prepared Statement of Representative Ralph M. Hall
    Mr. Chairman, today's hearing on NASA's National Aviation 
Operations Monitoring Service (NAOMS) is timely, especially considering 
the amount of scrutiny this program has received in the press. Several 
issues have arisen that bring into question the manner in which NASA 
closed out NAOMS, whether it achieved its original goals, and the 
agency's refusal to provide raw survey data to the press in response to 
a Freedom of Information Act request. I am optimistic that, by the 
hearing's conclusion, we'll all have a clear understanding regarding 
these and other pressing issues.
    I do want to associate myself with NASA Administrator Mike 
Griffin's public statement that lays out the agency's philosophy on the 
treatment of research data. Like him, I believe NASA ought to be in the 
business of putting information in front of the public, not withholding 
it. That being said every care should be taken to protect the 
identities of survey respondents. NAOMS promised pilots complete 
confidentiality to ensure their candid participation, and that ought 
not be breached. If information is disclosed that may allow respondents 
to be identified, there will be a serious chilling effect in future 
survey efforts funded by the Federal Government, whether we're talking 
about pilots or other citizen groups who provide our government 
meaningful insight into a whole host of activities. In the case of 
NAOMS, we should be cognizant of striking a balance between 
transparency and confidentiality.
    NASA should release the survey data, but to help all of us gain a 
better understanding of what it is telling us, they should also provide 
information, whether in the form of analysis, methodology, or reports, 
to give us a clear sense of context. It's also important that the data 
be scrubbed to ensure errors are eliminated.
    I want to thank our witnesses for taking time from their busy 
schedules to appear before us this afternoon, and acknowledge their 
hard work and preparation. All of us appreciate your willingness to be 
here.
    Thank you, Mr. Chairman.

    Chairman Gordon. Thank you, Mr. Hall from Texas.
    If there additional Members who wish to submit additional 
opening statements, your statements will be added to the 
record. Without objection, so ordered.
    [The prepared statement of Mr. Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good afternoon. I am disappointed that we have had to convene 
today's hearing. But NASA's stated rationale for refusing to release 
publicly information from the taxpayer-funded National Aviation 
Operations Monitoring Service (NAOMS) aviation safety survey is 
unsupportable and required congressional scrutiny. The safety of the 
public has to be our first priority, especially with more and more 
Americans flying every year.
    Specifically, in its response to the Associated Press's request for 
release of the NAOMS aviation safety survey data, NASA stated that: 
``Release of the requested data, which are sensitive and safety-related 
could materially affect the public confidence in, and the commercial 
welfare of, the air carriers and general aviation companies whose 
pilots participated in the survey.''
    NASA's response in effect seems to be saying that it sees its job 
as putting the commercial interests of the aviation industry above the 
public's right to aviation safety information.
    That response is unacceptable. It's certainly not in accordance 
with the National Aeronautics and Space Act of 1958, which created NASA 
and established objectives for the agency--one of which is ``the 
improvement of the usefulness performance, speed, safety, and 
efficiency of aeronautical and space vehicles,'' while directing NASA 
to operate in a manner that will ``provide for the widest practicable 
and appropriate dissemination of information concerning its activities 
and the results thereof.''
    The NASA Administrator has since distanced himself from the 
language in NASA's response to the FOIA request, saying that he regrets 
``the impression that NASA was in any way trying to put commercial 
interests ahead of public safety. That was not and will never be the 
case.''
    I'd like to hear the Administrator reiterate that stance at today's 
hearing. And although I am glad that he has now agreed to release at 
least some of the NAOMS data publicly so that it can be used to help 
maintain and hopefully improve the safety of the Nation's airways, I 
feel strongly that all the NAOMS data should be made publicly available 
as soon as possible.
    I intend to be vigilant to ensure that this release actually occurs 
in a timely manner.
    Former National Traffic Safety Board Chairman Jim Hall, who is one 
of our witnesses today, got it right in his prepared testimony when he 
wrote that ``It is difficult to overemphasize the importance of 
transparency and accountability in aviation. It is the single greatest 
reason why you are so safe when you get on an airplane today.'' I 
wholeheartedly agree. We need to work hard to expand that transparency 
and accountability--not restrict it. And that is why all the 
information from the study must be released--and soon.
    Yet, the struggle over the fate of the NAOMS data is not the only 
issue that needs attention at today's hearing. We also need to decide 
where we should go from here. We will hear from a number of witnesses 
here today about the value of a comprehensive, ongoing survey and 
analysis approach to aviation safety trend analysis and accident 
precursor identification--the approach exemplified by the NAOMS 
project.
    As Chairman of the Space and Aeronautics Subcommittee, I have 
oversight responsibility for both NASA's aeronautics and aviation R&D 
programs and FAA's aviation R&D programs.
    I intend to make sure that the government is taking all necessary 
steps to have the aviation safety data sources and analysis tools that 
will be needed to maintain air safety in the coming years.
    Based on testimony we will hear today, there appears to be a great 
deal of merit to the NAOMS approach, and we need to assess whether NASA 
and FAA should reinstitute the project. Given its potential value and 
the modest amounts of funding required to make effective use of the 
NAOMS methodology relative to the more than $30 billion spent on NASA 
and FAA annually, I think the burden of proof should be on those who 
want to walk away from the investment made to date in the NAOMS 
project.
    I am aware that a number of FAA officials have indicated that the 
FAA is not interested in NAOMS and would rather develop a new aviation 
safety information system combining data from multiple existing safety 
and performance data bases. Making as effective use as possible of 
existing data bases is a worthy objective, and one that quite frankly 
FAA should have been doing all along. However, FAA's own documentation 
states that it doesn't envision completing more than ``the Phase 1 pre-
implementation activities, including concept definition'' for the 
proposed new combined Aviation Safety Information Analysis and Sharing 
(ASIAS) system until 2013 at the earliest.
    That's an unacceptably long time to wait, when it appears that NASA 
and FAA could be generating useful safety trend and accident precursor 
information--which will help keep the flying public safe--from a 
restarted NAOMS initiative almost immediately.
    It also doesn't address the question of whether NAOMS could provide 
additional valuable insights into the safety status and trends for the 
Nation's air transportation system beyond those available from existing 
data bases.
    These issues go beyond what we are likely to have time to consider 
today, so I intend to have the Space and Aeronautics Subcommittee 
pursue them in the coming months.
    Mr. Chairman, we can take pride in the overall safety record of 
America's air transportation system. However, we dare not rest on our 
laurels. We need to be vigilant to ensure that all is being done that 
should be done to maintain and improve that safety record--and the 
information gained from the taxpayer-funded NAOMS study is very 
important to our work. This hearing is an important step in meeting our 
safety oversight responsibilities, and I am glad we are holding it.

    [The prepared statement of Mr. Feeney follows:]
            Prepared Statement of Representative Tom Feeney
    When this hearing was first scheduled, allegations of cover up and 
document destruction swirled in the air. So I initially thought--how 
did the Science and Technology Committee obtain jurisdiction over Sandy 
Berger's escapades at the National Archives? Alas, that topic remains 
untouched.
    Originally, the Full Committee was to spend today examining the 
environmental and safety aspects of nanotechnology--a timely and 
thoughtful topic given nanotechnology's current and future importance. 
Such a hearing would continue this committee's serious treatment of 
serious issues.
    But like a cop on the beat, the powers-that-be have apparently 
given this committee a quota of ``oversight'' tickets to write. 
Infractions must be found and highlighted with great drama. So the 
nanotechnology hearing was relegated to a subcommittee and replaced 
with today's festivities. But to paraphrase Gertrude Stein, the trouble 
with today's hearing is that ``when you get there, there isn't any 
there there.''
    Here's today's kerfuffle in a nutshell. Starting in fiscal year 
1998, NASA funded a research project--the National Aviation Operations 
Monitoring Service (NAOMS)--that attempted to use telephone survey data 
to provide a representative picture of aviation system safety. Over 
eight years, $11.3 million (0.00867582 percent of NASA's budget over 
this period) was spent on this non-peer reviewed research.
    Unfortunately, NAOMS failed to yield worthwhile information. 
Instead, it painted a picture of the aviation system with anomaly rates 
(such as engine failures) that bore no relationship with reality. It's 
as if the public were polled and the data suggested a 75 percent 
approval rate for today's Congress. Any politician would know that 
something was terribly wrong with that survey's methodology.
    Four months ago, the Associated Press made a Freedom of Information 
Act (FOIA) request for the raw and rather stale data collected in the 
NAOMS study. NASA denied that request and used some inarticulate 
reasoning.
    When this matter was brought to NASA Administrator Mike Griffin's 
attention, he promptly responded with his characteristic pattern of 
integrity, candor, and action. Griffin has vowed to bring openness and 
transparency to NASA. In that type of environment, participants feel 
empowered to acknowledge and address problems--a behavior that could 
have averted the Challenger and Columbia tragedies. Thus, Griffin 
promptly acknowledged that NASA should have better handled this FOIA 
request and vowed to correct the matter.
    And so he has. Griffin has determined that this data should be 
released and will do so once confidential information is redacted 
(survey participants were promised confidentiality in return for their 
candor). Furthermore, he has cautioned about properly interpreting the 
data since the survey methodology appears to be quite flawed.
    In the wake of the Columbia Accident Investigation Board's finding 
of a NASA culture discouraging openness and frankness, one would think 
Administrator Griffin would be commended for his leadership. After all, 
leaders set examples. Here he has promptly responded to a concern, 
acknowledged an error, and outlined corrective actions. Isn't this the 
type of conduct to be encouraged?
    But that would deviate from today's script and ruin the planned 
drama. So like the abusive spouse who enjoys publicly brow-beating his 
partner, the Majority will undoubtedly pummel NASA's finest 
Administrator in recent memory. No acknowledgement of error or 
corrective action will satisfy the belittling and rampaging spouse.
    Undoubtedly at another forum, today's inquisitors will bemoan how 
skilled, accomplished, and decent people eschew public service. Or how 
today's Congress avoids addressing issues of genuine concern to the 
governed.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Mr. Chairman, I am pleased that the Committee is pursuing this 
issue, as the reports surrounding NASA's NAOMS program and it's refusal 
to release initial data have been troubling.
    As Chairman of the Aviation Subcommittee of the Committee on 
Transportation and Infrastructure, I firmly believe that safety must be 
our top priority. As Ranking Member of the Subcommittee last Congress, 
I called for a comprehensive hearing on aviation safety and since 
becoming Chairman, I have held numerous subsequent hearings that have 
highlighted the importance of this issue.
    What concerns me regarding NASA's handling of the NAOMS study is 
that regardless of the initial findings of the study, this information 
has the ability to help improve transportation safety, and that should 
be our priority, not the possible adverse affects the information may 
or may not have on the industry. In addition, this situation has been 
handled poorly by NASA, and it fits into a pattern of reluctance to 
release information--particularly regarding safety--and concerns that 
NASA officials are too close to, and too quick to protect, the 
interests of industry.
    Again, Mr. Chairman, I'd like to commend you for calling this 
hearing, I am very interested in learning the findings of this study, 
and how we can use the information to help ensure the safety of all air 
travelers.

    [The prepared statement of Mr. Miller follows:]
            Prepared Statement of Representative Brad Miller
    The purpose of today's hearing is to look at the National 
Aeronautics and Space Administration's (NASA) management of the 
National Aviation Operations Monitoring Service (NAOMS), and to examine 
how, in the absence of a system such as NAOMS, NASA plans on monitoring 
air safety in the future.
    Every year more planes are in the air, and each year brings new 
challenges to aviation safety. The purpose of NAOMS was to identify 
problems with both increasing demand and the introduction of new 
technologies. Instead of reacting to aviation disasters NAOMS would 
have been able to identify emerging safety problems. The program 
appears to be a cost-effective and scientifically valid way of looking 
at airline safety. More important, I would like to know what NASA is 
going to do to ensure American's safety in the absence of NAOMS.
    I am glad that NASA and Administrator Griffin have voiced a 
willingness to release the data gathered under the NAOMS project. 
Analysis of this data could be a key tool in understanding what is 
happening at US airports. I understand that there is some concern over 
the release of proprietary commercial data and the anonymity of survey 
participants. It is my strong hope that NASA will take realistic 
precautions to ensure anonymity, but not let that become an excuse not 
to release the data in a timely manner.

    [The prepared statement of Mr. Lipinski follows:]
          Prepared Statement of Representative Daniel Lipinski
    Thank you, Mr. Chairman.
    This is a very timely subject and one that is extremely important 
to the residents of the 3rd District of Illinois. Chicago is a key 
national and international aviation hub and collaboration is key to 
ensuring the continued safety and vitality of the aviation industry. At 
Midway International Airport in my District, working collaboratively we 
brought new safety upgrades online which will greatly enhance the 
safety of the flying public and everyone who works at the airport. And 
through additional collaboration, such as the sharing of informative 
data findings from your report, we can work to further improve the 
safety of our nation's aviation industry.
    This issue hits especially close to home for me. Many remember the 
tragic accident in 2005 when an aircraft skidded off the runway at 
Midway Airport into a passing car, killing a young boy. That is why, as 
a Member of the T&I Committee's Subcommittee on Aviation, I worked hard 
to incorporate necessary funding into this year's FAA reauthorization 
bill that will make our runways safer and increase aviation safety 
inspectors by more than one-third. I also sought to ensure the 
accelerated implementation of the Next Generation Air Transportation 
system, which will allow our air traffic control system to meet two to 
three times the amount of current demand and keep pace with the ever-
increasing number of flights.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    Like most Americans, I was stunned last week to hear that NASA had 
refused to release the results of an $11 million survey of airline 
pilots on potential safety lapses in our nation's aviation network. . 
.because the information ``could undermine public confidence in the 
airlines and could affect the airlines' profits.''
    The idea that the Federal Government would put private profits 
ahead of the flying public's safety is as outrageous and inexcusable.
    The only thing more shocking about this awful decision is where it 
came from. We're talking about NASA--the agency that houses some of the 
best and brightest minds on Earth.
    But it shouldn't take a rocket scientist to figure out that safety 
comes first.
    Aviation is serious business in my district. One of the Nation's 
largest airlines is headquartered in Tempe, and Phoenix Sky Harbor is 
now the eighth busiest in the country. We depend on aviation. . .and we 
depend on the Federal Government to keep our skies safe.
    NASA's survey reportedly contains information. . .from pilots. . 
.about runway incursions, wildlife strikes, and near collisions. These 
are real risks. If pilots have concerns about them, we need to know.
    And if NASA wants to tell us that its survey methodology was 
flawed. . .and, therefore, the results of its survey are inconclusive. 
. .then we need to know how they were able to waste $11 million 
taxpayer dollars creating and conducting it.
    Is it really asking too much for us to expect NASA to know a thing 
or two about scientific methodology?
    The flying public deserves an explanation.
    They deserve to know how this happened. . .but more importantly, 
what is being done to correct the situation, and what steps are being 
taken to ensure that something like this never happens again.
    I look forward to hearing from our witnesses.
    I yield back.

    Chairman Gordon. At this time I would like to recognize our 
first panel. First we have Dr. Michael Griffin, who is the 
Administrator of the National Aeronautics and Space 
Administration, and I will concur with Mr. Hall's accolades, 
even the youthfulness. And we also have Mr. Jim Hall, who is a 
Managing Partner at Hall and Associates and is also the Former 
Chairman of the National Transportation and Safety Board. 
Welcome to you both.
    And Chairman Griffin, we will begin with you or Director 
Griffin.

                                Panel 1:

 STATEMENT OF DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NATIONAL 
          AERONAUTICS AND SPACE ADMINISTRATION (NASA)

    Dr. Griffin. Thank you, Mr. Gordon, Mr. Hall for your kind 
statements. I only wish I were still young, but, oh, well. It 
is all a matter of relativity here. Mr. Hall is my hero. He is 
still on the right side of the dais.
    So, thank you, Mr. Chairman, Members of the Committee for 
the opportunity to appear here today to discuss aviation safety 
and the NAOMS Project. When I was made aware last week that a 
NAOMS pilot survey data had been withheld under Freedom of 
Information Act request initiated by the AP, I asked Dr. Lisa 
Porter, our AA for Aeronautics Research, to investigate the 
matter. And I hope to provide you with the information that 
will address the questions and the concerns that have been 
raised by you and others in the past several days.
    Let me start by making three points clear up front. First, 
the survey results that we can legally release will be 
released. Period. Two, the contractor and NASA maintain master 
copies of all NAOMS survey results, and we have instructed the 
NAOMS project management team and the contractor, Battelle, to 
retain all records related to the project. Battelle provided 
the same direction to its subcontractors. Also, sir, your staff 
has this data.
    Three, the NAOMS Project had from its inception a planned 
and finite duration. It was not terminated early. It was, in 
fact, extended, and it was not terminated early to provide 
funds for the Moon Mars Program or anything else.
    Quite simply, the NAOMS Project began in 1998, with the 
goal of developing methods to facilitate a data-driven approach 
to aviation systems safety analysis. To accomplish this goal 
required the generation of data that are statistically 
meaningful and representative of the system. The NAOMS Project 
Team developed a survey methodology to acquire that data. The 
survey methodology development took about two years to 
complete.
    The actual data collection using that methodology began in 
April of '01, and ended in December of '04. During that time 
the project team interviewed, surveyed approximately 24,000 
commercial airline pilots and 5,000 general aviation pilots. In 
early '05, it was determined that the number of survey results 
collected were sufficient to evaluate whether the NAOMS survey 
methodology indeed produced statistically meaningful and 
representative data.
    NASA's Aviation Safety and Security Program leadership then 
directed the NAOMS Project to complete the assessment of its 
survey methodology and transfer it to industry and government 
decision-makers and provided the FY 2005 funding to do that.
    It is worth noting that the 2004 review of NASA's aerospace 
technology enterprise by the National Academies concluded at 
that time that there was not a compelling argument for 
continued independent data collection in the NAOMS Project. In 
fact, quoting from that report, the ``NAOMS Project seems to be 
developing a methodology to establish trends in aviation safety 
performance that are already available through other sources 
within industry and government.''
    In 2006, the Aviation Safety Program of NASA's Aeronautic 
Research Mission Directorate provided additional funding to 
complete the transition and to document the results. The 
transition of the survey methodology has now been successfully 
completed, but the documentation has taken longer to complete 
than anticipated. That will be completed by the end of this 
year.
    Now, it has been widely reported that NAOMS funding was cut 
or prematurely ended. That is not the case. When the project 
originated in 1998, it was intended to continue until 2004, as 
indicated in project briefings that were provided to various 
government and industry audiences when it began. Copies of 
these briefings have been provided to Committee staff for the 
record.
    As I previously mentioned, funding was extended through 
'06, to allow for transition of the methodology and final 
documentation. And the total amount that we have now spent on 
this effort has been $11.3 million.
    Now, with all that said, the arch, overarching goal of 
trying to develop methodologies the enabled data-driven safety 
analyses is one that we at NASA continue to embrace in the 
current Aviation Safety Program, and we do so in close 
partnership with the FAA, industry, and academia.
    In order to significantly reduce the accident rate to meet 
the expected growth of the next generation air transportation 
system, it is imperative to develop a robust safety information 
system that discovers safety precursors before accidents occur. 
Accomplishing this requires the ability to combine and analyze 
enormous amounts of data from varied sources to detect and act 
on new safety threats.
    To address this challenge, NASA and FAA are combining their 
separate and unique skills and resources under clearly-defined 
roles and responsibilities. NASA is focused on the development 
of advanced analysis alga rhythms that can be implemented in a 
comprehensive system that the FAA can utilize to effectively 
analyze a wide variety of safety data.
    In order to ensure that the technology is effectively 
transitioned between the organizations, a program plan has been 
developed and is being executed. The initial response to this 
approach from the stakeholder community has been very positive. 
The FAA's Research Engineering and Development Advisory 
Committee, the REDAC Safety Subcommittee, recently reported and 
recent means in October of '07, that it, ``Believes significant 
progress has been made over the past year,'' in defining the 
program and its execution. The Safety Subcommittee credited the 
leadership of both FAA and NASA for, ``Driving a well-
integrated plan that will form the basis for proactive risk 
identification and assessment in the future.''
    There has been a lot of speculation in the press regarding 
what the NAOMS survey might reveal about the safety of the 
National Aerospace System. Several briefings were given to 
other government agencies and industry organizations by members 
of the NAOMS Project Team, and some of those presentations 
included some analyses that were based upon extrapolating the 
survey results to obtain, to estimate absolute numbers of 
events that would occur within a given time period. When this 
was done, for many of these events the numbers were 
significantly higher than reported by other means such as the 
Aviation Safety Reporting System or ASRS that NASA manages by 
statute.
    However, no attempt was made to validate the NAOMS 
extrapolation methodology, and indeed, given the results for 
some cases such as engine failure events that are highly public 
and carefully documented affairs, there may be a reason to 
question the validity of the methodology itself. It is 
interesting to note here that in NASA's own Safety Reporting 
System, the NSRS, 40 percent of the events which are reported 
are either found-are found later to be either overstated, 
unverifiable, or not significant enough to require follow-up.
    While some analysis of the survey results was presented to 
NASA, other government agencies and other personnel, 
unfortunately none of the research conducted in the NAOMS 
Project, including the underlying survey methodology, was peer 
reviewed or has been peer reviewed to date. Accordingly, any 
product of the NAOMS Project, including the survey methodology, 
the resulting data, and any analysis of that data should not be 
viewed or should not be considered at this stage as having been 
validated.
    So in plain speaking, when I said we can release whatever 
data can, we will release whatever data we can be legally 
released, and we will do that, we do not certify that data. 
There has been considerable attention in the press to the 
supposed destruction of NAOMS data. In fact, Battelle, the 
prime contractor, maintains master copies of all survey data on 
CDs and other back-up media in its Mountain View facility. 
NASA's Ames Research Facility at Moffett Field also has copies 
of this data.
    We had directed Battelle to recover or to ensure the secure 
destruction of any copies of survey results that might be held 
at locations outside Mountain View. This includes copies held 
by present or past Battelle NAOMS subcontractors. The purpose 
of that request was to ensure compliance with NASA's data 
security requirements as part of the contract close-out 
process, because the contract was scheduled to end in October 
of '07. This request in no way jeopardized the security of the 
master copies, which remain secure at Battelle and at Ames.
    To ensure that no instruction--no destruction of survey 
results occurs, however, including those held by 
subcontractors, after the concerns about data destruction were 
raised by this committee, NASA directed the NAOMS Project 
Management Team and Battelle to retain all records related to 
the NAOMS Project, and Battelle provided the same direction to 
its subcontractors. We have provided all this information to 
the Committee.
    Finally, let me focus on the Freedom of Information Act 
request. Under federal law we at NASA are required to protect 
confidential commercial information that is voluntarily 
provided to the agency and would not customarily be released to 
the public. That is the law. In preparing our response to the 
AP Freedom of Information Act appeal, the characterization of 
the requested data by Ames researchers raised concerns that the 
data likely contained confidential commercial information. This 
characterization was the basis for withholding the data under 
Exemption 4.
    Now, considerable attention has been focused on one 
sentence in the final determination letter suggesting the data 
was being withheld because, ``It could affect public confidence 
in and the commercial welfare of air carriers and general 
aviation companies.'' Now, I have already made it clear that I 
do not agree with the way this was written, and I regret any 
impression that NASA was or would in any way try to put 
commercial interests ahead of public safety. That was not and 
will never be the case.
    As for our plans for the data, I have directed that all 
NAOMS data not containing confidential commercial information 
or information that could compromise the anonymity of 
individual pilots be released as soon as possible. But at 
present we are concerned that it might be possible that a 
knowledgeable person could identify a specific individual or 
reconstruct specific events back to a specific individual, and 
we must protect against that, and no proprietary commercial 
information could be compromised.
    We will receive a written report by Battelle by the end of 
this year that will include a description of the methodology, 
the approach, the field trials, et cetera. We will make this 
report available to any interested party. We intend to continue 
to emphasize the importance of peer review of all research 
results, whether conducted by NASA's researchers or our 
contractors funded by NASA. Peer review is critical to the 
achievement of technical excellence.
    Let me conclude by thanking you for this opportunity to 
appear before you to discuss the NAOMS issue and to answer your 
questions. Thank you.
    [The prepared statement of Dr. Griffin follows:]
                Prepared Statement of Michael D. Griffin
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear before you today to discuss the National Aviation 
Operations Monitoring Service (NAOMS) project, and the issue concerning 
the release of data obtained by various researchers pursuant to that 
project. When I was made aware last week that NAOMS pilot survey data 
had been withheld under a Freedom of Information Act request initiated 
by the Associated Press, I asked Dr. Lisa Porter, Associate 
Administrator for Aeronautics Research, to investigate the matter. I 
hope to provide you with information that will address the questions 
and concerns that have been raised by you and others during the past 
several days.

What is NAOMS?

    There has been some confusion regarding what NAOMS actually is. The 
NAOMS project began in 1998 with an overarching goal of developing 
methods to facilitate a data-driven approach to aviation system safety 
analysis. Accomplishing this goal requires the generation of data that 
are statistically meaningful and representative of the system. The 
NAOMS project team decided to develop a survey methodology to acquire 
such data. The survey methodology development took roughly two years to 
complete. The actual data collection using the methodology began in 
April 2001 and ended in December 2004. During that time, the project 
team surveyed approximately 24,000 commercial airline pilots and 
approximately 5,000 general aviation pilots.
    In early 2005, it was determined that the amount of data collected 
was sufficient to evaluate whether the NAOMS survey methodology indeed 
produced statistically meaningful and representative data. NASA's 
Aviation Safety and Security Program leadership thus directed the NAOMS 
project to complete the assessment of its survey methodology and 
transfer it to industry-government decision-makers (Commercial Aviation 
Safety Team [CAST] and Air Line Pilots Association [ALPA]), and 
provided FY 2005 funding to do so. It is worth noting that the 2004 
Review of NASA's Aerospace Technology Enterprise by the National 
Academies concluded that there was not a compelling argument for 
continued independent data collection in the NAOMS project. In FY 2006, 
the Aviation Safety Program of the Aeronautics Research Mission 
Directorate (ARMD) provided additional funding to complete the 
transition and to document the results. The transition of the survey 
methodology has been successfully completed, but the documentation has 
taken longer to complete than anticipated. The documentation will be 
completed by the end of this year.

Why was funding for NAOMS cut?

    It has been widely reported that NAOMS funding was cut or 
prematurely shut down. That is not the case. When the project 
originated in 1998, it was intended to continue until 2004, as 
indicated in project briefings that were provided to various government 
and industry audiences when the project began. (These briefings have 
been provided to the Committee for the record. Later briefings 
indicated an extension to 2005.) As I previously mentioned, funding was 
extended through 2006 to allow for transition of the methodology and 
final documentation. The total amount we spent on this effort was 
$11.3M.
    That said, the overarching goal of trying to develop methodologies 
that enable data-driven system safety analyses is one that NASA 
continues to embrace in its current Aviation Safety Program, in close 
partnership with the FAA, industry, and academia. In order to 
continually and significantly reduce the accident rate to meet the 
expected growth of the Next Generation Air Transportation System 
(NextGen), it is imperative to develop a robust safety information 
system that discovers safety precursors before accidents occur. 
Accomplishing this requires the ability to combine and analyze vast 
amounts of data from many varied sources to detect and act on new 
safety threats.
    NASA and the FAA are combining their unique skills and resources 
under clearly defined roles and responsibilities to address this 
challenge. NASA is focused on the development of advanced analysis 
algorithms that can be implemented in a comprehensive system that the 
FAA can utilize to effectively analyze a wide variety of safety data. 
In order to ensure that the technology is effectively transitioned 
between organizations, a program plan has been developed and is being 
executed. The initial response to this approach from the stakeholder 
community has been very positive. The FAA Research Engineering and 
Development Advisory Committee (REDAC) Safety Subcommittee recently 
reported out to the REDAC in October 2007 that it ``believes 
significant progress has been made over the past year'' in defining the 
program and its execution. The Subcommittee credited the leadership of 
both the FAA and NASA for ``driving a well integrated plan that will 
form the basis for proactive risk identification and assessment in the 
future.''

What do the data show?

    There has been much speculation in the press regarding what the 
data will reveal about the safety of our national airspace system. 
Several briefings were given to other government and industry 
organizations by members of the NAOMS project team, and some of those 
presentations included some analyses that were based upon extrapolation 
methods to estimate absolute numbers of events occurring within a given 
time period. For many of these events, the numbers were significantly 
higher than reported by other means, such as the Aviation Safety 
Reporting System (ASRS). However, there was no attempt made to validate 
the extrapolation methodology. Indeed, given the results for some 
examples such as engine failure events, there may be reason to question 
the validity of the methodology.
    While some analysis of the data was presented to NASA and other 
government personnel, unfortunately, none of the research conducted in 
the NAOMS project, including the survey methodology, has been peer-
reviewed to date. Accordingly, any product of the NAOMS project, 
including the survey methodology, the data, and any analysis of that 
data, should not be viewed or considered at this stage as having been 
validated.

Did NASA destroy any data?

    There has been considerable attention in the press to the supposed 
destruction of NAOMS data. Battelle Memorial Institute, the prime 
contractor, maintains master copies of all NAOMS survey results on 
compact discs and other backup media in its Mountain View, Calif., 
facility. NASA's Ames Research Facility at Moffett Field, Calif., also 
maintains copies of this data.
    NASA had directed Battelle to recover, or ensure secure destruction 
of, any copies of the NAOMS data that might be held at locations 
outside of Mountain View. This includes copies held by present or past 
Battelle NAOMS subcontractors. The purpose of this request was to 
ensure compliance with NASA data security requirements as part of the 
contract close-out process, because the contract is scheduled to end in 
October 2007. This request in no way jeopardized the security of the 
master copies, which remain secure at Battelle and the Ames Research 
Facility.
    To ensure that no destruction of data, including data held by sub-
contractors, occurred after concerns about data destruction were raised 
by this committee, NASA notified the NAOMS project management team and 
Battelle to retain all records related to the NAOMS project. Battelle 
provided the same direction to its subcontractors.

Dissemination of research results

    One of the most important NASA principles is to ensure the 
dissemination of research results to the widest practical and 
appropriate extent. This principle has received particular focus during 
the restructuring of ARMD. The emphasis on open dissemination is 
clearly stated in ARMD's fully and openly competed NASA Research 
Announcements as well as in the Space Act Agreements that it 
establishes with commercial organizations for collaborative research. 
Furthermore, all of ARMD's project plans include documentation and 
publication of results as deliverables. We firmly believe in the 
importance of the peer-review process, which is essential for ensuring 
technical excellence.

Why did NASA reject the FOIA request?

    Under federal law, NASA is required to protect confidential 
commercial information that is voluntarily provided to the agency and 
would not customarily be released to the public. In preparing the 
response to the Associated Press' Freedom of Information Act appeal, 
the characterization of the requested data by Ames researchers raised 
concerns that the data likely contained confidential commercial 
information. This characterization was the basis for withholding the 
data under Exemption 4.
    Considerable attention has been focused on one sentence in the 
final determination letter suggesting the data was being withheld 
because it could ``affect the public confidence in, and the commercial 
welfare of, the air carriers and general aviation companies.'' I have 
already made clear that I do not agree with the way it was written. I 
regret any impression that NASA was in any way trying to put commercial 
interests ahead of public safety. That was not and never will be the 
case.

NASA plans

    I have directed that all NAOMS data that does not contain 
confidential commercial information, or information that could 
compromise the anonymity of individual pilots, be released as soon as 
possible. The release of this data will be accompanied with the proviso 
that neither the methodology nor the results have received the level of 
peer review required of a NASA research project. Therefore, the survey 
methodology and the data should not be considered to have been 
verified.
    NASA will receive a final report from Battelle by December 31, 2007 
that will include a comprehensive description of the methodology, 
including approach, field trials, etc. NASA will make this report 
available to any interested party.
    We intend to continue to emphasize the importance of peer-review of 
all research results, whether conducted by NASA researchers or 
contractors funded by NASA. Peer-review is critical to the achievement 
of technical excellence.

Concluding remarks

    Let me conclude by thanking you again for this opportunity to 
appear before you to discuss NAOMS and to answer your questions.

    Chairman Gordon. Thank you, Dr. Griffin, for your candor 
once again, and Mr. Hall, you are recognized.

  STATEMENT OF MR. JAMES E. HALL, MANAGING PARTNER, HALL AND 
   ASSOCIATES, LLC; FORMER CHAIRMAN, NATIONAL TRANSPORTATION 
                      SAFETY BOARD (NTSB)

    Mr. Hall. Thank you, Mr. Chairman, Representative Hall, and 
distinguished Members of this committee. I have provided 
extended testimony that I would like to submit for the record 
if it pleases the Chairman.
    Chairman Gordon. No objection.
    Mr. Hall. And it is I think significant that this meeting 
is being held on the eighth anniversary of the Egypt air 
accident that occurred during my watch at the NTSB. I 
appreciate the opportunity to speak on aviation safety. Can 
NASA do more to protect the public? This is one of the issues 
that was addressed 10 years ago by the 1996, White House 
Commission on Aviation Safety and Security, which I had the 
privilege to serve on. The commission was prompted in large 
part by the tragic aviation accidents of that year, ValuJet and 
TWA 800.
    Before I begin, however, I would like to share with this 
committee that the most important thing, the most important 
thing I learned in my seven years at the NTSB, and that is the 
culture of aviation safety has been built upon constant 
critical self-examination. Open and transparent information 
flow is the key to aviation safety. With openness in mind, the 
members of the 1996 commission felt that we needed to get ahead 
of events in a rapidly changing environment to be able to 
improve the safety and security of aviation before, not after, 
another tragic accident occurred.
    Notable safety recommendations issued by the commission 
included the establishment of standards for continuous safety 
improvement, a target rate of 80 percent was said for the 
reduction of fatal accidents. And we continued, which has 
considerable expertise in resources and the area of safety 
research, to expand its involvement in the promotion of 
aviation safety.
    In this last point the extremely important safety research 
function is what brings us here today. Since the commission 
met, we have seen a 65 percent reduction in fatal accidents. 
While this is certainly welcome news, there are dangerous 
trends in the aviation industry that stand to jeopardize that 
progress. These include air traffic controller and pilot 
staffing levels, the number of runway incursions, the dramatic 
increase we will see in general aviation, the development and 
implementation of NextGen, UAVs and the explosion in passenger 
levels, which the Chairman referred to and which is estimated 
to reach 2.3 billion by the year 2027.
    More work indeed remains, which makes it all the more 
frustrating that NASA withheld results obtained from what I 
first believed was an $8.5 million taxpayer-funded National 
survey of almost 24,000 pilots. This survey reportedly states 
that runway incursions, wildlife strikes, and near collisions 
occur at a rate at least twice as much as is commonly thought.
    As justification to its denial of a FOIA request the NASA 
spokesman cited the potentially harmful effects on the 
commercial welfare of the air carriers and public confidence in 
aviation.
    Such action, I believe, runs counter to the safety culture 
mentality that the government and industry have worked to 
create over the past 10 years. As the Government Accounting 
Office has observed, transparency forms the fundamental basis 
for any safety program. If we don't know something is broken, 
we cannot fix it.
    It is difficult to overemphasize the importance of 
transparency and accountability in aviation. I know each one of 
you Members fly probably weekly. I believe that that 
transparency and accountability that is the single greatest 
reason you are so safe when you get on an airplane today. The 
history of transparency began with the Wright Brothers, who 
assisted in the investigation of the first fatal aviation 
accident in 1908, and used the results to incorporate changes 
to their flying machine in order to save lives.
    This open process has resulted in numerous important 
advances in aviation. NTSB investigations and recommendations 
have led to the advent of the Traffic Alert and Collision 
Avoidance System, commonly known as TACAS, Low-Level Wind Sheer 
Alert System, anti-collision Systems and Ground Proximity 
Warning Systems to name but a few.
    To repeat, information flow is the key to safety. In its 
investigation into the two Shuttle accidents in 1986, and 2003, 
NASA itself noted that a decline in transparency and 
accountability among management and not simply a lack of 
adequate funding for safety was a root cause of both disasters.
    Furthermore, because major aviation accidents are now such 
a rarity, our ability to identify risks and maintain or 
increase safety now depends primarily on our ability to fully 
analyze incidents and trends. A true safety culture requires 
transparency and constant diligence. The vigilance, excuse me, 
is required of all involved in the aviation industry, but its 
absence is probably most glaring when it is the fault of 
government, the servants of the American people.
    NASA needs to release this information and fulfill its 
responsibilities as envisioned by the 1996, White House 
Commission. To do otherwise, I believe, flies in the face of 
aviation history, responsible government, and common sense.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hall follows:]
                  Prepared Statement of James E. Hall
Good afternoon Mr. Chairman and Members of the Committee:

    Thank you for allowing me the opportunity today to speak on the 
subject of Aviation Safety: Can NASA Do More to Protect the Public? My 
name is Jim Hall, and for more than seven years I served as Chairman of 
the National Transportation Safety Board (NTSB). I also had the honor 
to serve as a Commissioner on the 1996 White House Commission on 
Aviation Safety and Security.
    As you know, the NTSB is an independent federal agency charged by 
Congress with investigating every civil aviation accident in the United 
States as well as significant accidents in the other modes of 
transportation--railroad, highway, marine, and pipeline. Since its 
inception in 1967, the NTSB has investigated more than 124,000 aviation 
accidents and over 10,000 surface transportation accidents, and has 
also assisted many foreign governments with their own investigations. 
In its issuance of more than 12,000 recommendations in all 
transportation modes to more than 2,200 recipients, the Board has 
established a solid reputation for diligence and impartiality. From 
1994 to 2001, I headed this organization that serves as the ``eyes and 
ears'' of the American people at aviation and other transportation 
accidents across the country and around the world. Now, as a 
transportation safety and security consultant, I continue my commitment 
to promoting safety in our nation's transportation system.
    Today I would like to put the current aviation safety environment 
in a historical context. Ten years ago we were confronted with a 
special situation of change and risk in the aviation industry. In 
response, the Commission on Aviation Safety and Security was formed, 
which I will discuss in a moment. I believe that today we face a 
similar situation, what I like to call ``the next generation of 
risks.''

The Gore Commission

    In 1996, the Federal Government initiated a decade-long overhaul of 
aviation safety that began with the establishment of the White House 
Commission on Aviation Safety and Security, headed by Vice President Al 
Gore. The Gore Commission, as it would come to be called, was formed 
for three major reasons.
    On May 11, 1996, ValuJet flight 592 crashed in the Everglades after 
an in-flight fire caused by transported oxygen canisters, killing all 
110 people on board. In the resulting NTSB investigation, we found 
airline contractors and ValuJet--an airline that had been formed just 
three years prior to the flight 592 crash--negligent in several areas, 
including oversight and mishandling of hazardous materials. We also 
determined if previous recommendations issued in 1988 regarding fire 
detection and extinguishing systems had been adopted, flight 592 would 
likely not have crashed. It was, therefore, a largely preventable and 
tragic loss of life.
    The second major reason for the formation of the Gore Commission 
was an incident occurring only two months after the ValuJet crash. On 
July 17, 1996, Trans World Airlines Flight 800 experienced an in-flight 
break up following an explosion of the center wing fuel tank (CWT) 
shortly after take off from John F. Kennedy Airport in New York City, 
killing all 230 people on-board. After an extensive 17-month 
investigation, we determined the source of the explosion to be an 
ignition of the flammable fuel/air mixture in the tank, an ignition 
most likely caused by a short circuit outside of the fuel tank. The 
NTSB issued specific recommendations on wiring and design as well as 
broader management of the aging aircraft fleet. In the period 
immediately following the crash, concerns of possible security problems 
led President Clinton to call for an immediate report on aviation 
security within 45 days.
    The third reason that led to the Gore Commission was the general 
feeling that aviation--an industry that generated $300 billion annually 
and employed close to one million Americans--was undergoing profound 
changes. In the ten years prior to 1996, the Federal Aviation 
Administration (FAA) had certified twenty new aircraft models and the 
number of passengers flying in the United States exceeded more than a 
half billion. New digital technology was being developed to improve 
communication and navigation. Sixty new airlines, such as ValuJet, had 
started operations since 1992. The commercial airline fleet was both 
quickly aging and in the midst of rapid replacement of aircraft. The 
domestic market faced the possibility of increased competition from 
foreign carriers. To add to this, the FAA predicted that by 2007, more 
than 800 million passengers would fly in the United States.
    In this setting, and in light of two very public and tragic 
accidents, the Gore Commission was created with three specific 
mandates: to examine security threats and ways to address them; to 
analyze overall changes in the industry and the appropriate adaptation 
of government regulation to these changes; and to look at technological 
changes in the air traffic control system. All of us involved at the 
time felt that we needed to ``get ahead'' of events in a rapidly 
changing environment, to improve the safety and security of aviation 
before--not after--another tragic accident occurred.
    Over six months I and the fellow members of the commission--which 
included the Secretary of Transportation, two retired Air Force 
generals, the director of FBI, and several scientists--conducted dozens 
of site visits in the U.S. and abroad, held six public meetings, and 
co-sponsored an International Conference on Aviation Safety and 
Security attended by over 700 representatives from sixty-one countries. 
From our findings we issued some fifty-one separate recommendations 
covering a variety of issues from safety to security to the 
notification of family members following an incident.
    Notable safety recommendations issued by the Commission included: 
the establishment of standards for continuous safety improvement (a 
target rate of 80 percent was set for the reduction of fatal 
accidents); extension of FAA oversight to aviation contractors; the 
simplification of Federal Aviation Regulations; an emphasis on human 
factor safety research and training; and an extension of whistleblower 
statutory protection to the aviation industry. To be sure, not every 
recommendation made was subsequently enacted, nor was every possible 
safety item individually addressed--no commission can claim perfection 
in this respect. Nevertheless, many recommendations were in fact 
adopted and perhaps even more significantly, the Presidential attention 
shown to the issue sent a message to both government and industry 
leaders that the establishment of a safety culture was not an option. 
It is therefore no coincidence that in the ten year period following 
the commission, the industry successfully reduced fatal accidents by 65 
percent, 15 percent shy of the national goal, but noteworthy 
nonetheless.
    This reduction was due not only to the actions of the airlines but 
to government efforts as well. The Commission charged the FAA, 
Department of Transportation (DOT), and NTSB to be more vigorous in 
their certification, regulation, and investigative functions. It also 
urged the expansion of research, and specifically noted the need for 
the National Aeronautics and Space Administration (NASA), ``which has 
considerable expertise and resources in the area of safety research, to 
expand its involvement in the promotion of aviation safety.''
    As a result of the Commission's recommendation, NASA launched its 
$500 million Aviation Safety Program (AvSP) a partnership with the 
Department of Defense (DOD), FAA, and the aviation industry to focus on 
accident prevention, accident mitigation, and aviation system 
monitoring and modeling. It is this last point, the extremely important 
safety research function, which brings us here today. Given a rapidly 
changing environment and a new set of risks, the attempt on the part of 
NASA to suppress safety data is a grave and dangerous challenge to the 
safety culture that has developed over the last century of aviation 
history, due to lessons learned from past accidents and incidents.

The Next Generation of Risks

    The 65 percent reduction in fatal accidents over the past ten years 
is certainly welcome news, but while many advances have been made, 
there are dangerous trends in the aviation industry that stand to 
jeopardize this progress.
    We are currently in the middle of an air traffic controller 
staffing crisis. Fueled in part by the lack of a contract, this crisis 
has industry-wide consequences including: more and longer flight 
delays, combined radar and tower control positions, and an increased 
use of mandatory overtime resulting in an exhausted, stressed out, and 
burned out workforce. According to the National Air Traffic Controller 
Association (NATCA) there were 856 retirements in fiscal year 2007, 
(7.4 percent of the total experienced controller workforce), leaving 
the country with a 15-year low in the number of fully certified 
controllers and a surplus of new hires--many with no air traffic 
control experience or education. Total controller attrition in FY07 was 
1,558, nearly wiping out any net gains in total staffing made by the 
FAA's hiring efforts. In fact, the agency estimates it will lose about 
70 percent of the air traffic controller workforce over the next 10 
years.
    Air Traffic Controllers are not the only ones retiring. Pilot 
staffing levels are dangerously low as a result of retiring baby-
boomers and an explosion of new airlines and increased airline fleets 
in Asia and the Middle East, raising similar concerns of an influx of 
inexperienced and insufficiently trained pilots. In 2009, airlines will 
have to fill 20,000 openings due to retirements and other factors. Some 
airlines facing pilot shortages are lowering experience requirements to 
the FAA minimum.
    Other operational and technological areas present potentially 
problematic trends as well. Runway incursions, which have been on the 
NTSB's Most Wanted Safety Improvement list since 2001, totaled over 
1,300 between fiscal years 2003 and 2006. Among the aviation safety 
community, the Tenerife incursion accident that killed 583 people in 
the Canary Islands in 1977 stands as a sober reminder of the importance 
of getting this number down. The April 25, 2006 crash of an unmanned 
aerial vehicle (UAV) in Nogales, Arizona, and the resulting NTSB 
investigation and 22 recommendations illustrate the potential problems 
with the growing expansion of drone flights in the U.S. General 
aviation and the air ambulance fleet have also increased in the last 
ten years; however the FAA does not collect actual flight activity data 
for general aviation operators and air taxis, instead using an annual 
survey to query a sample of registered aircraft owners.
    Several new aircraft types will emerge in the years ahead, ranging 
from the jumbo Airbus A380 that seats more than 500 passengers--a jet 
so large as to raise safety concerns in its own right--to very light 
jets that might transport six or fewer passengers. As many as four to 
five hundred new very light jets are scheduled to be introduced into 
American airspace each year starting in 2008.
    The Next Generation Air Transportation System (NextGen), a major 
and much-needed technology upgrade for the air traffic control system 
scheduled for completion in 2025, will only add to the variables that 
need to be factored in aviation safety, especially if NextGen is not 
adequately funded, implemented, or regulated.
    Overshadowing all these developments is a major growth in demand 
for air travel. In fiscal year 2006, over 740 million passengers flew 
in American skies. That figure is projected to reach one billion by 
2015 and close to 2.3 billion by 2027. These numbers are absolutely 
staggering. On January 1, 2007 federal regulations on the quantity of 
planes able to use J.F.K. airport ended, and traffic has increased by 
some 20 percent. Congestion and resulting delays may be inconvenient, 
but it also increases the potential for mishaps. As a Government 
Accounting Office (GAO) report released in February of this year noted, 
``although the system remains extraordinarily safe, if the current 
accident rate continues while air traffic potentially triples in the 
next 20 years, this country would see nine fatal commercial accidents 
each year, on average.''
    I am not suggesting that nothing is being done to address these 
issues. I think individuals such as Marion Blakely, former 
administrator of the FAA, and Bobby Sturgell, current Acting 
Administrator of the FAA, have taken strong steps to address safety 
concerns. And yet, to again cite the GAO study, ``FAA's approaches to 
safety require that the agency obtain accurate and complete data to 
monitor safety trends, fully implement its safety programs, and assess 
their effectiveness to determine if they are focused on the greatest 
safety risk. FAA has made progress in this area but more work remains 
[italics added].''

The Withholding of NASA's Data

    More work indeed remains, which makes it all the more frustrating 
that NASA withheld results obtained from an $8.5 million tax payer 
funded national survey of almost 24,000 pilots. This survey reportedly 
states that runway incursions, wildlife strikes, and near collisions 
occur at a rate at least twice as much as is commonly thought. As 
justification to its denial of a Freedom of Information Act request, 
NASA cited the potentially harmful affects on the commercial welfare of 
the air carriers and general aviation companies.
    Such an action runs exactly counter to the safety culture mentality 
the government and industry have worked to create over the past ten 
years. As the GAO observed, transparency forms the fundamental basis 
for any safety program. If we don't know something is broken, we cannot 
fix it. If we do not know that runway incursions are actually occurring 
at a much higher level, then we cannot take steps and assign the 
resources to deal with them.
    It is difficult to overemphasize the importance of transparency and 
accountability in aviation. It is the single greatest reason why you 
are so safe when you get on an airplane today. The history of 
transparency began with the Wright Brothers, who assisted in the 
investigation of the first fatal aviation accident and used the results 
to incorporate changes to their flying machine in order to save lives. 
In September 1908, five years after the Wrights' historic flight, 
Orville and Lt. Thomas Selfridge were conducting an aerial 
demonstration for the Army in Fort Meyers, Virginia when their airplane 
stopped responding to controls and crashed, injuring Orville and 
killing Lt. Selfridge. The Wright Brothers' commitment to objective 
scrutiny and constant improvement set an historic precedent and has led 
to a safety culture in aviation that is built on fact finding, analysis 
and open sharing of information to advance aviation and save lives. 
This open process has resulted in numerous important advances in 
aviation. In the modern era, NTSB investigations and recommendations 
have led to smoke detectors in airplane lavatories, floor level 
lighting strips to lead passengers to emergency exits, anti-collision 
systems, and ground proximity warning devices, to name but a few.
    The industry often very clearly responds to the efforts of safety 
research even before investigations are completed. On September 8, 
1994, USAir flight 427, a Boeing 737, crashed while on approach to 
Pittsburgh, Pennsylvania. After 80,000 hours of investigation, the NTSB 
had not yet completed its final report but had issued several 
recommendations. In response, Boeing and the FAA began developing and 
certifying several modifications to the 737 main rudder power control 
unit (PCU) servo valve. The FAA proposed an Airworthiness Directive to 
require the installation of newly designed PCUs within two years. Most 
airlines began providing training to pilots on the recognition, 
prevention, and recovery of aircraft attitudes normally not associated 
with air carrier flight operations.
    On October 31, 1994, an American Eagle ATR-72 crashed in Roselawn, 
Indiana. Seven days after the crash of an ATR-72 in Roselawn, Indiana, 
we issued recommendations covering the operation of those aircraft in 
icing conditions. Thanks to a then state-of-the-art flight recorder, we 
were able to learn within days that the French-built ATRs upset was 
initiated by a rapid deflection of the right aileron. The NTSB deduced 
that this deflection was caused by the accumulation of a substantial 
amount of ice on the wings during the 30 minutes the plane was in a 
holding pattern. Within a week of the accident, the NTSB issued urgent 
safety recommendations to the FAA to restrict the operation of ATRs in 
icing conditions until a fix could be developed to counteract the 
phenomenon the accident aircraft encountered. Within a month, following 
test flights in the United States and France, the FAA effectively 
grounded the aircraft in icing conditions. A redesign of the wing anti-
icing boots was developed, and the modified airplanes returned to the 
skies.
    One of the keys to the Roselawn investigation was the fact that the 
flight data recorder (FDR) was recovered and that it recorded some 98 
parameters, giving investigators ample information with which they 
could quickly establish the cause of the accident and the most 
appropriate fix. This contrasts with the FDR on-board flight 427 the 
previous month, which recorded only 11 parameters and in so small part 
delayed the release of the final investigation report by over four 
years. In a sense, NASA's refusal to release their safety data is 
tantamount to denying investigators access to black boxes. Both actions 
seriously impede the ability to determine potentially critical safety 
concerns.
    Information flow is the key to safety, whether to the investigator 
actually assembling pieces on the ground or to the analyst compiling 
survey data back in the office. In its investigations into the two 
Shuttle accidents in 1986 and 2003, NASA itself noted that a decline in 
transparency and accountability among management--and not simply a lack 
of adequate funding for safety--was a root cause of both incidents.
    The investigation into the Challenger explosion specifically 
faulted management isolation and a failure to provide full and timely 
information. The final report of the Columbia Accident Investigation 
Board (CAIB) noted that for both the Columbia and Challenger accidents, 
``there were moments when management definitions of risk might have 
been reversed were it not for the many missing signals--an absence of 
trend analysis, imagery data not obtained, concerns not voiced, 
information overlooked or dropped from briefings.'' The Chairman of the 
CAIB, Retired Navy Admiral Harold Gehman pointed out that NASA tends to 
initially follow safety procedures quite well, but then loses its 
diligence as time progresses. Columbia investigation board member Air 
Force Major General John Barry stated that ``there is still evidence of 
a silent safety program with echoes of Challenger.'' Safety and silence 
are simply incompatible.
    The culture of aviation safety has been built on constant critical 
self examination, in an open environment, with full sharing of all the 
facts and analysis. Because we are safer today than yesterday does not 
mean that we cannot be safer tomorrow. It also doesn't mean that our 
gains are not perishable. For example, on July 2, 1994 USAir flight 
1016 crashed in Charlotte, North Carolina. We determined that the 
causal factor was something we hadn't seen in the United States in 
almost a decade: wind shear. Wind shear detection equipment and 
improved pilot training had all but eliminated this hazard and yet more 
sophisticated weather detection equipment--Terminal Doppler Radar--had 
fallen years behind schedule due to procurement and design problems.
    Furthermore, because we have made major accidents such a rarity, 
our ability to identify risks, and maintain or increase safety now 
depends primarily on our ability to fully analyze incidents and trends. 
In the absence of a major fatality accident or without a complete 
picture of runway incursions, wildlife strikes, and near-misses, we may 
be lulled into a false sense of security--only to have that eventually 
broken by a catastrophic loss of life. A true safety culture requires 
transparency and constant vigilance.
    This vigilance is required of all involved in the aviation 
industry, but its absence is perhaps most glaring when it is the fault 
of government, the servants of the American people. As Chairman of the 
NTSB, I followed the dictum of Benjamin Franklin, who said, ``The man 
who does things makes many mistakes, but he never makes the biggest 
mistake of all--doing nothing.'' I never wanted the American people to 
think that, when a need was identified--as it was in any number of 
safety-sensitive issues--we did nothing. Let us then not shrink from 
action but rather call on NASA to release its information, the denial 
of which flies in the face of aviation history, responsible government, 
and common sense.

Conclusion

    We are clearly facing a new generation of risks. New technology, 
new planes, personnel shortages, and a massive projected increase in 
air travel mean that new hazards are approaching. Before we push the 
panic button, however, we should remember that we have been in this 
situation before. In 1996, we projected an increase of 220 million 
passengers in the next ten years and identified a host of technological 
and operational concerns that would compound this development. In 
response the President formed a commission and its recommendations--
though not perfect and not all implemented--contributed to a 
substantial reduction in fatal accidents. Today in 2007, we are 
forecasting an increase of 260 million passengers in the next eight 
years and an increase of 1.5 billion in the next twenty. We have 
personnel shortages looming or already underway and have committed 
ourselves to new technology. In fact the only major difference between 
1996 and 2007 was 1996's dramatic and tragic loss of 340 lives in two 
accidents.
    Congress, government agencies, and the aviation industry must once 
again come together to address the rapidly changing aviation 
environment. We must stay ahead of events instead of waiting for 
another crash. Steps must be taken to prevent a deterioration of our 
nation's aviation safety culture, a deterioration that NASA's denial of 
transparency plainly represents. In only such a manner can we adapt to 
a growing and diversifying industry with a rigid adherence and 
commitment to the safety of all who fly in our nation's airspace.

                      Biography for James E. Hall
    Jim Hall is a leading expert on crisis management and government 
relations, and transportation safety and security, having served 
government and private clients for more than 35 years.
    Hall was nominated by President Clinton to the National 
Transportation Safety Board in 1993, became the Board's Chairman in 
1994 and led the Board through January 2001.
    During his chairmanship, Hall worked tirelessly to improve safety 
in all modes of transportation in the U.S. and abroad. He visited more 
than 30 nations as Chairman, and oversaw a period of unprecedented 
activity as the NTSB investigated numerous major aviation, rail, 
pipeline and maritime accidents in the U.S. and assisted in many 
international accident investigations. Among the major investigations 
the NTSB conducted while Hall was Chairman were the aviation cases of 
USAir 427, TWA 800, and EgyptAir 990, the Olympic Pipeline accident in 
Bellingham, Wash., the AMTRAK crash in Bourbonnais, Ill., and a 
Carnival Cruise Line accident near Miami. In 1996, President Clinton 
named Hall to the White House Commission on Aviation Safety and 
Security.
    Under Hall's leadership, the NTSB issued landmark safety studies on 
commuter airlines, the air tour industry, the performance and use of 
child restraint systems, personal watercraft, transit bus operations, 
passive-grade railway crossings and the dangers posed to children by 
passenger-side airbags in automobiles.
    Hall began his career in Washington serving as counsel to the 
Senate Subcommittee on Intergovernmental Relations and a member of the 
staff of Senator Albert Gore, Sr. He maintained a private legal 
practice in Chattanooga, Tennessee, before serving in the cabinet of 
Tennessee Governor Ned McWherter. Hall served as Director of the 
state's Planning Office for five years, and then returned to 
Washington, D.C., to serve as Chief of Staff for Senator Harlan Mathews 
before being appointed to the NTSB.
    Today, Hall serves as an adviser to governments and private clients 
on transportation safety and security, crisis management and government 
relations. He is a frequent speaker at industry events, an oft-quoted 
expert source by television and print reporters, and an author of 
numerous Op-Ed pieces. Hall has appeared on virtually every major 
television news program, including ``60 Minutes,'' the ``Today'' show, 
``Nightline,'' ``Larry King Live,'' ``Fox & Friends,'' and ``BBC 
News,'' and his columns have appeared in publications such as the New 
York Times and USA Today. In 2002, the U.S. Forest Service named Hall 
to co-chair a blue-ribbon safety review of the operations of 
firefighting aircraft after three such aircraft crashed that summer.
    Hall is a University of Tennessee Trustee, serves as Chairman of 
the Enterprise Center in Chattanooga, on the Board of Directors of the 
Chattanooga Metropolitan Airport Authority and the Tennessee River 
Gorge Trust. Hall has also served on the National Academy of 
Engineering's Committee on Combating Terrorism, Co-Chairman of Blue 
Ribbon Report of Aerial Fire Fighting Safety and the Aviation Institute 
Advisory Board of George Washington University.
    Hall has given congressional testimony before numerous House and 
Senate committees, including the House Committee on Transportation and 
Infrastructure (Aviation and Railroad Subcommittees), the Senate 
Committee on Commerce, Science and Transportation (Transportation and 
Surface Transportation/Merchant Marine Subcommittees).
    Hall graduated from the University of Tennessee in 1967 with a 
Baccalaureate of legal letters degree. He served as a commissioned 
officer in the U.S. Army from 1967 to 1973, receiving the Bronze Star 
for Meritorious Service in Vietnam in 1969.

                               Discussion

    Chairman Gordon. Thank you, Mr. Hall. At this point we will 
open it for our first round of questions, and the Chair 
recognizes himself.
    Let me first state that I think by any measure you might 
take, particularly if you want to say the number of miles flown 
that United States has the safest air transportation system in 
the world. I fly, as Mr. Hall says, almost every week, often 
with my wife and my daughter. I don't intend to change those 
flight plans in any way, so our discussion today is not safety 
and non-safety. It is safety and more safety. And so we should 
make that very clear.
    And let me also say that, you know, 24,000 commercial 
pilots and 5,000 private pilots, I mean, that to me sounds like 
an unprecedented amount for a survey, and so that is an 
enormous amount of data that I think should be made available, 
and although I recognize NASA's interest in a particular 
methodology, I think that oftentimes some of the most important 
discoveries in America have been those offshoots of 
information.

                         Release of NASA Report

    So I would ask you, Director Griffin, now that your lawyers 
have for over a year had this request on the Freedom of 
Information, when can we, why can't this material be released 
today?
    Dr. Griffin. When we look at the material, despite the 
certifications that you--that I know you have heard from the 
contractor involved, the data, in fact, today could not in its 
fullness be legally released.
    Chairman Gordon. And why is that?
    Dr. Griffin. Because it does contain specific comments that 
identify certain airlines. It contains--it notes accidents and 
incidents or occurrences that sight specific timeframes, 
specific airports, specific makes and models of airplanes. If I 
look at that data, I can reconstruct for you----
    Chairman Gordon. Dr. Griffin----
    Dr. Griffin.--and so we are going to delete those fields. 
We are asking our contractor to delete those fields and to 
render data back to us which is not identifiable as they were 
originally required to do.
    Chairman Gordon. Director, I only have five minutes. I am 
sorry.
    We have asked your lawyers to cite that you were nice 
enough to provide the information to us. We couldn't find it. 
We have asked your lawyers to point us in that direction to 
that information. They couldn't do it. Have you seen the 
specific information?

             Reasons for Not Releasing Parts of the Report

    Dr. Griffin. I have seen examples of specific information 
which would not be----
    Chairman Gordon. In this report?
    Dr. Griffin. In this report which would not be releasable.
    Chairman Gordon. Okay. Well, it would have been helpful if 
your lawyers had shown us, because we specifically asked that. 
But let me also--I want to put up a slide if I could, please, 
from your contractor. Apparently there is a program that is 
supposed to scrub it, and within NASA's own information it 
says, participant confidentiality is assured. So apparently you 
have already done this.
    Dr. Griffin. Well, no. That information is not as it stands 
correct.
    Chairman Gordon. Even though it has a NASA logo on it?
    Dr. Griffin. I am sorry. It is not correct. Okay. It is 
possible to look at this data, and if one knows anything about 
aviation, in some cases to go back and identify the 
participants, and that can't be allowed.
    Chairman Gordon. So NASA was premature in certifying its 
confidentiality?
    Dr. Griffin. Correct.
    Chairman Gordon. All right. Well, let me ask you this. You 
are familiar with the Aviation Safety Reporting System.
    Dr. Griffin. Very much so.
    Chairman Gordon. Okay. Let me just--I want to read to you 
one section of that that is from March of 2004. And this is up 
on the Internet. This is available for everybody. ``After two 
previous,'' and I am quoting. ``After two previous red-eyes, 
this being the third red-eye in a row, the last 45 minutes of 
flight I fell asleep and so did the first officer, missed all 
calls from the air traffic control.'' That was the quote. This 
is a report made by an aircraft crew member who slept through 
their decent, clearance, 60 miles southeast of Denver. Once 
they are awakened by the frantic calls from the air traffic 
control, they executed a successful landing.
    Now, this is just one of thousands of the reports that 
identify the airport, sometimes the approximate time, aircraft, 
runway numbers. This material is public.
    Dr. Griffin. That is true.
    Chairman Gordon. So why should your survey not be public? 
Is it going to go into more, I mean, have you not, have they 
not done what they said they were going to do and scrub it to 
at least this extent?
    Dr. Griffin. When we look at the data, we do not at this 
point believe the data has been scrubbed sufficiently to assure 
confidentiality of the participants and to protect confidential 
commercial information according to the standard to which we 
are held. As soon as we can do that, we will release the data. 
Now----
    Chairman Gordon. Are you going to have a standard higher 
than this ASRS?
    Dr. Griffin. I wouldn't say so.
    Chairman Gordon. Okay. So the information that I just read 
to you that is already public, you would not say that has to be 
scrubbed. They have to be greater, I don't know how, you know, 
a greater level of detail to be scrubbed?
    Dr. Griffin. I don't know that I would characterize it as a 
greater or lesser level of detail, but we do need to remove 
specific references to airlines, specific references to 
incidents and timeframes such that pilot identity could be 
reconstructed. We think that that would be a relatively 
straightforward process to delete certain of the fields which 
convey that information, and we believe the initial release of 
the data could occur by the end of this year.
    Chairman Gordon. And so you are going to do it by fields, 
so it will be by a computer program?
    Dr. Griffin. Right. Certain of the fields will be----
    Chairman Gordon. Okay. Well, it seems like that is what has 
already been done here, and if it is going to computer program, 
why can't you do it today, tomorrow.
    Dr. Griffin. I think you----
    Chairman Gordon. ----before the end of the year?
    Dr. Griffin.--maybe, when you look at that view graph, 
there may be some confusion between anonymizing the data to 
satisfy Privacy Act considerations and rendering the data such 
that no one knowledgeable in the field of aviation could go 
back and reconstruct it.
    Chairman Gordon. Well, isn't that the same thing?
    Dr. Griffin. I am not trying----
    Chairman Gordon. If it was the Freedom of Information that 
the AP asked for this from the Freedom of Information, then 
wouldn't you have assumed it would be made public record? And 
so it is the same thing, the same level of caution?
    And you folks had a year to do this already.
    Dr. Griffin. I don't think we have had a year since the 
original submission, since the submission of the FOIA request.
    In any case, I am not defending, I stated for the record, 
and I will state for the record again that I believe the FOIA 
determination that we should not release the data was 
incorrect, okay? We will release the data. As we set out to 
look at the data, to verify whether we could release it or not, 
we found that the data had not, in fact, been correctly 
scrubbed to remove identifying data. And if it had been, I 
would have released it on the spot, but it has not, and so 
until and unless I can verify that it has been correctly 
scrubbed, it will not be released.

              Information About the Data That Was Released

    Chairman Gordon. Okay. I don't want to infringe on my time. 
You have never given me a reason not to trust your statement in 
any way. Let me just tell you that we have asked your lawyers 
specifically to provide us that information, to point some 
place. We have not been, you know, you have given us data.
    Dr. Griffin. Yes, sir.
    Chairman Gordon. So all you got to do is say, look here, 
look there. And so it would give me a greater level of 
confidence if your folks could tell us where and could give us 
one example. Then we could feel more comfortable that you need 
this additional time.
    Dr. Griffin. Yes, sir. Let me then take that request for 
the record, and we will provide you with a couple, at least a 
couple of examples----
    Chairman Gordon. Okay.
    Dr. Griffin.--where specific identifying information is 
included that would allow pilot, participant identities to be 
compromised. They do exist, and we will provide those for you.
    Chairman Gordon. And I would hope there would be to a 
greater clarity than what is already of public record on the 
ASRS.
    Dr. Griffin. They are extraordinarily clear.
    Chairman Gordon. Thank you----
    Dr. Griffin. I will provide that.
    [The information follows:]
                        Material for the Record
    One way, but not the only way, by which the identification of a 
NAOMS survey respondent can potentially be determined is by combining 
the free-text fields (pilots' open-ended responses and clarifications) 
with data from other parts of the survey and/or external (exogenous) 
data sources.
    The availability of exogenous databases and sophisticated search 
technology makes the likelihood of implicit identification greater, and 
it is correspondingly more difficult to ensure that adequate 
protections have been implemented.
    The following two examples cite free-text field responses to 
Question ER 1 of Section B (Safety Related Events), which asked pilots 
how many times in the past 60 days an aircraft, on which they were a 
crew member, was diverted to an alternative airport and provide the 
cause for the diversion.
    Example I (Case ID 90P0001): the pilot responded, ``Earthquake in 
Seattle.'' A web search reveals the only seismic event that diverted 
flights from the Seattle-Tacoma Airport during the survey period: A 
magnitude 6.8 earthquake on February 28, 2001. During the period of 
closure and reduced operations that day, approximately 100 arriving 
flights were diverted; the exact number, together with airline and 
flight identifiers, could be obtained from Federal Aviation 
Administration (FAA), airline, and/or airport. databases.

        <bullet>  This single response has reduced the number of 
        candidate responders from over 60,000 (the number of air-
        carrier certificated pilots listed in the Airmen's Registry) to 
        approximately 200.

        <bullet>  This profile can be further refined using non-
        redacted NAOMS data from other questions.

                -  From Section A, we can determine the pilot's flight 
                profile for the past 60 days (e.g., number of hours and 
                flight legs flown; the makes, models, and series of 
                aircraft flown; whether flights were passenger or 
                cargo, whether the pilot flew as captain or first 
                officer, whether the pilot flies for a small, medium, 
                or large operator; and the pilot's total commercial 
                flight hours).

                -  From Section B, if the pilot gave a positive 
                response to any reportable safety event, an individual 
                could cross-reference the pilot profile to event 
                reports (FAA, airline) from the defined interview 
                window (i.e., February 28th  60 days) to match an 
                individual's name to the profile. If not, the profile 
                may still match a name on airline duty rosters or other 
                exogenous databases.

    Example II (Case ID 90C2001): the pilot's stated cause for 
diversion was, ``American 587 crashed at JFK. R was en-route to JFK at 
the time and was diverted to Philadelphia.'' Again, this free-text 
field response provides a specific event (the crash of an Airbus A300-
600 into Belle Harbor at 9:17 AM local time on November 12, 2001) for 
which there are detailed records of diverted flights. The pilot has 
also specified the alternate airport (Philadelphia), further limiting 
the field of possible flights. As before, the respondent's profile 
could be refined by the non-redacted NAOMS data. When cross-correlated 
with exogenous databases, the refined profile might again lead to the 
identification of a NAOMS survey respondent.

    Chairman Gordon.--very much, sir. And I now recognize Mr. 
Hall.

      Confidentiality of Information About Pilots and Commercial 
                              Information

    Mr. Hall of Texas. Dr. Griffin, I will get right down to 
the basis of this, and we are talking about confidentiality at 
this time. When, and you can give me a yes or no answer on this 
I think, when pilots were surveyed, were they led to believe 
that their responses would be confidential?
    Dr. Griffin. They were promised confidentiality. Yes.
    Mr. Hall of Texas. So if their responses were released, do 
you think it would have had a chilling affect on their future 
participation in FAA or NASA surveys, and would airline safety 
ultimately be hurt by disclosing this data if fewer pilots 
contributed to other surveys and reporting systems?
    Or let me go on a little bit--be a little more personal 
with that. As a pilot yourself with many years of flying 
experience, would this data give you pause as to whether it is 
really anonymous, or would it worry you that your input could 
be traced back to you? And would that have a chilling affect on 
you?
    Dr. Griffin. Well, in its present form some of the examples 
can be traced back to pilots and some named individual 
airlines. That can't be allowed. If the data is properly 
rendered untraceable, then I think it must be released and 
should be released and will be released as I have stated 
several times.
    So if it were properly anonymized, I have no concern.
    Mr. Hall of Texas. And they do that by cross referencing 
flight routes, times, and carriers?
    Dr. Griffin. We need to delete the fields that contain that 
information. So that will be done. Now, the major concern I 
would have over this data at this point is that somebody might 
put too much credence in it. It is simply not credible to 
believe that the aviation community is experiencing nearly four 
times the number of engine failures that are being documented 
by the FAA. That is not credible to believe. If it is true, it 
is going to require some very strong justification, and we will 
pursue that. The community will pursue that, but it is not 
credible at this point.
    So I would not want the flying public to believe the data 
in the form that it appears today.
    Mr. Hall of Texas. Mr. Hall, wake up.
    Mr. Hall. Yes, sir.
    Mr. Hall of Texas. NASA surveys but one source of data that 
can be used to major safety transit and National Airspace 
System. What other sources can be used to monitor system 
safety, and how useful are they?
    Mr. Hall. Well, the ASRS System, which NASA has used for 
years, is, of course, I think very useful in terms of it is a 
voluntary program. It is a program that--that is why I am a 
little confused on--in regard to some of the comments from the 
Administrator. NASA has run this program for the Federal 
Government for a number of years. So they are familiar with how 
to put a program together and maintain confidentiality.
    There are other programs that run by FAA and, of course, 
NTSB has gotten into trying to look at as many incidents as 
possible in providing information. But aviation safety benefits 
from having, as I mentioned in my statement, sir, a very open 
system and a system where there is a whole lot of information 
and that information is constantly in the public for analysis 
and review.
    Mr. Hall of Texas. Dr. Griffin, you state that NASA will 
release this survey data so long as it doesn't compromise the 
anonymity of the pilots, keep them anonymous. Does that not 
contain confidential commercial information?
    Dr. Griffin. Well, by the time we release it, it will not 
contain confidential commercial information. Some of the data 
that we have today does, and we are not legally allowed to do 
that by statute.
    You know, there have been a number of comparisons made to 
the Aviation System Reporting System, the ASRS, which NASA does 
manage by statute, and this survey. One of the primary 
differences between ASRS and this survey was that ASRS is 
managed by aviation specialists. When reports are made, the 
aviation specialists can contact the submitter of the report 
and ask follow-up questions. They are knowledgeable about 
aviation safety.
    This survey was conducted by telephone polling surveyors, 
who have no knowledge or had no knowledge at all as to aviation 
or aviation safety. They had no domain expertise, and it is 
precisely that which has led to some of the problems that we 
are here discussing today.
    Mr. Hall of Texas. I think my time is up, Mr. Chairman. I 
thank you. I yield back if I have any.
    Chairman Gordon. Thank you, Mr. Hall. Let me once again 
state that this is not a matter of a hearing between a safe 
system and an unsafe system. It is a matter of a very safe 
system that we want to, you know, make, continuing the model 
for the entire world.
    Now we will recognize Mr. Costello, the Chairman of the 
Aviation Subcommittee of the Transportation and Infrastructure 
Committee.
    Mr. Costello. Thank you, Mr. Chairman, and thank you for 
calling this hearing today as well as the Chairman of the 
Subcommittee, Chairman Miller. Welcome, Dr. Griffin, Mr. Hall. 
Mr. Hall, it is good to see you in Science Committee room for a 
change as opposed to the T and I room.
    But let me--we can go through a whole long list of 
questions. Let us cut to the chase and get down to why we are 
here.

                 Getting the Information to the Public

    We talk about scrubbing the report in order for it to be 
released without breaking anyone's confidence or a commit----. 
You are saying that you can release the information possibly by 
the end of the year. Is that correct?
    Dr. Griffin. Yes, sir.
    Mr. Costello. How long will it take, I mean, if it is a 
priority in the agency, we all, and I would hope that you would 
acknowledge that the agency made a huge mistake in how they 
responded to the AP and to the media. Your spokesperson did, in 
fact, unless you are refuting this, did, in fact, say to the 
news media that, if we release the data it could be, could have 
an adverse affect on the industry. Is that correct, Dr. 
Griffin?
    Dr. Griffin. We did say that, and as I have now said 
several times, that was the wrong thing to have said. I 
apologize that anyone in my agency did say that.
    Mr. Costello. So you know that it was a mistake to say 
that. You know that it has created a lot of controversy. You 
know that people in the aviation industry and the traveling 
public, because I have heard from my constituents, and I have 
heard from complete strangers to me at airports as I am flying, 
what is going on with this report, and what won't you release 
it to the public?
    If it is a priority to us, shouldn't it be a priority to 
your agency to scrub this and get it out to the public 
immediately?
    Dr. Griffin. It is a priority. I have spent, I have a 
Shuttle mission in the air right now, and I have spent little 
else this past week except to work on this issue. I regret----
    Mr. Costello. I would hope that there are other people in 
the agency that you could assign this to as opposed to you 
handling this personally.
    Dr. Griffin. Well, we have had quite a number of people 
working on it. We do consider it to be a priority, and we 
consider it to be an important one. Now, the fact that people 
at NASA misspoke concerning the reasons behind the denial of 
the FOIA request does not mean that we can compromise our 
statutory requirements----
    Mr. Costello. And no one is asking you----
    Dr. Griffin.--on FOIA.
    Mr. Costello.--compromise a statutory requirement.
    Dr. Griffin. Right.
    Mr. Costello. What we are saying is get this done and get 
it out to the public, and my question to you is do you have 
people today and this evening and around the clock working on 
this project to scrub it to get it out to the public?
    Dr. Griffin. The people who have to work on this project to 
scrub the data and get it to the--out to the public are at 
Battelle Institute. They have been directed to do that. I hope 
that they are doing that with all deliberate speed, and we will 
be verifying that. When Battelle has finished scrubbing it, the 
quality of the scrub must be judged by government officials, 
who will then do that as quickly as possible, and we will get 
it out to you.
    Mr. Costello. So have you directed Battelle to work on this 
around the clock? Have you given them a deadline?
    Dr. Griffin. I have not directed them to work on it around 
the clock. We have directed them to work on it.
    Mr. Costello. Isn't it reasonable for us to expect for you 
to give them a deadline? They are working for you.
    Dr. Griffin. They are, and we have asked them to complete 
it by the end of the year. That is what we are asking. That is 
two months away.
    Mr. Costello. And if you told them June of '08, they would 
complete it in June of '08. Isn't that correct?
    Dr. Griffin. You are asking for more detail than I have. It 
is a significant amount of data processing. We will do it as 
soon as we can, and we are trying for the end of the year.
    Mr. Costello. Dr. Griffin, you have acknowledged that the 
agency misspoke. They created this uproar with the American 
people and with the Congress and with everyone in this room. It 
is your responsibility to clean this up.
    Dr. Griffin. That is correct.
    Mr. Costello. If I were in your shoes, I would be directing 
Battelle to work 24 hours a day, seven days a week to get this 
thing cleaned up so it can be released to the public.

               Disciplinary Action for Responsible Party

    Last and final question that I have, the person who 
misspoke representing the agency, have you identified who that 
is?
    Dr. Griffin. Yes, sir.
    Mr. Costello. Have you taken any disciplinary action 
against that person?
    Dr. Griffin. It is not a matter of discipline. People make 
mistakes. This was a mistake.
    Mr. Costello. My question, we all understand it was a 
mistake. Has there been any disciplinary action taken?
    Dr. Griffin. No.
    Mr. Costello. Thank you, Mr. Chairman.
    Chairman Gordon. The gentleman from Wisconsin, former 
Chairman of the Aviation Subcommittee on this committee, as 
well as the Full Committee, Mr. Sensenbrenner, is recognized.
    Mr. Sensenbrenner. Thank you very much.

                    NASA Survey and Confidentiality

    Dr. Griffin, first of all, I think we all want to see what 
the results of the survey are. Secondly, I think we all agree 
that certain things have to be kept confidential. That was what 
was represented to the people who were asked to respond to the 
survey, and they responded candidly based upon the 
representation of confidentiality.
    I guess what I would like to know is the survey was 
finished in 2005, and we are almost at the end of 2007. That is 
two and one-half years more or less between the time the survey 
was finished. Why is there this gap in time? Who dropped the 
ball?
    Dr. Griffin. We at NASA did not manage this project to its 
conclusion well. We did not. Because of that I have instituted 
a look at other projects that we are doing in various classes 
of research at NASA to make sure that we are not doing the same 
thing elsewhere.
    Mr. Sensenbrenner. Which NASA center of ``excellence'' 
supervised Battelle and this survey?
    Dr. Griffin. This particular project was supervised out of 
the Ames Research Center.
    [The information follows:]
                        Material for the Record
    NASA Ames Research Center agrees that a more timely report on NAOMS 
should have been provided. The NAOMS contractor team consisted of a 
small group of individuals who supported a few related projects. The 
NASA NAOMS project management officials decided to allow the contractor 
team to defer preparing a timely report in order to conduct other 
activities in support of the NAOMS project, notably the transition of 
the NAOMS survey methodology, as well as to address priorities in other 
projects they were supporting. In the process, attention was diverted 
from the final report, resulting in an inordinately lengthy delay.
    The NAOMS contractor completed the survey collection in December 
2004. In FY 2005, the NASA NAOMS project management officials 
prioritized project resources to enable the transfer of the NAOMS 
methodology to a new host organization. This transfer required adapting 
the NAOMS data collection methodology from a computer-aided telephone 
interview to a web-based format. Throughout FY 2005 and FY 2006, the 
NAOMS contractor team was thus directed to develop the new methodology, 
in collaboration with NASA researchers, and to transfer the methodology 
to the Air Line Pilots Association (ALPA), under the auspices of the 
Joint Implementation Measurement and Data Team (JIMDAT, the evaluation 
arm of the Commercial Aviation Safety Team).
    By early FY 2007, the NAOMS project team had not completed the 
transition of the methodology to ALFA nor had the contractor completed 
its final report. By this time, the contractor was needed to support 
the Aviation Safety Program priority to develop safety data mining 
tools. The NASA NAOMS project management officials, therefore, directed 
the contractor to focus on this priority and provided an extension to 
the contractor for producing a final report on NAOMS. Proper attention 
is now being given to producing this report, and measures will be taken 
to ensure that this kind of delay on contract deliverables does not 
happen in the future.

    Mr. Sensenbrenner. Okay. Have you found out why the Ames 
Research Center didn't follow up and have a timely report?
    Dr. Griffin. I have not.
    Mr. Sensenbrenner. Will you do it and let us know?
    Dr. Griffin. I will take that for the record. We will find 
out what their rationale was for taking so long to allow this 
report to be generated, and we will answer back to you.
    Mr. Sensenbrenner. Okay. Well, let me say that this appears 
to be a mess of NASA's own causing, and you are the agency 
head, and I would hope that we don't hear from you again on 
another mess of NASA's own causing.
    You know, I would point out that in about two and a half 
years we are going to have a census in this country, and one of 
the things the Census Bureau represents to every American or 
everybody who is in this country, is that their responses will 
be confidential. And that is in order to get a candid response 
on not only how many people are here but the housing questions 
and the other things that are asked on the census form.
    Any government agency that gets itself caught in a pickle 
like NASA is in is going to reduce the confidence of the 
American public that responses that are supposed to be kept 
confidential will indeed be kept confidential. Sir, you dug 
yourself into a hole. I can't say that you are not digging 
yourself deeper into the hole from what I have heard at this 
hearing, but I think it is important more than just for your 
agency but the government as a whole that you start working 
yourself out of that hole.
    Thank you, and I yield back the balance of my time.
    Chairman Gordon. The gentleman from Colorado, the Chairman 
of the Space and Aeronautics Subcommittee, Mr. Udall is 
recognized.
    Mr. Udall. Thank you, Mr. Chairman. Welcome, Dr. Griffin.

          Releasing Information and Why Was the Survey Ended?

    I would like to start by echoing what Chairman Gordon said 
today. We are all disappointed we have had to convene the 
hearing, but the fact that NASA refused to release the 
taxpayer-funded aviation safety survey and the rationale that 
NASA gave for refusing to release this information is 
unacceptable, and it obviously required Congressional scrutiny. 
I think we all agree the safety of the public has to be our 
first priority, especially with more and more Americans flying 
every year.
    I am glad that you have now agreed to release at least some 
of the survey data publicly so that it can be used to help 
maintain and hopefully improve the safety of the Nation's 
airways, but I feel strongly that all of the data should be 
made publicly available as soon as possible.
    I also have some concerns about why the study was ended. 
Several witnesses here today have affirmed the value of a 
comprehensive, ongoing survey and analysis approach to aviation 
safety trend analysis and accident precursor identification, 
which is the approach exemplified by the NAOMS Project. I think 
there appears that we would all agree to be a great deal of 
merit to the NAOMS approach, and we need to assess whether NASA 
and the FAA should reinstitute the project.
    Doctor, if I could just leave aside for a moment the issue 
of peer review, survey methodologies, which our second panel 
will be addressing, I have to say that I am troubled by your 
testimony on the NAOMS project. At one point in the testimony 
you state that the project was not shut down prematurely and 
that the transition of the survey methodology to industry, 
government decision-makers was successfully completed.
    However, later in your testimony you say that any product 
of the NAOMS Project including the survey methodology should 
not be viewed or considered at this stage as having been 
validated. Basically, at least to this Member, you are saying 
that NASA didn't complete a critically-important R&D task, the 
validation of the survey methodology before it transitioned 
NAOMS out of NASA.
    Later Captain McVenes will testify that the Aviation 
Committee had plans to work with NASA to help determine if the 
survey data were reliable, but funding for NAOMS ran out, and 
that is when the A-L-P-A, ALPA, stepped in to help keep the 
project alive.
    This doesn't appear to be the normal way R&D programs 
should be run, and I think that the Space and Aeronautics 
Subcommittee will need to take a closer look at NASA's 
aeronautics programs and its aviation safety programs in 
particular in the coming months. But in the spirit of openness 
and dialogue here, I would see if you care to respond to those 
comments.
    Dr. Griffin. Well, we certainly agree--could not agree more 
that the aviation safety information leading to trending 
analysis and accident factor identification before the fact is 
crucial. We are working on exactly those things in concert with 
the FAA, again, in a program that has been reviewed by the 
FAA's own safety subcommittee, in which we have submitted for 
review to the National Academy. So we agree with that.
    NASA, however, is not the entity responsible or even 
allowed to take on the job of operational aviation safety. We 
do research, and we are doing that. And we expect to continue 
to do it, because we do believe it is important.
    Now, as I said in my testimony earlier, the National 
Academy in its 2004, review specifically stated that they did 
not see a reason for the NAOMS Project to continue. We agree. 
We have transitioned our other projects of that type to a joint 
FAA, NASA arrangement that I think is working well, and when 
NAOMS was, as it was, scheduled to end in 2004, with follow-up 
reporting to be done in 2005, we allowed that to occur as had 
been planned.
    So I don't think there are--I don't think there is any evil 
intent there. There was no intent to abrogate our 
responsibilities. In fact, our intent was to execute them as 
best we could with our FAA partner. What was not done here was 
to bring the project to a timely conclusion, to assess the 
data, to issue a report, to publish that report in peer review 
journals, and to release the data to the public in a timely 
way, properly anonymized. That was not done, and we are going 
to have to do it.
    Mr. Udall. The spirit in which I offer my remarks are as 
follows. I think this situation, of course, is one that we have 
great concern about on the Committee, but I think we should 
take advantage of the clear opportunity here to make our system 
safer and to take this data, 24,000 responses, that is very, 
very significant, and apply it and use it in a way that has 
some utility in the coming months and the coming years.
    I see my time has expired. Thank you for being here today 
again.
    Chairman Gordon. Dr. Ehlers, thanks for your being prompt 
today. I am sorry that I overlooked that earlier and Dr. Ehlers 
of Michigan is recognized for five minutes.
    Mr. Ehlers. That is quite all right. I am used to being 
overlooked. I hope you all feel sorry for me.

            Airline Safety Compared to Other Safety Concerns

    Actually, I am going to take a somewhat different attack 
and also do some criticism but not of you, Dr. Griffin.
    Your situation reminds me very much of a quote from Harry 
Truman when he left the Presidency. His comment was, ``This job 
was not so great. I spent all of my time trying to persuade 
people to do things they should have had sense enough to do in 
the first place.'' Your situation reminds me a bit of that, and 
I agree with the comment made that you have more important 
things to do than to deal with this particular problem, and it 
is unfortunate that it developed and entwined you in it.
    But as the son of a preacher, I have to give a little 
sermon here, and I have been warned never to insult the media, 
but I am going to anyway. Because it has always puzzled me why 
the media are so obsessed with aviation safety when it is the 
safest mode of transportation in this country. I remember some 
years ago when I was new in the Congress but there was a low-
cost airline that had an airplane crash in the Everglades 
because some attendant or some mechanic had loaded some oxygen 
units on the plane which shouldn't have been there. Day after 
day, month after month this was headlines in the newspapers, 
and I pointed out repeatedly that the same day that airplane 
crashed, more people were killed in automobile accidents in 
this country than were killed in that airplane. Every day after 
that more people were killed on the highways than were killed 
in that plane crash. Yet headlines day after day.
    The safety is better than any other mode of transportation. 
We should recognize that and participate in it. I don't fault 
you whatsoever for things that may have gone wrong in this. You 
were caught in an unfortunate situation in responding to a FOIA 
request, which is a no no. But nevertheless, I think your 
motives here were very good.
    I would also point out that if people are so concerned 
about safety, there is an immediate problem you can tackle with 
traffic accidents, and that is drunk drivers. We have had a 
number of drunk drivers kill individuals while we are sitting 
here in this session, more than were killed by airplanes. And 
it goes on year after year. In fact, so far--or--in any given 
year more individuals are killed by drunk drivers than were 
killed among our troops in the entire Iraq War up to this day. 
That is every year that happens, and yet we spend all this time 
on aviation safety.
    I don't, I am not opposed to making airlines, airplanes as 
safe as they should be. I am a would-be pilot myself, and I 
certainly want a safe airplane and safe air traffic control 
system. But let us get over this obsession and let us recognize 
that our goal is to improve what is already very good and not 
get obsessed about little incidents that occur when we have 
much bigger problems to try to tackle in the aviation sector.
    So I beg your apology for the sermon, Mr. Chairman, but I 
just have to say these things once in awhile. Let us get stuff 
in perspective, and the world is not going to rise or fall, and 
the aviation industry is not going to rise or fall on the 
results of this survey. I doubt if we will learn much different 
than we have learned from the previous surveys. It is all good. 
Let us all do it, but let us not overstate it.
    Thank you very much. I yield back.
    Chairman Gordon. Thank you, Dr. Ehlers. I hope you feel 
better.
    The gentleman from Louisiana, Mr. Melancon, is recognized 
for five minutes. Melancon passes and let me see, Mr. Mitchell 
from Arizona, also on the Transportation Committee, is 
recognized.
    Mr. Mitchell. Thank you very much, Mr. Chairman. This is 
for Dr. Griffin.
    You know, airline business in my particular district is a 
very, very serious business. One of the Nation's largest 
airlines is located in Tempe and Phoenix Sky Harbor is the 
eighth largest or busiest airport in the country. We depend on 
aviation, and we depend upon the Federal Government to keep our 
skies safe.

                  Responsibility for Public Statement

    Now, I was stunned as most people were, and I think this is 
why we are here, because of the statement that came out that 
you have heard many times before--the affect of public--the 
reason the report was not released is because of the affect 
that it might have on the public confidence and so on.
    Now you are telling us that you don't agree with that 
statement that was made last week. But, Dr. Griffin, you are 
the Administrator of NASA. How could this statement be released 
without first being reviewed and agreed upon as NASA's stance 
on this particular issue?
    Dr. Griffin. The delegated FOIA official released the 
response in the form of a letter and included a statement that 
I believed to have been mistaken. I try to review everything 
that I believe will be significant before it goes out, but I 
don't have enough hours in the day to review every single thing 
that goes out of NASA, and sometimes mistakes are made. This 
was one, and when that occurs, as the agency had, I pay the 
price for it.
    Mr. Mitchell. But you have the time now to come and----
    Dr. Griffin. Obviously I have had to make the time, because 
we did make a mistake, and the mistake rests on my shoulders, 
and I apologize for it, and I have before, and I will again. 
The language that was used was inappropriate. We will not 
repeat it. We will correct the error. We will de-identify the 
data, and we will release it.
    Mr. Mitchell. Well, besides this particular statement I 
would hope that you would have a better review of what comes 
out of your office, because you may be back here again the way 
things seem, doing the same thing you are doing now.

    Why Wasn't NASA Information Made Public and Why Didn't It Live 
                        Up to NASA's Standards?

    You know, you said that NASA is interested in getting this 
safety information out, and my question is why has NASA refused 
to produce it to the Associated Press for a year? Now, my 
understanding is the study started in April of 2001, ended in 
December, 2004. Why does it take a hearing in Congress and 
public pressure for a hearing to get the public made--to get 
this information made public?
    Dr. Griffin. As I said earlier, the only way that I can 
answer that question is to admit, as I have, that we did not 
manage that project well. We did not bring it to a timely 
conclusion. We did not publish the data and the report's 
conclusions in an appropriate way, and we will fix it, and we 
will try not to do it again.
    Mr. Mitchell. The next part of this question is you stated 
that this was not conducted--this survey under proper standards 
of NASA. So it seems like there has been a lot of mistakes 
here. And this is one of them you say it wasn't under NASA's 
normal review.
    Why would NASA invest over $11 million in a project like 
this if it didn't follow NASA standards?
    Dr. Griffin. We did not manage the project well. We did not 
supervise our contractor appropriately. We made a mistake.
    Mr. Mitchell. You know, all of this reflects on NASA's 
credibility.
    Dr. Griffin. Yes, sir, I do.
    Mr. Mitchell. I yield back.
    Dr. Griffin. I deeply regret the situation, and I will 
look, and we are now looking to make sure that this does not 
occur again.
    Chairman Gordon. Thank you. We are going to be having votes 
in about 20 minutes, so I am going to, I want everybody to have 
their say. I will be stricter than usual on the five minutes, 
and if you want to be briefer than usual, then that would be 
good, too.
    So, Mr. Bonner from Alabama is recognized.

                 State of Current Space Shuttle Mission

    Mr. Bonner. Thank you, Mr. Chairman, and I could probably 
spend the next five minutes trying to think of some creative 
way to ask the same question that has been asked repeatedly to 
get a different answer, but instead, if I might, I would like 
to ask, take advantage of this opportunity that we don't often 
have to ask Dr. Griffin how the Shuttle mission is going. 
Because I think a lot of people are interested. We have 
followed that with great interest over the years, and I think 
it would be great to hear from you on how it is going at this 
point.
    Dr. Griffin. It is going extremely well. We have an 
unfortunate rip in one of the solar arrays, not a huge rip, but 
a rip, and that is important to repair before the crew returns. 
And so we are going to extend the mission an extra couple of 
days to do that. But other than that it is going extremely 
well.
    Mr. Bonner. Do you feel personally responsible for that 
solar rip?
    Dr. Griffin. You know, I am an ex-program manager, and my 
belief is if lightening strikes your payload, it is your fault. 
So, yes, I feel responsible for that rip, and we are, and for 
repairing it, and we are going to fix it.
    Mr. Bonner. Thank you very much. Thank you, Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Bonner, and the Chairman of 
our Oversight Committee, Mr. Miller, is recognized.

                            Quality of Data

    Mr. Miller. Thank you, Mr. Chairman. Dr. Griffin, good 
afternoon. The next panel includes Dr. Robert Dodd, who was a 
principle investigator for the NAOMS Project. Have you 
discussed your testimony with Dr. Dodd at all? Have you 
reviewed his testimony?
    Dr. Griffin. No, I have not----
    Mr. Miller. Okay.
    Dr. Griffin.--met your next two witnesses.
    Mr. Miller. His prepared testimony says that the NAOMS Team 
made an extraordinary effort to clean and validate the data 
collected through the survey. The resulting data is of good 
quality and ready for meaningful analysis. You disagree with 
Dr. Dodd?
    Dr. Griffin. I do disagree with that statement.
    Mr. Miller. Okay.
    Dr. Griffin. The self-assertion by the purveyors of the 
data that the data is okay does not make it okay.
    Mr. Miller. Okay. Well, that was another, I mean, I 
understand a concern for methodology, but there does need to be 
an extraordinary concern for methodology. Dr. Dodd's statement 
of the purpose of NAOMS was help identify risks that could 
result in losses, evaluate the impact of new technology, 
provide insights into how well the safety enhancements are 
working out. In other words, provide results based upon which 
we could act.
    And your testimony is that the overarching goal of 
developing, was developing methods to facilitate a data-driven 
approach to aviation system safety analysis, that in early 
2005, you determined that the amount of data collected was 
sufficient to evaluate, whether NAOMS survey methodology was 
statistically useful. There were 29,000 survey results. I would 
hope that that would be enough in representative. And then you 
said--you have said in your testimony that it was not 
prematurely ended. It sounds from your testimony like the 
purpose of the project was to develop a methodology.
    It seems like $11.3 million is a lot for methodology. That 
ought to buy you a lot of methodology. Was it your purpose to 
do the things that Dr. Dodd said, which is have information 
that you could use?
    Dr. Griffin. Well, from NASA's perspective the purpose was 
to develop and validate methodologies and then to transition 
the work to the agencies with operational responsibility.
    Mr. Miller. Okay. And when did that transfer happen?
    Dr. Griffin. The transfer of methodology and data to the 
Air Line Pilots Association, which had expressed some interest 
in a web-based version of the survey, occurred in 2004, 2005, 
and 2006. NASA has briefed the results of the study to the FAA, 
among other government agencies.
    Mr. Miller. So it has been analyzed to that extent?
    Dr. Griffin. It has been analyzed to that extent, and that 
analysis that you refer to that has been done to that extent 
revealed substantial concerns. For example, if you were--if you 
extrapolate the rate of certain things done, revealed by the 
survey, you get an uncredible answer.
    For example, pilots were asked how often they had to land 
an airplane at an unscheduled airport in order to deal with an 
unruly passenger. We accumulated those statistics. If those 
statistics are extrapolated forward, it yields a result that 
four times a day a transport aircraft is landing because the 
crew has to deal with an unruly passenger.
    Now, I recall since 9-11 that that has happened maybe two 
or three times.
    Mr. Miller. Okay.
    Dr. Griffin. If we had people landing four times per day to 
deal with an unruly passenger, it would be on the nightly news 
every night. That is not happening. So it causes us to suspect 
the quality of this data.
    Mr. Miller. All right. Dr. Griffin, I understand that the 
Office of Management Budget has an office of experts, of survey 
experts, survey methodology is not unusual. It is widely used 
in the Federal Government. It is widely used in social 
sciences. It is widely used. Survey experts and statisticians 
who review the methodology of all surveys used by the Federal 
Government. Was this survey reviewed by that office of OMB?
    Dr. Griffin. I don't know. I was not at NASA when that work 
was done, and so I don't know if it was reviewed by the OMB at 
that time or not.
    Mr. Miller. All right. You cite as still correct the 
refusal to provide the information under FOIA as revealing 
confidential commercial information. My understanding of that 
exception is that that is to protect the confidentiality of 
information provided by a business entity that might be 
confidential for business reasons. Market information, 
financial information, et cetera.
    It is hard to see how this survey data provided by pilots 
would meet that exception. What kinds of confidential 
commercial information did this survey produce?
    Dr. Griffin. Well, the exemption that you refer to is, of 
course, correct as you state, but it is not the only one. In 
the case where information is voluntarily provided and when 
that information would not be customarily provided to the 
public, then we also have an obligation to protect that 
information.
    Chairman Gordon. The gentleman's time has expired.
    Mr. Inglis is recognized.
    Mr. Inglis. I pass, Mr. Chairman.
    Chairman Gordon. The gentleman, Mr.--thank you. And is 
there--Mr. Lipinski. Excuse me. Mr. Chandler is next, then Mr. 
Lipinski and----

                 The Responsibility for the $11 Million

    Mr. Chandler. Dr. Griffin, I have been listening to the 
testimony, and I understand that, it sounds to me like you may 
believe you all made a mistake.
    Dr. Griffin. I have admitted it several times.
    Mr. Chandler. I think that has come out in this hearing. 
And I understand that has to do with the handling of the FOIA 
request.
    Dr. Griffin. Yes, sir.
    Mr. Chandler. But I also just--it just came across my mind 
that maybe you believe that this entire process has been 
mishandled, and you have made a mistake in the entire survey 
process and not overseeing what is a pretty enormous project. 
Is that the case as well?
    Dr. Griffin. I have--this is not an enormous project by 
NASA's standards.
    Mr. Chandler. No, but in this particular instance it is a 
pretty important project.
    Dr. Griffin. But when we spend $11 million of the 
taxpayers' money it should be done well, and I have stated--I 
regret to state it, but I have stated that by my standards we 
did not manage this project well. We did not manage our 
contractor well.
    Mr. Chandler. And you are also saying that at the end of 
all of this and when this data is, in fact, released, there is 
going to be reason to not have much confidence in the ultimate 
data. Is that correct?
    Dr. Griffin. I have been a pilot for decades. Anyone who 
knows anything about aviation is going to look at this data and 
have a lot of questions about it because it is on its face--on 
its face, when you look at it, you can extract from it 
conclusions which are not credible.
    Mr. Chandler. Well, what I am hearing you say is we have 
just thrown $11 million down a rat hole.
    Dr. Griffin. I hope that is not the case, and I believe 
that we should be able to get much that is useful from this 
data, but there will be cause to question it by knowledgeable 
aviation experts.
    Chairman Gordon. Would my friend yield to Mr. Lipinski so 
we can try to finish this panel?
    Mr. Chandler. Sure. Thank you, Mr. Chairman.
    Chairman Gordon. Thank you.
    Mr. Lipinski. I will try to make this quick, although this 
is very important. Airline safety is critical. I have an 
airport in my district, O'Hara Airport very close proximity. I 
just want to zero in, Dr. Griffin, I have a lot of respect for 
you. Today you are on the hot seat, deservedly so with this 
project.
    You talk about this project was not managed well. To me I 
look and see the project started six years, $11 million, no 
results. It could mean one of two things. Either complete 
incompetence, that this project had so many problems with it, 
that you couldn't get anything good out of it, or, you know, I 
could use the word cover up, I will say, but there, or there is 
some reason that this was stopped. There was something that, 
for some reason someone did not want to show up.
    When this stopped, were there plans for anyone else to be 
surveyed after you did the airline pilots? Was there anyone 
else after that?
    Dr. Griffin. No. There was not. This project----
    Mr. Lipinski. Was that the end?
    Dr. Griffin.--in the original material, which has been 
submitted to this committee, documenting this project, it was 
intended that the project be ended in 2004. We have for 
purposes of transition and simply because things have gone 
slower than they should have, this project has continued onto 
the present day. But there has been no cover up. There is no 
desire to conceal anything.
    Mr. Lipinski. Okay. I am very----
    Chairman Gordon. Mr. Lipinski, would you mind yielding to 
Ms.----
    Mr. Lipinski. Yes, I will yield.
    Chairman Gordon.--Richardson to, for her concluding 
statement?
    Ms. Richardson. Thank you, Mr. Chairman. I will just be 
very brief or as quick as I possibly can.
    Dr. Griffin, I represent the California area, and we have 
had several reported incidences within the LAX Airport, and I 
also represent the Long Beach Airport. I have the following 
questions, and if you can't answer them within the time we have 
provided, you can provide them to this committee.

         Data Recovery, Peer Review, and Avoidance of Requests

    Number one, who and when decided that there would be a 
destruction of data requested? In your statement you say that 
that didn't happen, and so my question to you would be if it 
didn't happen, then why was it requested that the 
subcontractor--why were they directed to recover data? It just 
doesn't make sense. If they weren't required to destruct it, 
then they should now be required to recover it.
    Chairman Gordon. If the gentle lady, would you go ahead and 
read your questions and then Dr. Griffin can respond for the 
record if that is okay.
    Dr. Griffin. We will take them for the record. Yeah.
    Ms. Richardson. The second thing is if the project was 
initiated in 1998, started collection in April of 2001, and 
started that in 2004, I find it really hard to understand, 
number one, why in seven, eight years you failed to complete a 
peer review, why we now suddenly question the methodology. I 
come from the private sector. I don't know of anyone who 
manages a project that you don't look at the data, how the data 
is being collected, how is it being presented, how are you 
going to use it, what should be included, what should not be 
included. That we finally wake up eight years later? I have 
never--I don't know of a system of how we do this and we 
operate it.
    And then finally, I would say really the continued 
avoidance of requests is just unprofessional. I am a new Member 
here, but I will tell you what I call it. I don't call it a 
mistake. I call it negligence, and I really think that NASA is 
liable, and if something happens, this is a very serious issue, 
and I really resent that we are here today even having this 
discussion. This is something that could have been dealt with, 
I believe, if you really wanted it to. And for me to say two 
months is completely unacceptable. These are computer programs, 
you either make it a priority or you don't, and it seems to me 
today it is not a priority to you.
    Thank you.
    [The information follows:]
                        Material for the Record
    NASA Ames Contracting Officer issued the phase-out instruction to 
Battelle Inc. on September 10, 2007, via a new task request; this task 
instruction was made in preparation for task phase-out scheduled for 
October 31, 2007. Per this task instruction, written in order to 
properly disposition sensitive government information, the Ames 
Contracting Officer instructed Battelle Inc. to collect, inventory, 
archive, and transfer the complete set of data to the government. Once 
Battelle Inc. completed this transfer, and the NASA project management 
officials verified the completeness of the data set, Battelle Inc. was 
instructed to securely dispose of all data. This instruction was to 
ensure that the data set was NASA-owned and to prevent the potential 
for unauthorized use of the data.
    NASA received a letter, dated October 22, 2007, jointly signed by 
Chairman Gordon, House Science and Technology Committee, Chairman 
Udall, House Space and Aeronautics Subcommittee, and Chairman Miller, 
House Investigations and Oversight Subcommittee, directing that NASA 
halt any destruction of records related to the NAOMS project. To comply 
with the direction, the Ames Contracting Officer directed the 
contractor to halt the phase-out process until further notice. This 
action was done via a task modification dated November 5, 2007.
    NASA Ames Research Center agrees that the methodology should have 
been peer-reviewed much earlier in its development. While the survey 
was approved by the OMB in accordance with the Paperwork Reduction Act, 
and briefed to stakeholders in two workshops, the work was not peer-
reviewed.
    From 1998 to 2004, the NAOMS project team gave approximately 17 
Power Point briefings to various audiences, mainly government and 
industry personnel. However, none of the research conducted in the 
NAOMS project has been peer-reviewed to date. Power Point briefings to 
stakeholders, while having some value, do not constitute peer review. 
Accordingly, no product of the NAOMS project, including the survey 
methodology, the survey data, and any analysis of those data, should be 
viewed or considered at this stage as having been validated.
    It should be noted that NASA's assertion that none of results from 
the NAOMS project can be considered validated does not mean that NASA 
is drawing conclusions about the validity of the survey data; we are 
simply stating that no such conclusions can be credibly drawn.
    In order to rectify this situation as best as possible, NASA has 
asked the National Academies to conduct an independent assessment of 
the contractor's final report as well as of the survey results that are 
to be publicly released. The National Academies' assessment will be 
made available to the public as soon as it is completed.

    Mr. Hall of Texas. Mr. Chairman.
    Chairman Gordon. Yes, Mr. Hall.
    Mr. Hall of Texas. Could I make an inquiry of----
    Chairman Gordon. Certainly.
    Mr. Hall of Texas. Mike, would you mind staying around 
during the second panel where we might respond to anything else 
that might happen? You know, something may come up as to 
whether or not we have handled immigration well, you know, the 
whole Congress might get indicted on that. We may have some 
questions on why we don't have an appropriations bill for the 
first time in history. A lot of us haven't handled things well, 
and you have said that you haven't, you acknowledged it. Please 
stay around, if you would, for this next--to where we can 
inquire of you for some answers if we need them. Would you?
    Dr. Griffin. Of course. Yes, sir.
    Mr. Hall of Texas. Thank you.
    Chairman Gordon. Mr. Hall of Tennessee, thank you for being 
here. Dr. Griffin, you are a good Administrator of NASA, the 
buck stops with you. It is unfortunate you have to spend this 
time. I hope the message goes out to those folks that work for 
you that they should not put you in this position in the 
future.
    We will take a recess to go vote and then come back for our 
second panel shortly.
    [Recess.]
    Chairman Gordon. As a courtesy to our witnesses if everyone 
would come back and be ready to go we will get started when Mr. 
Hall arrives.
    I have been informed that Mr. Hall is on his way, and we 
are going to assume that it is his pleasure that we do not hold 
you up any more than necessary, so we will go ahead and 
proceed.
    We don't have control over when votes occur. Sorry to hold 
you up. This is an important hearing, and we do want to 
proceed.
    So at this time I will introduce our second panel of 
witnesses. Dr. Robert S. Dodd is the Safety Consultant and 
President of Dodd and Associates, LLC. Next, Dr. Jon Krosnick 
is the Frederic O. Glover Professor in Humanities and Social 
Science at Stanford University, and our last witness on this 
second panel is Dr. or rather, excuse me, Captain Terry 
McVenes, who is the Executive Air Safety Chairman of the Air 
Line Pilots Association.
    Welcome to all of you. As you know, we hope that you will 
submit your full testimony and summarize it in five minutes if 
that is possible. If not, we do not want to interfere with a 
good hearing today.
    And so, Dr. Dodd, the microphone is yours.

                                Panel 2:

    STATEMENT OF DR. ROBERT S. DODD, SAFETY CONSULTANT AND 
               PRESIDENT, DODD & ASSOCIATES, LLC

    Dr. Dodd. Thank you. Good afternoon, Mr. Chairman and 
Members of the Committee. My name is Dr. Robert Dodd, and I 
appreciate the opportunity to address the Committee on the 
NAOMS Project.
    For seven years I served as the principal investigator for 
NAOMS. I consider myself extremely fortunate to have been 
involved with NAOMS. This was a unique project based on 
thorough preparation and outstanding science.
    NASA managers provided the research team with the support 
and leadership needed to design and conduct an exceptional 
project. The research team itself was composed of an extremely 
well-qualified and knowledgeable group of scientists whose 
commitment to the project was unparalleled.
    Finally and most importantly, I must acknowledge the 
commitment and effort of the hundreds of professional and 
general aviation pilots who helped design the survey and the 
29,000 pilots who donated over 14,000 hours of their time to 
tell us about their safety experiences in an effort to improve 
the safety of the Nation's air transportation system.
    When I learned that NASA had decided the data collected by 
NAOMS would not be released to the public, I was disappointed 
and perplexed. I have seen many reasons cited for why NASA 
decided these data should not be released. The press reported 
that NASA was concerned that the data might frighten airline 
passengers, and this would have a negative affect on the well 
being of the airlines.
    Other aviation organizations claim that the NAOMS data were 
soft data and voluntarily submitted. The implication was that 
the NAOMS data were somehow of limited or no value because they 
originated with pilots who were voluntarily responding to a 
survey.
    Finally, there are press reports that stated NAOMS data 
were not needed because current FAA oversight systems provided 
an adequate picture of the safety performance of the aviation 
system. I don't agree with these perspectives.
    I believe the American public understands and accepts that 
travel by commercial airlines in the United States is the 
safest mode of travel in the world. Major air carrier crashes 
are thankfully rare events. I don't believe based on my 
experience that the NAOMS data contained any information that 
would increase the passengers' fear of flying.
    NAOMS data, which were collected to help insure that the U. 
S. airline safety remains best in the world, should be released 
so it can be used for its intended purpose.
    I would like to encourage the Committee to consider why a 
program like NAOMS is currently not operating. In most other 
aspects of public health and safety, U.S. Government and 
industry organizations routinely use surveys to identify and 
understand risks. Many of these programs have been in existence 
for years and are essential to effective oversight and 
evaluations of the Nation's safety and health programs.
    A program like NAOMS can help identify risks by obtaining 
information from those who should know, the people operating 
the system. It can also help evaluate the safety impact of new 
technologies as they are introduced. This is an important 
consideration in light of all the changes occurring in the 
aviation system on a daily basis and especially when we 
consider the new technologies such as the air traffic control 
overhaul, which is going to be coming shortly.
    Finally, an NAOMS-like program can provide quick insight 
into how well safety enhancements and improvements are working, 
a capability difficult to duplicate with today's aviation 
safety oversight systems.
    In closing, I believe that NAOMS should be restarted and 
operated by an independent and unbiased organization. Such a 
program should receive funding directly from Congress to insure 
its budget remains adequate to fulfill its mission.
    I appreciate the opportunity to comment on this important 
program.
    [The prepared statement of Dr. Dodd follows:]
                  Prepared Statement of Robert S. Dodd
    Good afternoon Mr. Chairman, Members of the Committee. My name is 
Dr. Robert Dodd and I appreciate the opportunity to address the 
Committee on the National Aeronautics Operations Monitoring System, 
also known as NAOMS.
    Between February 1998 and March 2005, a period of seven years, I 
served as the principal investigator for the NAOMS project. I 
participated in all aspects of the survey including its design, 
application, data analysis and project management, often in 
collaboration with Mr. Loren Rosenthal, the Battelle Project Manager 
for NAOMS. Battelle was the prime contractor for the project.
    I consider myself extremely fortunate to have been involved with 
NAOMS. This was a unique project based on thorough preparation and 
outstanding science. NASA managers provided the research team with the 
support and leadership needed to design and conduct an absolutely 
outstanding project. The research team itself was composed of an 
extremely well qualified and knowledgeable group of scientists whose 
commitment to the project was unparalleled. Finally and most 
importantly, I must acknowledge the commitment and effort of the 
hundreds of professional and general aviation pilots who helped us 
design the survey and the 24,000 pilots who donated over 12,000 hours 
of their time to tell us about their safety experiences in an effort to 
improve the safety of the Nation's air transportation system.
    I was disappointed and perplexed when I learned that NASA decided 
the data collected by the NAOMS survey would not be released to the 
public. While I know that the most notable denial was that issued to 
the Associated Press, the Johns Hopkins University Center for Injury 
Research and Policy, a reputable safety research organization in 
addition to be a leading scholarly institution, was also denied.
    Many different reasons were cited for NASA's refusal to release 
these data to the public. The press reported that NASA was concerned 
that the data might ``frighten airline passengers'' and this would have 
``a negative effect on the well being of the airlines.'' Press reports 
also indicted that other aviation organizations claimed that the NAOMS 
data were ``soft data'' and voluntarily submitted. The implication was 
that the NAOMS data were somehow of limited, or no value, because they 
originated with pilots voluntarily responding to a survey. Finally, 
there were press reports that stated NAOMS data were not needed because 
current FAA oversight systems provided an adequate picture of the 
safety performance of the National Airspace System.
    I find these arguments without merit.
    I believe the American public understands and accepts that travel 
by commercial airlines in the United States is the safest mode of 
travel in the world. Major air carrier crashes are thankfully rare 
events. When a major crash occurs, it receives exceptional press 
coverage throughout the world, usually with images of destruction and 
chaos. Yet passengers continue to fly. I don't believe that the NAOMS 
data contained any information that could compare with the image of a 
crashed air carrier airplane or would increase passengers' fear of 
flying.
    I also don't believe the argument that NAOMS data are somehow 
limited or of no value because they are derived from a survey has 
merit. All data used for analysis, no matter its origin, have 
limitations and errors. Based on my experience, most if not all the 
databases used by the FAA for safety oversight and analysis contain 
errors and have limitations. This is why knowledgeable scientists and 
experts are involved in turning these data into useful information for 
decision makers. NAOMS data are no different in this regard. The NAOMS 
team made an extraordinary effort to clean and validate the data 
collected through the survey. The resulting data is of good quality and 
ready for meaningful analysis. Why would anyone decide that additional 
information, especially when it deals with the safety of the traveling 
public, should be hidden?
    Finally, the belief that the NAOMS data are not needed because 
current safety oversight systems are adequate is untrue. Not all 
airlines have Flight Operational Quality Assessment (FOQA) programs or 
participate in the Aviation Safety Action Program (ASAP), a pilot based 
voluntary reporting system. Further, current safety oversight systems 
do not do a good job of measuring safety errors in the general aviation 
fleet, among small commercial operators, or among maintenance 
technicians, all of which have a direct influence on airline safety. A 
program like NAOMS can provide a unique oversight capability for all of 
the aviation system.
    In closing I would like to encourage the Committee to consider why 
a program like NAOMS is not currently operating. In most other aspects 
of public health and safety, U.S. Government and industry organizations 
routinely use surveys to identify and understand risks to public safety 
and health. Many of these programs have been in existence for years and 
are central to the evaluation and oversight of the Nation's health and 
safety.
    A program like NAOMS can:

        1.  Help identify risks before they result in losses by 
        obtaining information from those who are in the best position 
        to know, the people operating the system.

        2.  Help evaluate the impact of new technology, an important 
        consideration in light of all the changes occurring in the 
        National Airspace System including the overhaul of the air 
        traffic control system.

        3.  Provide quick insight into how well safety enhancements and 
        improvements are working, a capability difficult to duplicate 
        with today's oversight systems.

    I believe NAOMS should be reinstituted and operated by an 
independent and unbiased organization. Such a program should receive 
funding directly from Congress to ensure its budget remains adequate to 
fulfill its mission.
    Thank you for the opportunity to comment on this important issue.

                      Biography for Robert S. Dodd

WORK EXPERIENCE

Johns Hopkins University School of Public Health, Baltimore, MD; 1/
        2004-Present

Adjunct Faculty

    I teach a course at the Johns Hopkins University Bloomberg School 
of Public Health titled Transportation Research, Public Policy and 
Politics. This is a graduate level course. This course is intended to 
provide an overview of the significant role of national politics on 
transportation safety policy in the United States. Using case studies 
of notable safety enhancement efforts in aviation, highway, rail and 
maritime transportation, the students are introduced to the significant 
roles and interactions of lobbyists, industry associations, 
politicians, and federal agencies in transportation safety research and 
subsequent safety improvement rule-making. Through lectures, readings 
and a field trip, students learn that transportation safety and injury 
prevention improvements often require significant efforts to 
successfully navigate the path from research findings to interventions 
that improve the traveling public's safety and health.

Dodd & Associates, LLC, Gambrills, MD; 6/1998-Present

Owner

    Dodd & Associates, LLC is a consulting company that specializes in 
transportation safety research and analysis. As owner, I serve as the 
senior research scientist and manager. Our business focus includes 
transportation safety research, data analysis, research design, survey 
research, transportation injury control assessments, safety program 
design, safety training, safety audits and analysis, and OSHA 
compliance assessments.
    I serve as a research scientist on research projects for the 
Federal Government and private clients. In many of the projects, I have 
served as the principle investigator. Consequently, I am usually 
responsible for developing project proposals and the research protocol, 
project work plans and time lines, managing project participants, 
writing the final reports and presenting the findings to the client and 
other organizations as required. I am knowledgeable about government 
contracting and grant procedures as a result my extensive experience in 
managing such programs both as a contract and grant recipient.

    A sample of projects include:

    Principal Investigator, National Aviation Operations Monitoring 
Service (NAOMS): Multi-year, multi-million dollar survey study that 
collected information on safety incidents from over 22,000 air line 
pilots and 4,000 small airplane pilots. Study was conducted for NASA. I 
oversaw experimental development, testing and application of the 
project research plan and survey. The surveys were conducted via 
telephone and achieved an 80 percent response rate. The project is now 
complete and papers are being written for peer review journals.

    Principal Investigator, Wide Area Augmentation System (WAAS): This 
research project was designed to quantify in dollars saved by the 
potential reduction in crashes associated with the planned introduction 
of the wide area augmentation system (WAAS) navigation system. The WAAS 
is a satellite-based navigation system developed by the Federal 
Aviation Administration (FAA) to provide precision approach capability 
to the majority of airports in the continental United States. The 
project was conducted for the FAA and resulted in a report for FAA use.

    Co-Principle Investigator, Evaluation of the Use of Common 
Denominators for Cross Modal Transportation Safety Evaluation: I served 
as a co-principal investigator with Professor Susan Baker on a Johns 
Hopkins University research project to evaluate the feasibility of 
using common exposure measures for cross-modal evaluations in 
transportation safety evaluations. This study was sponsored by the 
Bureau of Transportation Statistics which is part of the Department of 
Transportation.

    Audit Team Leader, Patient Transport System Operational Safety 
Audits: I lead a team of experts who evaluate the safety of patient 
transport operations (both ground and air) for medical transport 
services. We have completed over 65 audits to date. Focus of audits 
included patient safety, occupational safety and transport operations.

Records Management Systems, Incorporated, Fairfax, VA; 3/1996-6/1998

Senior Research Scientist

    I served as a senior research scientist for RMA, a government 
contractor supporting the Federal Aviation Administration's (FAA) 
Office of Aviation Safety. I conducted safety research, assisted in the 
design of database and safety analysis systems for the FAA's National 
Aviation Safety Data Analysis System (NASDAC) and helped develop safety 
programs. I participated in strategic planning, helped design research 
protocols and project management plans, and participated in industry 
meetings for the FAA.
    A key component of NASDAC's mission at that time was the evaluation 
and integration of aviation data safety systems into a common access 
point for analysis. These data systems were owned and operated by the 
FAA, the National Transportation Safety Board (NTSB), the National 
Aeronautics and Space Administration (NASA), the British Civil Aviation 
Authority (CAA), and private data sources such as AirClaims. As the 
primary analyst supporting the NASDAC's mission, I became very familiar 
with these data sources. My familiarity originated with using these 
data for analytical projects and evaluating the databases for accuracy, 
structure, relevancy to current safety issues and much more. Through 
this experience, I became expert in the strengths and limitations of 
these data sets.

Battelle Memorial Institute, Columbus, OH; 5/1990-3/1996

Principal Research Scientist

    I supported Battelle's transportation group conducting research and 
participating as a Battelle representative in meetings and conferences 
held in Washington D.C. I also supported the FAA's Aviation Safety 
Reporting Program (ASRS), a voluntary aviation incident reporting 
system, by conducting analysis of the data contained in the ASRS 
database. I conducted analysis, generated reports, and presented 
findings of interest to both government and industry organizations.

Johns Hopkins University School of Public Health, Baltimore, MD; 8/
        1988-5/1990

Research Assistant

    I was a teaching and research assistant while a full-time doctoral 
student. As such, I assisted professors in the research activities 
conducing database design, development and research. I also assisted in 
teaching courses.

National Transportation Safety Board, Washington, DC--7/1986-8/1988

Transportation Safety Specialist

    I was a transportation safety specialist and worked in the safety 
studies division. I was responsible for conducting targeted research 
investigations of specific transportation safety issues, writing 
summary reports and generating corrective recommendations. I assisted 
in crash investigations and statistical evaluations. I also 
participated in industry meetings, wrote speeches for individual Board 
members and made public presentations. I left this position to return 
to school for my doctorate.

Air Line Pilots Association, Herndon, VA; 6/1980-7/1986

Staff Safety Engineer

    As a staff member of the Engineering and Air Safety Department, I 
supported pilot safety committees and worked on safety issues involving 
crash survival, airport design and airport safety. Part of my duties 
involved responding to FAA Notices of Proposed Rule-making (NPRM) for 
safety regulation rule changes. I also worked closely with the FAA and 
NTSB on a broad variety of air carrier safety issues. I also managed 
safety committees for the Association, participated in industry working 
groups sponsored by the Society of Automotive Engineers, National Fire 
Protection Association, American Association of Airport Executives and 
similar organizations.

Freeway Airport Inc., Mitchellville, MD; 12/1978-6/1980

Flight Instructor

    As a charter pilot and flight instructor I was responsible for 
conducting air taxi flights for customers and training primary, 
advanced and instrument pilots.

EDUCATION

Johns Hopkins University School of Public Health, Baltimore, MD; 
        Doctorate, 5/1992; Major: Public Health; Minor: Behavioral 
        Science

Relevant Course Work, Licensures and Certifications:

    This course of study was research-oriented and predominantly 
quantitative and lead to a Doctorate of Science (Sc.D). It included 
study of statistics, epidemiology, experimental design, survey design 
and application, database design, transportation safety and research 
methodology. The main focus was transportation injury prevention and 
occupational safety, with secondary study in the behavioral sciences. 
This focus included injury coding and outcome measurement, and 
observational study design. My thesis evaluated occupant crash survival 
and was titled ``Factors Related to Occupant Crash Survival in 
Emergency Medical Service Helicopters.''

University of Southern California, Los Angeles, CA; Master's Degree, 
        12/1981; Major: Safety

Relevant Course Work, Licensures and Certifications:

    This degree program used an interdisciplinary systems approach to 
the theory and application of modern transportation safety practice. 
The curriculum included study in management, technology application, 
human factors, accident investigation, risk management, system safety, 
environment and communications. Focus areas for my specific course of 
study included: structural safety and failure analysis, accident 
investigation, human factors, system safety engineering, statistical 
analysis, and experimental design in safety research.

University of Maryland, College Park, MD; Bachelor's Degree, 12/1978; 
        128 Semester Hours; Major: General Studies

Relevant Course Work, Licensures and Certifications:

    This course of study led to an independent studies degree with the 
main focus on the life sciences, including courses in micro biology, 
zoology, physiology, chemistry, and anatomy.

AFFILIATIONS

Association of Air Medical Services, Member, Board of Directors

American Society of Safety Engineers, Professional Member

American Public Health Association, Professional Member

PROFESSIONAL PUBLICATIONS

Scott A, Krosnick J, Dodd R, et al., Comparing Telephone Interviews 
        with Self-Administered Mailed Questionnaires: Results from a 
        Field Experiment Assessing Reporting Accuracy. Public Opinion 
        Quarterly, submitted.

Baker S, Grabowski J, Dodd R, et al., EMS Helicopter Crashes: What 
        Influences Fatal Outcome? Annals of Emergency Medicine, April 
        2006 (Vol. 47, Issue 4, Pages 351-356).

Enders J, Dodd R, Fickeisen F, Continuing Airworthiness Risk 
        Evaluation, Flight Safety Digest, Flight Safety Foundation, 
        Sept-Oct 1999, Arlington, VA.

Enders J, Dodd R, et al., A Study of Airport Safety With Respect to 
        Available Approach and Landing Aids, Flight Safety Digest, 
        Flight Safety Foundation, Nov. 1995.

Baker SP, Lamb M, Dodd R, Crashes of Instructional Flights, Analysis of 
        Cases and Remedial Approaches, FAA Grant Report #93-G-045, 
        Johns Hopkins Center for Injury Research and Policy, Baltimore, 
        MD, Oct. 1994.

Dodd R, The Cost-Effectiveness of Air Medical Helicopter Crash Survival 
        Enhancements, Air Medical Journal, 13:7, July 1994.

Baker SP, Lamb MW, Li G, Dodd R, Human Factors in Crashes of Commuter 
        Airplanes, Aviation Space and Environmental Medicine, 193, May; 
        64(5):417.

Dodd R, Occupant Survival In Emergency Medical Service Helicopter 
        Crashes, Transportation Research Record of the National 
        Research Council, 1992.

Dodd R, ASRS: An Under used Resource, The Journal of Air Medical 
        Transport, Vol. 10, No. 10, Oct. 1991.

Eldredge D, Dodd R, Mangold S, Categorization and Classification of 
        Flight Management System Incidents Reported to The Aviation 
        Safety Reporting System, Battelle Memorial Institute, Columbus, 
        OH, Contract No. DRTS-57-89-D00086, June 1991.

Dodd R, Reporting Accident Rates per 100,000 Patient Transports 
        Responsible Technique, letter to the editor, The Journal of Air 
        Medical Transport, Vol. 10, No. 2, Feb.

ADDITIONAL INFORMATION

<bullet>  Adjunct Faculty, Johns Hopkins University Bloomberg School of 
Public Health, Center for Injury Research and Evaluation

<bullet>  John W. Hill Safety Scholarship, University of Georgia

<bullet>  William Haddon Fellowship in Injury Control, Insurance 
Institute for Highway Safety

<bullet>  Graduate Research Award Program, Public-Sector Aviation 
Issues, Transportation Research Board, National Academy of Sciences

<bullet>  Outstanding Performance Award, National Transportation Safety 
Board

<bullet>  At-Large Member, Board of Directors, Association of Air 
Medical Services

<bullet>  Chair of the Safety Committee, Association of Air Medical 
Services

<bullet>  Airline transport rated multi-engine pilot (ATP-ME)

    Chairman Gordon. Thank you very much, Dr. Dodd.
    Our next witness, please proceed.

STATEMENT OF DR. JON A. KROSNICK, FREDERIC O. GLOVER PROFESSOR 
     IN HUMANITIES AND SOCIAL SCIENCES, STANFORD UNIVERSITY

    Dr. Krosnick. Thank you. Mr. Chairman, thank you for the 
opportunity to testify today. I am a Professor at Stanford 
University with expertise in psychology and political science, 
and I have devoted most of my career to the study and use of 
survey methodology. I have conducted more than 100 surveys and 
have conducted research to identify best practices in the 
design of surveys. I have written more than 350 research papers 
and received 65 grants and contracts to support my research, 
mostly from the Federal Government.
    I have written a textbook in this area, and as an expert on 
survey methods, I have advised many federal agencies on how to 
conduct their surveys, including the GAO, the IRS, the CIA, the 
NIH, NOAA, EPA, the Census Bureau, the Bureau of Labor 
Statistics, CDC, and others.
    I am here to thank and congratulate NASA and to offer my 
praise to them for a job well done to the highest standards of 
excellence so far in their work on NAOMS. There are many data 
collection systems in place to track air safety problems, and 
NAOMS is a terrific addition to this array.
    In my opinion NAOMS has been a great success, and NASA 
deserves to be very proud of this success and deserves the 
thanks of this Congress and of all Americans.
    As you know NAOMS was designed to measure the frequency of 
the precursors of aviation accidents through statistically-
reliable scientific surveys of pilots. You might imagine that 
information on these events can be collected reliably by 
machines, by black boxes on aircraft, by computers in the air 
traffic control system, and by video cameras watching airport 
operations.
    But imagine the gigantic volume of information that would 
be collected by such systems in just one day and imagine trying 
to wade through that mountain of information to try to identify 
safety compromising events. And that mountain would not even 
include the many experiences and events that occur during 
interactions between people without a machine record.
    This is why NAOMS was conceived as it was; to use the eyes 
and ears of the people actually operating the aviation system 
to track what they experience and convey the resulting 
information to policy-makers. For decades the Federal 
Government has sponsored many longstanding and recurring survey 
projects to collect information used to promote public welfare. 
The unemployment rate is measured through surveys, the 
inflation rate is measured through surveys, and federal 
agencies regularly conduct surveys to measure much, much more.
    Surveys are a mainstay at the Federal Government and have 
been shown to provide valuable scientific measurements of the 
experiences of our nation's huge population quickly, 
accurately, and inexpensively as compared to other ways to 
learn the same information.
    Loren Rosenthal's vision of NAOMS is shown on this slide, 
which was presented by NASA in many public meetings. The NAOMS 
Project was to involve the design and implementation of surveys 
not only of pilots but also of air traffic controllers, flight 
attendants, and mechanics every week of every year to measure 
how many of various specific accident precursors they had 
witnessed while working during the past 60 days.
    As you can see from this diagram in the upper right, this 
was to be a permanent monitoring system. I was privileged to be 
asked to serve as a consultant to the team of superb 
professionals who have carried out the work done on NAOMS to 
date. As I watched the team do its work over a period of years, 
I saw a great deal about how it was done.
    I look forward to answering your questions, but in the 
remaining opening moments I have I would like to set the record 
straight on five important misunderstandings that have found 
their way into the public discussion of NAOMS during the past 
week.
    First, some people have claimed that the NAOMS methodology 
was not peer reviewed. This is incorrect. The survey methods 
used in NAOMS have been peer reviewed and widely accepted in 
the field for more than 40 years. And the NAOMS Team used peer 
reviewed and well-established evaluation techniques to select 
the best standard methods for use in the NAOMS surveys.
    Furthermore, survey research experts at the White House 
Office of Management and Budget must review every federal 
survey project to assure that the methods to be used are 
optimal, and they reviewed and approved the NAOMS methodology.
    And prior to that approval process the NAOMS Team had held 
dozens of meetings, workshops, and consultations around the 
country with aviation experts, interested parties, and social 
scientists to describe the project's methodology and get 
reviews, comments, and suggestions.
    Second, some people have said that NAOMS was not shut down 
prematurely. This is incorrect. The slide up on the screen 
shows you that initial NAOMS funding was intended to pay for 
surveys to be done not only of pilots but of air traffic 
controllers, flight attendants, and mechanics. But the funding 
for NAOMS was ended before that work was initiated.
    Third, some people have said that the NAOMS Project was 
designed simply to test the feasibility of a method, not to 
implement that method in a long-term survey monitoring system. 
This is incorrect. We determined that the method was viable and 
effective after a field trial involving 635 pilots. You don't 
do 24,000 interviews of pilots to test the feasibility of a 
method. You do that many interviews after you know the method 
is feasible and ready for prime time.
    Fourth, some people have said that if the NAOMS data were 
released to the public, individual pilots or airlines would be 
identifiable. This is incorrect. The overwhelming majority of 
NAOMS data cannot be linked to any pilot or airline because the 
system was set up to assure that from the start. The very small 
number of instances in which a pilot mentioned a specific 
airline or event date spontaneously can easily be removed from 
the public data set and made available to analysts only through 
Census Data Centers, which the Federal Government created 
exactly for the purpose of allowing researchers to use highly-
confidential government data for research purposes while 
protecting anonymity.
    Lastly, some people have said NAOMS data cannot be used to 
compute the rates at which events happened because multiple 
respondents might have reported the same event, leading to 
overestimates. This is incorrect. NAOMS was designed 
intentionally to collect multiple reports of the same event, 
and NAOMS was also designed to implement a statistical 
procedure to recognize this multiple reporting when translating 
the results of the surveys into computation of event counts.
    My best guess of why you heard earlier that events are--
event rates are too high in the survey is because that 
correction is not being implemented properly.
    Thus, these five criticisms of NAOMS are unfounded, and for 
these many reasons I believe that NASA deserves terrific praise 
for initiating NAOMS and for carrying out the work done so far 
so well. The method offers a new way to complement existing 
streams of data on aviation safety and it is relatively cheap 
and quick compared to the other methods being implemented.
    So in closing I want to thank NASA for the decision to make 
existing NAOMS data available to the public, along with 
complete documentation on exactly how the data were collected, 
but most importantly I want to urge NASA and this committee to 
restart NAOMS data collection where they left off. There is 
much left on the diagram on the screen to be done, and if NASA 
gets to work doing it, there will almost certainly be terrific 
benefits for this nation. And this committee can take some 
credit for those benefits if it comes about.
    NASA did a great job with NAOMS already, and they have a 
unique position of trust, objectivity, and scientific expertise 
in the aviation world that will allow them to carry out this 
work with efficiency and credibility. I hope they will chose to 
continue this important work in the future.
    Thank you very much.
    [The prepared statement of Dr. Krosnick follows:]
                 Prepared Statement of Jon A. Krosnick
    Thank you very much for the invitation to submit this statement and 
to testify before the Committee as it explores the history of NASA's 
National Aviation Operations Monitoring Service (NAOMS).
    Currently at Stanford, I am the Frederic O. Glover Professor of 
Humanities and Social Sciences, Professor of Communication, Professor 
of Political Science, Professor of Psychology (by courtesy), and 
Associate Director of the Institute for Research in the Social 
Sciences.
    As a member of the team that developed NAOMS, my role was as an 
expert on survey research methodology and questionnaire design.

My Qualifications and Experience

    While I have been a Professor at the Ohio State University and now 
at Stanford University, a great deal of my research has involved the 
collection and analysis of survey data, and many of my publications 
have been designed to identify best practices in survey methodology.
    As my curriculum vitae outlines (see Appendix A of this statement), 
I have published five books and am currently completing the fifth, The 
Handbook of Questionnaire Design (Oxford University Press). I have 
published 107 journal articles and book chapters in peer-reviewed 
publications. I have presented 252 papers reporting my research 
findings at research conferences around the world, where presentations 
were selected through a peer review process. I have received 65 grants 
and contracts supporting my research and am currently overseeing active 
grants and contracts totaling more than $10 million.
    I have served as a consultant to the following federal agencies on 
survey research issues: The Government Accountability Office (GAO), the 
Internal Revenue Service (IRS), the Central Intelligence Agency (CIA), 
the National Institutes of Health (NIH), the National Oceanic and 
Atmospheric Administration (NOAA), the Environmental Protection Agency 
(EPA), the Bureau of the Census, the Bureau of Labor Statistics (BLS), 
the Centers for Disease Control and Prevention (CDC), and the National 
Cancer Institute (NCI). I have advised these agencies on how to 
implement best practices in the survey research they conduct.
    I currently serve as co-principal investigator of the American 
National Election Study (ANES), the academic world's leading survey 
study of voting and elections, which is supported by a $7.6 million 
grant from the National Science Foundation. This project began in 1948 
with a national survey of a representative sample of American voters, 
and the same sort of survey has been conducted every two years since 
then. The data from the ANES are made public at no charge to all 
interested investigators around the world. As co-principal 
investigator, my responsibilities include all decisions about 
methodology for the collection of the survey data and all decisions 
regarding the design of the questionnaires used.
    I also serve on the Board of Overseers of the General Social 
Survey, which is the Nation's preeminent survey study of trends in 
Americans' social and political attitudes and behavioral experiences. 
Since the early 1970s, this study has involved annual or biannual 
surveys of representative national samples of American adults 
interviewed in their homes for hours and documenting a wide range of 
their opinions and experiences. Like the ANES, the GSS has been funded 
by the National Science Foundation, and the study's data are made 
available for free to all interested researchers around the world and

The NAOMS Vision

    The instigation of NAOMS was a commitment made in the 1990s by the 
Federal Government to reduce the risk of commercial airplane crashes by 
a specific targeted amount within ten years. Once that target was set, 
federal agencies looked for ways to assess whether that goal would be 
achieved and realized they had none. Simply tracking plane crashes 
would not be sufficient, because they happen extremely rarely and 
therefore do not indicate the amount of underlying risk posed by the 
many small events that, when cumulated, can increase the risk of an 
accident. Consequently, some alternative monitoring system was needed.
    The Federal Aviation Administration, other agencies, and private 
sector organizations (e.g., commercial airlines) have been collecting 
some information on the frequency with which some risk-elevating events 
have been occurring. But the array of event types being tracked was 
more limited than is needed for thoroughly tracking the functioning of 
the entire air travel system. Some anecdotal information has also been 
collected, but this information could not be used to calculate 
statistically reliable risk levels. Therefore, a new system for 
collecting information on the frequency of precursors to accidents was 
needed.
    NAOMS was designed to serve this purpose and to collect the needed 
information via high quality scientific and reliable surveys of people 
around the world who were watching the operation of the aviation system 
first-hand and who knew what was happening in the field. Indeed this 
use of the survey method was in keeping with many other long-term 
federally funded survey projects that provide valuable information to 
monitor public risk, identify sources of risk that could be minimized, 
identify upward or downward trends in specific risk areas, to call 
attention to successes, identify areas needing improvement, and thereby 
save lives while promoting commerce in the Nation.
    As originally conceived by Battelle Project Manager Loren 
Rosenthal, NAOMS was to be a multifaceted survey project building on 
the Aviation Safety Reporting System (ASRS). For many years, ASRS has 
been a successful system for collecting anecdotal information from 
pilots about some of the risk-elevating events they witnessed. Each 
time an event occurs, a pilot can choose to fill out a form describing 
it briefly and mail the form to NASA's ASRS office in Mountain View, 
California. An aviation expert then telephones the reporter to conduct 
a telephone interview to gather detailed information about the event. A 
subset of this information is then entered anonymously into a database 
that NASA maintains. And when important insights about risks have been 
obtained through this system, NASA has sent out reports to the aviation 
community.
    ASRS has successfully collected information that has had observable 
positive effects enhancing public safety. Pilots have come to trust it 
and NASA generally (because nothing undesirable has occurred to a pilot 
as the result of filing an ASRS report), and ASRS has had the 
flexibility to collect data on whatever events pilots deem worth 
reporting.
    But this flexibility also constitutes a significant limitation of 
ASRS as well. Because pilots voluntarily choose to file reports on 
events, their choices about when to report and what to report are 
uncontrolled. Consequently, many safety-related events go unreported to 
ASRS. And as a result, it is impossible to use ASRS to track trends in 
event rates over time. Therefore, NAOMS was envisioned to complement 
ASRS by producing accurate measurements of rates and trends in rates of 
a wide array of types of events.
    Every week of every year, NAOMS was planned to collect information 
from a representative sample of pilots flying commercial aircraft. The 
pilots would be asked to report the number of each of a series of 
different specific events that they had witnessed during a specific 
recent time period (e.g., the last 60 days). These counts could then be 
used to calculate the rates at which the events had occurred during 
that period throughout the entire air travel system.
    NAOMS had the potential to succeed especially because ASRS had 
already been successful. The trust that the community of commercial 
pilots had developed in NASA through its running of ASRS meant that 
these pilots could most likely be counted on to participate in NAOMS 
surveys at a high rate without concern about retribution. That is, the 
pilots could be expected to provide accurate and honest reports of 
event frequencies, because they already knew that NASA (through ASRS) 
was capable of compiling and reporting such data in a trustworthy and 
safety-enhancing way.
    But NAOMS was envisioned to go well beyond ASRS, by tapping the 
knowledge and experiences of other professionals participating in the 
air travel system and observing risk-elevating events. Specifically, 
the original plan for NAOMS included collecting survey data every week 
of every year from general aviation pilots, helicopter pilots, air 
traffic controllers, flight attendants, and mechanics, as shown in the 
following timeline that was presented by NASA at various public 
meetings describing the project:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Thus, the plan was to design and implement a ``permanent survey'' 
data collection operation to generate ongoing data to track event rates 
into the future.

NAOMS Resembled Many Other Federal Surveys

    This use of survey methodology in NAOMS was consistent with the 
conduct of surveys by many organizations in the public and private 
sectors to track rates of events over time and to inform decision-
making and organizational practices. Survey methodology is a highly 
developed science that can utilize reports of people's experiences to 
document events occurring around the Nation and around the world 
quickly and cheaply. In fact, each year, billions of dollars are spent 
conducting surveys around the world. The U.S. Federal Government is one 
of the largest producers of such data. For decades, survey data have 
been routinely collected and used by many federal agencies to track 
contemporary life in America in a wide array of domains and to provide 
valuable information for policy-making and policy implementation.
    A small subset of the survey research projects that have been 
funded by the U.S. government continuously, beginning in the years 
shown and sponsored by the agencies in parentheses, includes:

        <bullet>  Survey of Income and Program Participation (Census 
        Bureau) 1984-

        <bullet>  Consumer Expenditure Surveys (Census Bureau) 1968-

        <bullet>  Annual Housing Surveys (Census Bureau) 1973-

        <bullet>  Survey of Consumer Attitudes and Behavior (National 
        Science Foundation) 1953-

        <bullet>  Health and Nutrition Examination Surveys (National 
        Center for Health Statistics) 1959-

        <bullet>  National Health Interview Surveys (National Center 
        for Health Statistics) 1970-
           American National Election Studies (National Science 
        Foundation) 1948-

        <bullet>  Panel Study of Income Dynamics (National Science 
        Foundation) 1968-

        <bullet>  General Social Survey (National Science Foundation) 
        1972-

        <bullet>  National Longitudinal Survey (Bureau of Labor 
        Statistics) 1964-

        <bullet>  Behavioral Risk Factor Surveillance System (Centers 
        for Disease Control and Prevention) 1984-

        <bullet>  Monitoring the Future (National Institute of Drug 
        Abuse) 1975-

        <bullet>  Continuing Survey of Food Intake by Individuals 
        (Department of Agriculture) 1985-

        <bullet>  National Aviation Operations Monitoring System 
        (National Aeronautics and Space Administration) 2002-

        <bullet>  National Survey of Drinking and Driving (National 
        Highway Traffic Safety Administration) 1991-

        <bullet>  National Survey of Family Growth (National Center for 
        Health Statistics) 1973-

        <bullet>  National Survey of Fishing, Hunting, and Wildlife-
        Associated Recreation (Census Bureau) 1991-

        <bullet>  National Survey of Child and Adolescent Well-Being 
        (Department of Health and Human Services) 1997-

        <bullet>  Survey of Earned Doctorates (Science Resources 
        Statistics Program, National Science Foundation) 1958-

        <bullet>  National Survey on Drug Use and Health (Department of 
        Health and Human Services) 1971-

        <bullet>  Youth Risk Behavior Surveillance System (Department 
        of Health and Human Services) 1990-

        <bullet>  National Crime Victimization Survey (Bureau of 
        Justice Statistics) 1973-

        <bullet>  Schools and Staffing Survey (National Center for 
        Educational Statistics) 1987-

        <bullet>  Educational Longitudinal Survey (National Center for 
        Educational Statistics) 2002-

        <bullet>  Current Employment Statistics Survey (Bureau of Labor 
        Statistics) 1939-

    Just a few of the many other major surveys sponsored by federal 
agencies over the years include:

        <bullet>  National Survey of Distracted and Drowsy Driving 
        (National Highway Traffic Safety Administration)

        <bullet>  National Survey of Veterans (Department of Veterans 
        Affairs)

        <bullet>  National Survey of Children's Health (Health 
        Resources and Services Administration's Maternal and Child 
        Health Bureau)

        <bullet>  National Survey of Recent College Graduates (Science 
        Resources Statistics Program, National Science Foundation)

        <bullet>  National Survey of Speeding and Other Unsafe Driving 
        Actions (National Highway Traffic Safety Administration, 
        Department of Transportation)

    Survey data form the basis of many important government policy-
making decisions. For example, economists in the Federal Reserve and 
other agencies pay close attention to the federal unemployment and 
inflation rates, both of which are calculated using data from national 
surveys. The many other federal agencies listed above collect survey 
data because those data are used in on-going decision-making.
    Decades of research have shown that the reliability and validity of 
optimally-collected survey data are generally quite high, and that 
respondents can be relied upon to provide quite accurate descriptions 
of their past experiences, behaviors, and opinions. Most visibly, 
surveys conducted just before U.S. presidential elections predict the 
actual election vote results very closely (see, e.g., Visser, P.S., 
Krosnick, J.A., Marquette, J., & Curtin, M., 1996; Mail surveys for 
election forecasting? An evaluation of the Columbus Dispatch poll. 
Public Opinion Quarterly, 60, 181-227, Visser, P.S., Krosnick, J.A., 
Marquette, J., & Curtin, M., 2000; Improving election forecasting: 
Allocation of undecided respondents, identification of likely voters, 
and response order effects. In P. Lavrakas & M. Traugott (Eds.), 
Election polls, the news media, and democracy. New York, NY: Chatham 
House). Even when there is error in such survey measurements (and there 
is), the error is not huge in percentage point terms (bearing in mind 
that a small shift in percentages can change the winner of a close 
election). For example, since 1936, the percent of votes won by the 
winner has correlated with the Gallup Poll's pre-election prediction of 
that percentage .85, a nearly perfect association.\1\ Likewise, since 
1948, the American National Election Study surveys' post-election 
measurements of the proportions of votes won by the winning 
presidential candidate have correlated with official government vote 
counts .92, again nearly perfect.
---------------------------------------------------------------------------
    \1\ Correlations can range from 1 (meaning a perfect match between 
the variables) to 0 (meaning a relation between the variables no better 
than chance) to -1 (meaning a perfect inverse relation between the 
variables).
---------------------------------------------------------------------------
    Equally striking are the results of the Monthly Survey of Consumer 
Attitudes and Behavior, conducted continuously by the University of 
Michigan's Survey Research Center since 1970. Each month, a 
representative national sample of American adults has been asked what 
they expect to happen to the unemployment and inflation rates in the 
future (as well as many other topics), and their aggregated answers 
have predicted later changes in actual unemployment and inflation 
remarkably well (correlations of .80 and .90, respectively, between 
1970 and 1995). This is testimony not only to the aggregated wisdom of 
the American public but also to the ability of scientific surveys to 
measure that wisdom accurately.
    A high level of accuracy can be achieved if optimal procedures are 
implemented to conduct a survey, and departures from such procedures 
can significantly compromise the accuracy of a survey's findings. 
Necessary features include drawing a representative sample of the 
population, taking extensive steps to collect data from as many sampled 
people as possible, optimizing the choice of survey mode to achieve 
accurate measurements, asking questions that are easily comprehensible 
and do not entail biased wording or format, weighting results to 
correct for unequal sampling probabilities, and much more.

Survey Methods Development in NAOMS

    When I was brought onto the research team, I was told that the 
project was committed not just to designing and conducting surveys, but 
to doing so with the best possible practices to assure the most 
accurate data possible. Thus, rather than simply using intuition and 
budget limitations as guidelines for making methodological decisions, 
the project set out to design practices that would optimize data 
accuracy.
    To this end, we conducted a series of studies, including a large-
scale field trial, to answer a series of questions with regard to the 
first survey we developed for air carrier pilots:

        <bullet>  What risk-elevating events should we ask the pilots 
        to count?

        <bullet>  How shall we gather the information from pilots--
        written questionnaires, telephone interviews, or face-to-face 
        interviews?

        <bullet>  How far back in the past can we ask pilots to 
        remember without reducing the accuracy of their recollections?

        <bullet>  In what order should the events be asked about in the 
        questionnaire?

    What events? The goal of the NAOMS survey was to collect 
information on as many different sorts of risk-elevating events as 
possible. To begin generating a comprehensive list of such events, we 
conducted a series of focus group discussions with professionals who 
were active in the air traffic system, including air carrier pilots, 
general aviation pilots, helicopter pilots, and air traffic 
controllers. In each of these group discussions, we asked participants 
to generate as comprehensive a list of risk-inducing events as they 
could during a two-hour period. These exercises revealed a coherent and 
repeatedly-occurring list of events that seemed quite suitable for 
tracking by NAOMS surveys.
    In addition, we consulted with industry and government safety 
groups, including members of CAST, the FAA, and the analysts who 
conducted telephone interviews of pilots submitting reports to ASRS. We 
also reviewed the contents of aviation event databases, such as the 
ASRS, NAIMS, and BTS databases. In the end, we chose to track a set of 
events that was faithful to those pinpointed by these data-gathering 
exercises.
    What mode? At the time that NAOMS was launched, it was widely 
recognized in the survey research community that face-to-face 
interviewing was the optimal way to collect accurate and honest data 
from respondents. Although most surveys at that time were being 
conducted by telephone, the Federal Government's most important and 
visible surveys continued to rely on face-to-face interviewing. When a 
competent, committed, and professional interviewer meets face-to-face 
with a respondent, the respondent develops a sense of trust in and 
rapport with the interviewer, inspiring the respondent to devote the 
cognitive effort needed to generate accurate responses and the 
confidence that his/her identity will be protected, so that honest 
reports can be provided without fear of retribution.
    We therefore decided to explore the viability of face-to-face 
interviewing of pilots for NAOMS. However, we recognized that such 
interviewing would be costly and logistically challenging, so we also 
explored the viability of two alternative modes: telephone interviewing 
and paper-and-pencil questionnaires. At the time we initiated NAOMS, 
the published survey methodology literature did not offer clear 
guidance about the quality of data to be expected from these two latter 
modes. We therefore designed a ``field trial'' to compare the three 
modes of data collection.
    At the start of the field trial, a sample of licensed pilots was 
selected to be interviewed face-to-face. But it quickly became clear 
that because of the ongoing mobility of the pilots, it would be 
practically impossible to coordinate schedules with them to allow 
interviewers to meet with them and conduct interviews at anything 
approaching a reasonable cost. Therefore, face-to-face interviewing was 
abandoned. Consequently, the field trial focused on comparing telephone 
interviewing and paper questionnaires mailed to respondents using a 
method developed by Professor Don Dillman (a long-time consultant to 
the U.S. Census Bureau) to assure high response rates.
    Pilots were randomly assigned to be interviewed in one of these 
modes, and the survey research group at Battelle's Center for Public 
Health Research and Evaluation conducted the data collection. The cost 
per interview was $60 for each mailed questionnaire completed, as 
compared to $75 for each telephone interview completed. But according 
to all indicators of data quality, we got what we paid for: the 
telephone interviews yielded superior data. For example, the response 
rate for the mail questionnaires was 73 percent, and the response rate 
for the telephone interviews was 81 percent. Whereas pilots never 
failed to answer a question during a telephone interview, respondents 
failed to answer 4.8 percent of the questions on the paper 
questionnaires. Respondents reported significantly more confidence in 
the accuracy of their answers during the telephone interviews than of 
their answers on the paper questionnaires. And a built in accuracy 
check showed that the telephone responses were 30 percent more accurate 
than the paper responses. We therefore chose to conduct the survey via 
telephone interviews.
    How far back in the past could pilots remember accurately? Our goal 
was to collect information on as many events as possible without 
compromising the accuracy of recollections. The longer the time period 
that pilots were asked to describe, the more rare events could be 
detected, with no added cost. But if the recall period addressed in the 
questionnaire was short, then we would have had to increase the number 
of pilots interviewed considerably in order to detect rare events. A 
comprehensive review of the existing scholarly literature did not 
provide clear guidance on what the optimal recall period would be for 
NAOMS pilots, so we built into the field trial a manipulation designed 
to identify this optimal recall period.
    Specifically, we randomly assigned some pilots to report on the 
events they witnessed during the last week and others to report on the 
last two weeks, the last four weeks, the last two months, the last four 
months, or the last six months. We found that the most accurate reports 
were provided for the two-month recall period, so we selected that 
period for the final questionnaire. During the initial months of NAOMS 
main study data collection, respondents were randomly assigned to be 
asked about either the last 30 days, the last 60 days, or the last 90 
days. But eventually, all pilots were asked about the last 60 days.
    What order of questions? Once we had specified a list of events to 
be addressed, we had to specific the order in which to ask about these 
events. If the order is optimized, it can make respondents' reporting 
process easier and their reports more accurate. And if order is not 
optimized, it can increase the difficulty of the task for the 
respondents, decrease their enjoyment of it, thereby decrease their 
motivation to provide accurate reports, and in the end, reduce the 
accuracy of the reports they do provide.
    Optimizing question order begins with the recognition that more 
complete and accurate recollection occurs when question order matches 
the way that information is organized in people's long-term memories. 
That is, psychologists believe that clusters of related pieces of 
information are stored together in memory. Asking a person to go to a 
specific location in memory and retrieve all the needed information 
there before moving on to retrieving information from a different 
location is preferable to asking people to jump around from place to 
place in memory, question by question (e.g., Barsalou, 1988; DeNisi & 
Peters, 1996; Raaijmakers, & Shiffrin, 1981; Sudman, Bradburn, & 
Schwarz, 1996; Tulving, 1972).
    According to this logic, memories of similar safety-compromising 
events are likely to be stored together in clusters in pilots' 
memories. So once a pilot begins retrieving memories from a particular 
cluster, it is easiest and most efficient to recall all other memories 
in that cluster, rather than jumping to another cluster. Therefore, our 
questionnaire grouped together questions asking about events that were 
stored near one another in pilots' memories.
    Identifying each respondent's memory organization scheme at the 
start of each interview is not practical. However, it was possible to 
assess the most common type or types of mental organizations used by 
pilots and tailor our questionnaire design to those types. We conducted 
a series of studies using a series of methods drawn from cognitive 
psychology to identify pilots' memory organizations, and the results of 
these studies clearly pointed to a memory organization that applied 
well across pilots and that we showed could be used to enhance the 
accuracy of recollections. In fact, our testing indicated that using 
the memory organization we identified to order questions enhanced 
recall accuracy by 25 percent or more over other orders we tested.
    Questionnaire pretesting. Once a survey questionnaire is designed, 
it is important to pretest it in various ways to assure that 
respondents understand the questions and can answer them. To test 
understandability and answerability, we conducted a series of tests. 
One test was built into the field trial, whereby we asked respondents 
to comment on and evaluate the understandability of the questions and 
to identify any questions that were not sufficiently clear and 
understandable. We also conducted cognitive think-aloud pretest 
interviews using a technique pioneered by researchers at the National 
Center for Health Statistics. This involved having pilots listen to the 
questions, restate them in their own words, and think aloud while 
answering the questions. These pretests were used to identify instances 
in which question wording needed improvement.
    Field trial results. The field trial involved collecting data from 
about 600 pilots, and this allowed us to evaluate the performance of 
the methodology fully. The results produced by the field trial 
documented that the methodology worked well. We achieved a very high 
response rate, and tests indicated high validity of the data. Thus, at 
the conclusion of the field trial, we had evidence sufficient to 
conclude that the method was well-designed and suitable for generating 
reliable data.
    Peer reviewing. Questions have been raised recently about whether 
the NAOMS methodology was subjected to a peer review process. In fact, 
peer review did occur. The research plan for NAOMS was presented at 
many public meetings and private meetings with stakeholder 
organizations and with experts involved in aviation and social science 
researchers. In all of these meetings, details of the rational for 
NAOMS and its methodology were described. The attendees asked 
questions, made comments, and offered suggestions. In addition, 
multiple meetings were held with large groups of NASA staff and FAA 
staff to provide details on the NAOMS plan and accomplishments and to 
acquire feedback.
    As far as I understand, NASA did not request or suggest to the 
NAOMS project team that any additional peer review occur. If such a 
request had been made, we would have been happy to implement additional 
review processes. However, that lack of such a request was not 
surprising to me or unusual in the context of federal survey design and 
data collection. I have been involved in many federal survey projects, 
and I have advised federal agencies on many others. The vast majority 
of these projects involved less peer review than NAOMS carried out. In 
fact, the only federally funded survey studies I know of that have 
routinely involved elaborately structure peer review processes are ones 
that were conducted by the government for use in litigation. These peer 
review processes rarely yielded significant changes in the survey 
process. I therefore do not believe that any additional peer review of 
the NAOMS methodology would have been significantly beneficial or 
caused any significant changes in procedure.
    An important reason for this is that in my role as a professor, I 
am responsible for keeping fully informed about the state of the survey 
methodology literature and new developments in survey techniques. By 
reading printed and online publications and attending conferences to 
hear presentations, I stay abreast of the field's understanding of best 
practices. Consequently, I was called upon regularly to evaluate our 
methodology vis-a-vis common practices in the field of survey research 
and the views of my professional peers on design issues. Thus, the 
views of my peers were regularly a focus during our planning process.
    Summary. The methods we used to develop the NAOMS questionnaire 
were state of the art. Indeed, the preliminary studies we conducted 
constitute valuable contributions to the scholarly literature on 
optimal survey design, producing findings pointing to best practices 
and identifying new methods for future tests intended to optimize 
survey designs. Thus, NASA can be very proud of what it accomplished 
during this phase of the project.

My View of NAOMS

    It was a privilege and an honor for me to have been asked to serve 
as a methodology expert on the NAOMS project. And it was a pleasure to 
work with the research team that carried out the project. Robert Dodd 
(now of the NTSB), Loren Rosenthal and Joan Cwi (of Battelle Memorial 
Institute), and Mary Conners and Linda Connell (of NASA) were 
consummate professionals who worked wonderfully together, even through 
times of tough decision-making. And the work done by the team was of 
superb quality.
    Because NAOMS was so well conceived, I looked forward to 
continuation of the project and the development of a large publicly 
available database for the study of air travel safety. In our public 
meetings with interested parties, we presented the following slides to 
illustrate the widespread use of surveys by federal agencies and the 
common practices for running these surveys over long time periods and 
distributing the data.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Thus, we intended to set up such a long-term data collection and 
dissemination system for NAOMS.
    When I heard that interviewing of air carrier pilots had been 
terminated and then that all funding for NAOMS had been stopped, I was 
surprised. As far as I knew, the project had been conducted according 
to best practices, and nothing that happened during that period 
suggested anything to the contrary.
    In my view, NAOMS was intelligently conceived and excellently 
implemented. Thus, for as far as it went, NAOMS deserves a great deal 
of praise from NASA and from all Americans. Indeed, NASA and the 
Federal Government should be very proud of what it accomplished with 
NAOMS, because its success is just what all government agencies hope 
for when setting out to do good for this nation.
    My belief in the value of NAOMS for this country led me to write an 
op-ed essay published in the New York Times in 2006 just after I got 
the news of discontinued funding. I wrote that essay with the goal of 
calling attention to the great success of NAOMS and perhaps to lead to 
a reconsideration of its termination.
    At the very least, I hoped that a way could be devised to allow 
researchers to have access to the data that were collected via 
approximately 24,000 interviews with air carrier pilots over a period 
of years.
    These data can be useful in a number of ways. First, they can 
document the frequency with which various types of events were 
occurring. According to our interviews with pilots early on in the 
project, they thought that NAOMS would be valuable partly because it 
would call attention to surprisingly high frequencies of some low-risk 
events that could be easily reduced or eliminated.
    Second, the NAOMS data can be compared to data on the frequency of 
similar events collected by other data sources. For example, ASRS and 
the FAA collect data that can be used to compute event rates and 
compared directly to some of the events asked about in the NAOMS 
questionnaire. If the NAOMS questionnaires yield different rates than 
these other reporting systems, that would highlight potential 
opportunities to explore the sources of those discrepancies, which 
might yield improvements in measurement methods and a clearer 
understanding of what measurement procedures are most accurate.
    Third, the NAOMS data can be used to compute trends over time in 
event rates. This was of course the primary intended purpose of NAOMS 
when it was originally envisioned. Thus, NAOMS could be used to gauge 
whether changes in the air travel system during the years of data 
collection were successful in reducing risk. Because NAOMS data were 
collected both before and after September 11, 2001, it would be 
possible to see how the changes in practices that occurred at that time 
translated into changes in event frequencies.
    Fourth, the NAOMS questionnaires are designed in ways that allow 
analysts to assess some of the conditions under which particular types 
of events are most likely to occur. For example, it is possible to 
explore whether some types of events occurred more on aircraft flown by 
pilots with less total career flying experience or by pilots with more 
than a certain amount of experience. It is possible to explore whether 
some types of events occurred more on some types of aircraft than on 
others. Such findings could be used to inspire further research to 
identify the reasons for the observed relations and then perhaps to 
change aviation practices to enhance safety.
    Fifth, the NAOMS data would allow researchers to conduct studies 
for optimizing survey methods generally. Not only is this possible by 
publishing reports of the field trial and preliminary studies done to 
prepare the NAOMS questionnaire and methodology, but the main study 
data can be used for this purpose in multiple ways. For example, it 
would be possible to compare the findings of data collected from pilots 
asked about events they witnessed during the last 30, 60, or 90 days to 
see how length of the recall period affected the accuracy of their 
recollections. This would be useful information to inform survey 
designers generally interested in optimizing recall questions. Also, it 
would be possible to explore how survey non-response is related to 
survey results, addressing a particularly hot topic in the survey 
methodology literature at the moment.
    For all of these reasons, I believe that the existing NAOMS data 
should be made publicly available right away so that analysts can learn 
everything that can be learned from the data, to make the most of the 
$8.4 million that NASA spent on the project. I believe that the model 
for making these data public should be the ASRS. NASA has been very 
successful in setting up a system for fully publicly disseminating the 
terrifically valuable information provided by pilots through the ASRS 
reporting system, and a comparable dissemination system can be created 
for NAOMS data as well.

Documenting the NAOMS Data in Detail

    In order to allow the dissemination of these data to yield the most 
positive benefits, it is essential that NASA provide extensive and 
detailed documentation of the procedures by which the study was 
designed and the procedures by which the main data were collected. This 
includes descriptions of sampling, of respondent recruiting, of 
locating potential respondents, of training interviewers, of releasing 
cases for interviewing at particular times, and more. The full array of 
electronic files documenting all phases of the data collection should 
be made public while protecting the identities of the individuals who 
were interviewed.
    In addition, NASA should help analysts use the data by providing 
written guidelines on how to properly analyze the data in light of the 
study design. No one knows the design complexities better than the 
NAOMS research staff. So they should write documentation to help 
analysts understand the origins of and potential uses of the data set.
    Just one illustration of how complex analysis of these data is 
involves the issue of multiple reporting of the same event. One 
potential use of NAOMS data is to calculate the rates at which 
particular risk-increasing events happened during particular time 
periods. NAOMS was designed to yield such estimates, but calculation of 
them must be done carefully.
    Consider, for example, bird strikes. An analyst might be tempted to 
simply count up the number of times that pilots who were interviewed 
during a particular time period (e.g., calendar year 2003) reported 
experiencing a bird strike. Then, the analyst might be tempted to 
multiply this total by the ratio of the total number of licensed pilots 
during that time period divided by the number of pilots who completed 
interviews in the survey to yield a projected total number of bird 
strikes that occurred to the entire population of pilots.
    However, multiple pilots witnessed each bird strike, and each bird 
strike could have been reported by each of those pilots. Specifically, 
a collision of a bird with an airplane would have been witnessed by two 
pilots on aircraft with two cockpit crew members and by three pilots on 
aircraft with three cockpit crew members. Thus, each bird strike had 
twice the probability of being reported by two-crew aircraft pilots and 
three times the probability of being reported by three-crew aircraft 
pilots. So in order to calculate the number of events accurately, the 
observed total number of events must be adjusted downward to account 
for this multiple reporting.
    NAOMS was designed knowing that this sort of calculation must be 
carried out. The questionnaire collected information necessary to 
implement corrections for this multiple reporting. Providing 
information to analysts about how to do this computation would be a 
valuable public service. With substantial documentation accompanying 
the data, analysts can be sure to calculate statistics properly by 
taking into account all such analytic considerations.
    In addition to providing this documentation immediately, I would 
strongly recommend to NASA that they assemble and fund a ``swat'' team 
of suitable experts to conduct all possible analyses with the NAOMS 
data and issue an initial report of their findings as quickly as 
possible. Subsequent reports can then be issued later as additional 
analyses are conducted.
    I assume that this ``swat team's'' effort should build on the work 
that NASA has done already in constructing a final report on the data, 
which they planned to release later this year. I have not seen a draft 
of that report and don't know anything about its contents. But if it is 
not completely comprehensive in addressing all issues that the data can 
address and completely comprehensive in fully documenting all 
procedural details of how the data were collected, I would recommend 
that its scope be expanded accordingly, with proper government funding 
to permit it to be done as well as all of the rest of NAOMS to date.

The Future of NAOMS

    One might imagine that the book has been closed on NAOMS and that 
clean-up activity is all that remains on this project. But I believe 
that to think of NAOMS in these terms would forego a wonderful 
opportunity for NASA and for this government and for this country.
    NAOMS data are not being generated by any other source. And from 
all indications, the NAOMS data that were collected are reliable and 
valid. Furthermore, our team's public meetings with stakeholders 
indicated considerable enthusiasm for the sorts of data that NAOMS was 
intended to provide.
    Therefore, I believe, the vision of a multi-faceted NAOMS data 
collection monitoring service was and is terrifically positive for 
everyone who flies on planes, everyone who works in the commercial 
aviation system, everyone who manufactures airplanes, and everyone who 
monitors and helps to optimize aeronautics in American.
    Consequently, I recommend restarting NAOMS data collection where it 
left off and bring its potential fully into being. Doing so would be a 
great service of this government to this country.
    There has been some discussion recently of the notion that NASA has 
prepared NAOMS to be handed off to another organization to continue the 
data collection in the future. Two organizations that have been 
mentioned in this regard are the Air Line Pilots Association (ALPA) and 
the Commercial Aviation Safety Team (CAST).
    I believe that such a hand-off would be unwise, untenable, and 
unlikely to lead to successful continuation of NAOMS data collection. 
The reason is that within the aviation safety community, NASA is 
uniquely qualified to carry out this work in an optimal form, for a 
series of reasons.
    First, NASA has built up a unique credibility and trust in the 
aviation safety community by running ASRS successfully over the years. 
No other agency has the trust of all interested parties inside and 
outside of government the way NASA does. This trust will enhance the 
likelihood that pilots, air traffic controllers, flight attendants, and 
mechanics will agree to participate in survey interviews. NASA's 
reputation for scientific excellence is especially important to allow 
NAOMS data to earn the trust that they deserve.
    Second, NASA has the scientific credibility and third-party 
objectivity to be able to collect data at a distance from those who run 
airlines, manufacture aircraft, and fly on those aircraft. If the data 
collection were to be run by any interested party, their values might 
be perceived, rightly or wrongly, to have influenced the results they 
obtain and/or distribute. This is a context in which government 
oversight and management of an information collection system run by a 
private sector contractor with considerable expertise is the best way 
to allow that system to be most effective and most helpful to all who 
can benefit from it.
    Most importantly, I have not heard of any commitment made by ALPA, 
CAST, or any other private sector organization to commit funds to 
initiate and maintain continued NAOMS data collection using the same 
high-quality methodology that NASA developed. The benefits of ASRS data 
are obvious to all who use that growing data set of anecdotes. 
Considerable added value can and should be created by making long-term 
commitment through appropriate funding to allow NASA to restart NAOMS 
data collection from pilots, air traffic controllers, flight 
attendants, and mechanics.
    The Members of this committee fly on commercial airlines, as do 
huge numbers of your constituents, including me. I believe that we all 
deserve to fly on the safest possible system. NASA's efforts in 
building and carrying out NAOMS offer the opportunity to significantly 
enhance our safety by watching carefully what happens in real time and 
documenting risk-elevating events in ways that enable minimization of 
them. As the aviation system grows and changes in the coming years, 
keeping a close eye on its functioning can only increase public 
confidence in air travel. I therefore urge this committee to please 
take this opportunity to do what I believe your constituents would 
want: to reactive this valuable system under NASA's roof.

Conclusion

    The U.S. Federal Government in general and NASA in particular have 
a great deal to be proud of regarding NAOMS. NAOMS was intended to fill 
a hole by creating an ongoing pipeline of valuable information for the 
public and for the private sector to enhance the welfare of all 
Americans. It has succeeded in doing so and can continue to do so in 
the future. Thank you for taking this opportunity to consider assuring 
that to happen.

                     Biography for Jon A. Krosnick

Education

A.B., Harvard University (in Psychology, Magna Cum Laude), 1980.

M.A., University of Michigan (in Social Psychology, with Honors), 1983.

Ph.D., University of Michigan (in Social Psychology), 1986.

Employment

2006-  , Research Professor, Survey Research Laboratory, University of 
        Illinois.

2005-  , Senior Fellow, Institute for the Environment, Stanford 
        University.

2004-  , Frederic O. Glover Professor in Humanities and Social 
        Sciences, Stanford University.

2004-  , Professor, Department of Communication, Stanford University.

2004-  , Professor, Department of Political Science, Stanford 
        University.

2004-  , Professor, Department of Psychology (by courtesy), Stanford 
        University.

2004-  , Associate Director, Institute for Research in the Social 
        Sciences, Stanford University.

2004-  , Director, Methods of Analysis Program in the Social Sciences, 
        Stanford University.

2004-2006, Visiting Professor, Department of Psychology, The Ohio State 
        University.

2003-2004, Visiting Professor, Department of Communication, Stanford 
        University.

1986-2004, Assistant to Associate to Full Professor, Departments of 
        Psychology and Political Science, The Ohio State University.

1987-1989, Adjunct Research Investigator, Survey Research Center, 
        Institute for Social Research, University of Michigan.

1987-1989, Lecturer, Survey Research Center Summer Program in Survey 
        Research Techniques, University of Michigan.

1986-1987, Visiting Scholar, Survey Research Center, Institute for 
        Social Research, University of Michigan.

1985, Lecturer, Department of Psychology, The Ohio State University.

1982-1985, Research Assistant, Center for Political Studies and Survey 
        Research Center, Institute for Social Research, University of 
        Michigan.

1980-1981, Senior Research Assistant, Department of Psychology, Harvard 
        University.

1979-1981, Senior Research Assistant, Department of Behavioral 
        Sciences, School of Public Health, Harvard University.

Honors

1976, Bausch and Lomb Science Award.

1982, National Institute of Mental Health Graduate Training Fellowship.

1984, Phillip Brickman Memorial Prize for Research in Social 
        Psychology.

1984, American Association for Public Opinion Research Student Paper 
        Award.

1984, National Institute of Mental Health Graduate Training Fellowship.

1984, Pi Sigma Alpha Award for the Best Paper Presented at the 1983 
        Midwest Political Science Association Annual Meeting.

1984, Elected Departmental Associate, Department of Psychology, 
        University of Michigan, recognizing outstanding academic 
        achievement.

1990, Invited Guest Editor, Social Cognition (Special issue on 
        political psychology, Vol. 8, #1, May)

1993, Brittingham Visiting Scholar, University of Wisconsin.

1995, Erik H. Erikson Early Career Award for Excellence and Creativity 
        in the Field of Political Psychology, International Society of 
        Political Psychology.

1996-1997, Fellow, Center for Advanced Study in the Behavioral 
        Sciences, Stanford, California.

1998, Elected Fellow, American Psychological Association.

1998, Elected Fellow, Society for Personality and Social Psychology.

1998, Elected Fellow, American Psychological Society.

2001-2007, Appointed University Fellow, Resources for the Future, 
        Washington, DC.

2003, Prize for the Best Paper Presented at the 2002 Annual Meeting of 
        the American Political Science Association, Section on 
        Elections, Public Opinion, and Voting Behavior.

Selected Invited Addresses

2003, Invited Address, Midwestern Psychological Association Annual 
        Meeting, Chicago, Illinois.

2004, Invited Address, Distinguished Lecture Series Sponsored by the 
        Departments of Psychology and Political Science, University of 
        California, Davis, California.

2004, Keynote Lecture, International Symposium in Honour of Paul 
        Lazarsfeld, Katholieke Universiteit Leuven (Belgium).

2005, Invited Address, Joint Program in Survey Methodology 
        Distinguished Lecture Series, University of Maryland, College 
        Park, Maryland.

2005, Invited Address, ``Climate Change: Science <r-arrow> Action,'' 
        Conference Hosted by the Yale School of Forestry and 
        Environmental Studies, Aspen, Colorado.

2005, Invited Commentator, ``Science for Valuation of EPA's Ecological 
        Protection Decisions and Programs,'' a U.S. Environmental 
        Protection Agency Science Advisory Board Workshop, Washington, 
        DC.

2006, Invited Address, ``The Wonderful Willem Saris and his 
        Contributions to the Social Sciences.'' Farewell Symposium for 
        Willem Saris, University of Amsterdam, Amsterdam, the 
        Netherlands.

2006, Invited Workshop, ``The State of Survey Research.'' Annual Summer 
        Meeting of the Society for Political Methodology, Davis, 
        California.

2006, Invited Keynote Address, ``Recent Lessons Learned About 
        Maximizing Survey Measurement Accuracy in America: One Surprise 
        After Another.'' 2006 Survey Research Methodology Conference, 
        Center for Survey Research, Academia Sinica, Taipei, Taiwan.

2006, Invited Address, ``Review of Nonresponse Analysis Across Multiple 
        Surveys.'' Conference on ``Sample Representativeness: 
        Implications for Administering and Testing Stated Preference 
        Surveys,'' Resources for the Future, Washington, D.C.

2006, Invited Address, ``Introduction to Survey Issues in Ecological 
        Valuation.'' Meeting of the U.S. Environmental Protection 
        Agency Scientific Advisory Board Committee on Valuing the 
        Protection of Ecological Systems and Services (CVPESS), 
        Washington, D.C.

2006, Invited Address, ``Gas Pumps and Voting Booths: Energy and 
        Environment in the Midterm Elections.'' First Wednesday 
        Seminar, Resources for the Future, Washington, D.C.

2006, Invited Address, ``What Americans Believe and Don't Believe about 
        Global Warming: Attitude Formation and Change in Response to a 
        Raging Scientific Controversy.'' National Science Foundation 
        Speaker Series, Washington, D.C.

2006, Invited Address, ``Moving Survey Data Collection to the Internet? 
        Surprising Ways that Mode, Sample Design and Response Rates 
        Affect Survey Accuracy.'' New York Chapter of the American 
        Association for Public Opinion Research, Fordham University, 
        New York, New York.

2006, Invited Address, ``Climate change: What Americans Really Think.'' 
        Conference entitled ``A Favorable Climate for Climate Action,'' 
        sponsored by the Sustainable Silicon Valley, Santa Clara 
        University, Santa Clara, California.

2006, Invited Lecture, ``What Americans Really Think About Climate 
        Change: Attitude Formation and Change in Response to a Raging 
        Scientific Controversy.'' Brown Bag Series, National Oceanic 
        and Atmospheric Administration, Silver Spring, Maryland.

2007, Invited Lecture, ``What Americans Really Think About Climate 
        Change: Attitude Formation and Change in Response to a Raging 
        Scientific Controversy.'' Education And Outreach Colloquium, 
        Earth Sciences Division, NASA Goddard Space Flight Center, 
        Greenbelt, Maryland.

2007, Inaugural Lecture, ``The Brave New World of Survey Research: One 
        Surprise After Another.'' Survey Research Institute First 
        Annual Speaker Series, Cornell University, Ithaca, New York.

2007, Inaugural Lecture, ``What Americans Really Think About Climate 
        Change: Attitude Formation and Change in Response to a Raging 
        Scientific Controversy.'' National Centers for Coastal Ocean 
        Science/Center for Sponsored Coastal Ocean Research Ecosystem 
        Science Seminar Series & NOS Science Seminar Series, National 
        Oceanic and Atmospheric Administration, Silver Spring, 
        Maryland.

2007, Plenary Speaker, ``What Americans Really Think About Climate 
        Change: Attitude Formation and Change in Response to a Raging 
        Scientific Controversy.'' Annual Ocean and Coastal Program 
        Managers' Meeting, Sponsored by the Office of Ocean and Coastal 
        Resource Management in partnership with the National Estuarine 
        Research Reserve Association, National Oceanic and Atmospheric 
        Administration, Washington, DC.

2007, Oral Testimony on Assembly Bill 372 (to revise the order in which 
        the names of candidates for an office must appear on the 
        ballot) before the Nevada State Legislature, Carson City, 
        Nevada.

2007, Invited Lecture, ``What Americans Really Think About Climate 
        Change: Attitude Formation and Change in Response to a Raging 
        Scientific Controversy.'' The White House Office of Science and 
        Technology Policy, Washington, D.C.

2007, Invited Lecture, ``What Americans Really Think About Climate 
        Change: Attitude Formation and Change in Response to a Raging 
        Scientific Controversy.'' Workshop on Climate Science and 
        Services: Coastal Applications for Decision Making through Sea 
        Grant Extension and Outreach. NOAA Coastal Services Center, 
        Charleston, South Carolina.

2007, Invited Lecture, ``Climate Change: What Americans Think.'' 
        Capital Hill Briefing Sponsored by the Environment and Energy 
        Study Institute, Cannon House Office Building, Washington, D.C. 
        Broadcast live in C-SPAN.

2007, Invited Lecture, ``The Impact of Candidate Name Order on Election 
        Outcomes.'' The Carter Center, Atlanta, Georgia.

2007, Invited Lecture, ``What Americans Really Think About Climate 
        Change: Attitude Formation and Change in Response to a Raging 
        Scientific Controversy.'' Google, Mountain View, California.

2007, Invited Lecture, ``Climate Change: What Americans Really Think.'' 
        The Commonwealth Club, San Francisco, California.

2007, Invited Address, ``Representativeness of Online Panels.'' Time-
        Warner 2007 Research Conference, New York, New York.

2007, Invited Lecture, ``What the Public Knows.'' News Executives 
        Roundtable: Covering Climate Change, Stanford, California.

2007, Invited Address, ``The Top Ten Signs of an Excellent Survey 
        Vendor.'' Intuit Corporatate Customer & Market Insight Offsite, 
        Palo Alto, California.

2007, Invited Lecture, ``What Americans Really Think About Climate 
        Change.'' Association of Science-Technology Centers Conference, 
        Los Angeles, California.

Editorial Board Member

1989-2000, Journal of Personality and Social Psychology
2006-    ,

1990-1994, Journal of Experimental Social Psychology

1997-2003, Basic and Applied Social Psychology

1988-1991, Public Opinion Quarterly
1994-2002,

1998-2005, Media Psychology

2006-    , Sociological Methodology

External Grants and Contracts

1977, CBS Research Grant, to support development and evaluation of a 
        mass media promotional campaign for sound recordings.

1984, Society for the Psychological Study of Social Issues Doctoral 
        Dissertation Grant-in-aid.

1984, CBS Research Grant, to support literature review/research on the 
        causes of heavy television viewing among children and 
        adolescents.

1985, CBS Research Grant, to support empirical research on the effect 
        of television viewing on alcohol use among children and 
        adolescents.

1985, CBS Research Grant, to support empirical research on the causes 
        of heavy television viewing among children and adolescents.

1987-1989, National Institute on Aging Research Grant, to study changes 
        in political orientations over the life span (with Duane F. 
        Alwin).

1987, National Association of Broadcasters Research Grant, to study the 
        causes of heavy television viewing among children and 
        adolescents.

1988, Society for the Psychological Study of Social Issues Grant-in-
        Aid, to support research on the causes of heavy television 
        viewing among children and adolescents.

1990-1992, National Science Foundation, The information processing 
        consequences of attitude importance.

1991, National Science Foundation Research Experience for 
        Undergraduates Grant Supplement, The information processing 
        consequences of attitude importance.

1992, Society for the Psychological Study of Social Issues Grant-in-
        Aid, to support research on the impact of the Gulf War on the 
        constituents of presidential evaluations.

1992, National Science Foundation Research Experience for 
        Undergraduates Grant Supplement, The information processing 
        consequences of attitude importance.

1994, National Science Foundation, Explaining the surprising accuracy 
        of mail surveys.

1995, National Science Foundation Research Experience for 
        Undergraduates Grant Supplement, Explaining the surprising 
        accuracy of mail surveys.

1995, U.S. Department of the Interior/Minerals Management Service/
        University of California Coastal Marine Institute, Testing and 
        calibrating the measurement of nonmarket values for oil spills 
        via the contingent valuation method (with Michael Hanemann).

1995, Electric Power Research Institute/Industrial Economics, 
        Elicitation of public perceptions regarding the potential 
        ecological effects of climate change (part I).

1996, Electric Power Research Institute/Industrial Economics, 
        Elicitation of public perceptions regarding the potential 
        ecological effects of climate change (part II).

1997, National Science Foundation, Formation and change of public 
        beliefs about global warming.

1997, National Oceanic and Atmospheric Administration/U.S. 
        Environmental Protection Agency/Resources for the Future, 
        Formation and change of public beliefs about global warming: 
        Wave II of survey interviewing.

1998, 1999, 2000, 2001, Robert Dodd and Associates/The Battelle 
        Memorial Institute/National Aeronautics and Space 
        Administration, National Aviation Operations Monitoring System 
        questionnaire development.

2000, 2001, Resources for the Future, American public opinion on the 
        environment.

2001, 2002, Columbus Airport Authority, The dynamics and causes of 
        airport customer satisfaction.

2002, Time-sharing Experiments for the Social Sciences (TESS) grant 
        (funded by the National Science Foundation), Social 
        desirability and reports of voter turnout (with Allyson L. 
        Holbrook).

2003, National Science Foundation, Social and psychological mechanisms 
        of the relation between age and openness to attitude change 
        (with Penny Visser).

2003, New York Academy of Medicine/W. K. Kellogg Foundation, Engaging 
        the community in terrorism preparedness planning.

2003, Decade of Behavior 2000-2010 Distinguished Lecture Program Grant 
        to feature Richard E. Petty at the 2003 annual meeting of the 
        American Association for Public Opinion Research.

2004, National Science Foundation, Optimizing the number of points on 
        rating scales.

2004, The Bureau of Labor Statistics, U.S Department of Labor, Refining 
        the categorization of jobs in the biotechnology industry.

2005, National Science Foundation, 2005 Summer Institute in Political 
        Psychology.

2005, National Science Foundation, Survey Research Methodology 
        Optimization for the Science Resource Statistics Program.

2005, National Science Foundation, American National Election Studies 
        2005-2010 (with Arthur Lupia).

2006, American Psychological Association, The psychology of voting and 
        election campaigns: A proposal for a stand-alone conference 
        (with Wendy Wood, Arthur, Lupia, and John Aldrich).

2006, National Science Foundation, Agenda-setting workshop in the area 
        of e-science: Development of the next generation of cybertools 
        applied to data collections in the social and behavioral 
        sciences (with Arthur Lupia).

2006, National Science Foundation, Development of a computer network 
        for experimental and non-experimental data collection via the 
        Internet from a nationally representative sample of American 
        households.

2006, National Science Foundation and the Department of Homeland 
        Security, Expansion of the American National Election Study: 
        Gauging the public's Attitudes on terrorism and homeland 
        security (with Arthur Lupia).

2007, National Science Foundation, 2007 Summer Institute in Political 
        Psychology.

2007, National Science Foundation, Survey Research Methodology 
        Optimization for the Science Resource Statistics Program.

2007, National Science Foundation, Survey Research Methodology 
        Optimization for the Science Resource Statistics Program 
        (Supplement).

2007, National Science Foundation, Research Experience for 
        Undergraduates Supplement for the American National Election 
        Study.

2007, National Science Foundation, The Impact of Polls on Political 
        Behavior.

2007, National Science Foundation, American National Election Studies 
        Supplement to Support Additional Pretesting of Questionnaire 
        Items.

2007, National Science Foundation, American National Election Studies 
        Supplement to Support a Conference on Methodology for Coding 
        Open-ended Question Responses.

Books

Weisberg, H., Krosnick, J.A., & Bowen, B. (1989). Introduction to 
        survey research and data analysis. Chicago: Scott, Foresman.

Krosnick, J.A. (Ed.). (1990). Thinking about politics: Comparisons of 
        experts and novices. New York: Guilford Press (Book version of 
        a special issue of Social Cognition, Volume 8, Number 1, 1990).

Petty, R.E., & Krosnick, J.A. (Eds.). (1995). Attitude strength: 
        Antecedents and consequences. Hillsdale, NJ: Erlbaum.

Weisberg, H., Krosnick, J.A., & Bowen, B. (1996). Introduction to 
        survey research, polling, and data analysis. Thousand Oaks, CA: 
        Sage.

Carson, R.T., Conaway, M.B., Hanemann, W.M., Krosnick, J.A., Mitchell, 
        R.C., Presser, S. (2004). Valuing oil spill prevention: A case 
        study of California's central coast. Dordrecht, The 
        Netherlands: Kluwer Academic Publishers.

Krosnick, J.A., & Fabrigar, L.R. (forthcoming). The handbook of 
        questionnaire design. New York: Oxford University Press.

Journal Articles and Book Chapters

Krosnick, J.A. (1978). One approach to the analysis of drumset playing. 
        Percussive Notes, Spring-Summer, 143-149.

Judd, C.M., Krosnick, J.A., & Milburn, M.A. (1981). Political 
        involvement and attitude structure in the general public. 
        American Sociological Review, 46, 660-669.

Krosnick, J.A., & Judd, C.M. (1982). Transitions in social influence at 
        adolescence: Who induces cigarette smoking? Developmental 
        Psychology, 18, 359-368.

Judd, C.M., & Krosnick, J.A. (1982). Attitude centrality, organization, 
        and measurement. Journal of Personality and Social Psychology, 
        42, 436-447.

Krosnick, J.A. (1982). Teaching percussion: Growing with your students. 
        National Association of College Wind and Percussion Instructors 
        Journal, Summer, 4-7.

Judd, C.M., Kenny, D.A., & Krosnick, J.A. (1983). Judging the positions 
        of political candidates: Models of assimilation and contrast. 
        Journal of Personality and Social Psychology, 44, 952-963.

McAlister, A.L., Krosnick, J.A., & Milburn, M.A. (1984). Causes of 
        adolescent cigarette smoking: Tests of a structural equation 
        model. Social Psychology Quarterly, 47, 24-36.

Iyengar, S., Kinder, D.R., Peters, M.D., & Krosnick, J.A. (1984). The 
        evening news and presidential evaluations. Journal of 
        Personality and Social Psychology, 46, 778-787.
    Reprinted in Peplau, L.A., Sears, D.O., Taylor, S.E., & Freedman, 
        J.L. (Eds.) (1988), Readings in social psychology: Classic and 
        contemporary contributions. Englewood Cliffs, NJ: Prentice 
        Hall.

Alwin, D.F., & Krosnick, J.A. (1985). The measurement of values in 
        surveys: A comparison of ratings and rankings. Public Opinion 
        Quarterly, 49, 535-552.
    Reprinted in Singer, E., & Presser, S. (Eds.) (1989). Survey 
        research methods: A reader. Chicago: University of Chicago 
        Press.
    Reprinted in Bartholomew, D. (Ed.) (2006). Measurement. Oxford, UK: 
        The Bardwell Press.

Schuman, H., Ludwig, J., & Krosnick, J.A. (1986). The perceived threat 
        of nuclear war, salience, and open questions. Public Opinion 
        Quarterly, 50, 519-536.

Krosnick, J.A., & Alwin, D.F. (1987). An evaluation of a cognitive 
        theory of response order effects in survey measurement. Public 
        Opinion Quarterly, 51, 201-219.

Krosnick, J.A. (1988). Attitude importance and attitude change. Journal 
        of Experimental Social Psychology, 24, 240-255.

Krosnick, J.A., & Schuman, H. (1988). Attitude intensity, importance, 
        and certainty and susceptibility to response effects. Journal 
        of Personality and Social Psychology, 54, 940-952.

Krosnick, J.A. (1988). The role of attitude importance in social 
        evaluation: A study of policy preferences, presidential 
        candidate evaluations, and voting behavior. Journal of 
        Personality and Social Psychology, 55, 196-210.

Krosnick, J.A., & Alwin, D.F. (1988). A test of the form-resistant 
        correlation hypothesis: Ratings, rankings, and the measurement 
        of values. Public Opinion Quarterly, 52, 526-538.

Judd, C.M., & Krosnick, J.A. (1989). The structural bases of 
        consistency among political attitudes: The effects of political 
        expertise and attitude importance. In A.R. Pratkanis, S.J. 
        Breckler, & A.G. Greenwald (Eds.), Attitude Structure and 
        Function. Hillsdale, NJ: Erlbaum.

Krosnick, J.A. (1989). Attitude importance and attitude accessibility. 
        Personality and Social Psychology Bulletin, 15, 297-308.

Krosnick, J.A. (1989). Question wording and reports of survey results: 
        The case of Louis Harris and Aetna Life and Casualty. Public 
        Opinion Quarterly, 53, 107-113.

    Reprinted in Bulmer, H. (Ed.), Questions. Thousand Oaks, CA: Sage 
        Publications.

Krosnick, J.A., & Alwin, D.F. (1989). Aging and susceptibility to 
        attitude change. Journal of Personality and Social Psychology, 
        57, 416-425.

Krosnick, J.A. (1990). Government policy and citizen passion: A study 
        of issue publics in contemporary America. Political Behavior, 
        12, 59-92.

Krosnick, J.A. (1990). Expertise in political psychology. Social 
        Cognition, 8, 1-8. (also in J. Krosnick (Ed.), Thinking about 
        politics: Comparisons of experts and novices. New York: 
        Guilford, 1990, pp. 1-8).

Krosnick, J.A. (1990). Lessons learned: A review and integration of our 
        findings. Social Cognition, 8, 154-158. (also in J. Krosnick 
        (Ed.), Thinking about politics: Comparisons of experts and 
        novices. New York: Guilford, 1990, pp. 154-158).

Krosnick, J.A., Li, F., & Lehman, D. (1990). Conversational 
        conventions, order of information acquisition, and the effect 
        of base rates and individuating information on social 
        judgments. Journal of Personality and Social Psychology, 59, 
        1140-1152.

Krosnick, J.A., & Milburn, M.A. (1990). Psychological determinants of 
        political opinionation. Social Cognition, 8, 49-72. (also in J. 
        Krosnick (Ed.), Thinking about politics: Comparisons of experts 
        and novices. New York: Guilford, 1990, pp. 49-72).

Krosnick, J.A., & Sedikides, C. (1990). Self-monitoring and self-
        protective biases in the use of consensus information to 
        predict one's own behavior. Journal of Personality and Social 
        Psychology, 58, 718-728.

Krosnick, J.A., & Kinder, D.R. (1990). Altering the foundations of 
        support for the president through priming. American Political 
        Science Review, 84, 497-512.
    Reprinted in J.T. Jost and J. Sidanius (Eds.) (2004). Political 
        psychology: Key readings. New York, NY: Psychology Press.

Alwin, D.F., & Krosnick, J.A. (1991). Aging, cohorts, and the stability 
        of sociopolitical orientations over the life span. American 
        Journal of Sociology, 97, 169-195.

Alwin, D.F., & Krosnick, J.A. (1991). The reliability of survey 
        attitude measurement: The influence of question and respondent 
        attributes. Sociological Methods and Research, 20, 139-181.

Judd, C.M., Drake, R.A., Downing, J.W., & Krosnick, J.A. (1991). Some 
        dynamic properties of attitude structures: Context induced 
        response facilitation and polarization. Journal of Personality 
        and Social Psychology, 60, 193-202.

Krosnick, J.A. (1990). Americans' perceptions of presidential 
        candidates: A test of the projection hypothesis. Journal of 
        Social Issues, 46, 159-182.

Krosnick, J.A. (1991). Response strategies for coping with the 
        cognitive demands of attitude measures in surveys. Applied 
        Cognitive Psychology, 5, 213-236.

Krosnick, J.A. (1991). The stability of political preferences: 
        Comparisons of symbolic and non-symbolic attitudes. American 
        Journal of Political Science, 35, 547-576.

Krosnick, J.A. (1992). The impact of cognitive sophistication and 
        attitude importance on response order effects and question 
        order effects. In N. Schwarz and S. Sudman (Eds.), Order 
        effects in social and psychological research (pp. 203-218). New 
        York: Springer-Verlag.

Krosnick, J.A., & Abelson, R.P. (1992). The case for measuring attitude 
        strength in surveys. Pp. 177-203 in J. Tanur (Ed.), Questions 
        about questions: Inquiries into the cognitive bases of surveys. 
        New York: Russell Sage.

Krosnick, J.A., Betz, A.L., Jussim, L.J., & Lynn, A.R. (1992). 
        Subliminal conditioning of attitudes. Personality and Social 
        Psychology Bulletin, 18, 152-162.

Lehman, D.R., Krosnick, J.A., West, R.L., & Li, F. (1992). The focus of 
        judgment effect: A question wording effect due to hypothesis 
        confirmation bias. Personality and Social Psychology Bulletin, 
        18, 690-699.

Krosnick, J.A., & Berent, M.K. (1993). Comparisons of party 
        identification and policy preferences: The impact of survey 
        question format. American Journal of Political Science, 37, 
        941-964.

Krosnick, J.A., & Brannon, L.A. (1993). The impact of the Gulf War on 
        the ingredients of presidential evaluations: Multidimensional 
        effects of political involvement. American Political Science 
        Review, 87, 963-975.

Krosnick, J.A., & Brannon, L.A. (1993). The media and the foundations 
        of Presidential support: George Bush and the Persian Gulf 
        conflict. Journal of Social Issues, 49, 167-182.

Krosnick, J.A., Boninger, D.S., Chuang, Y.C., Berent, M.K., & Carnot, 
        C.G. (1993). Attitude strength: One construct or many related 
        constructs? Journal of Personality and Social Psychology, 65, 
        1132-1149.

Krosnick, J.A., Berent, M.K., & Boninger, D.S. (1994). Pockets of 
        responsibility in the American electorate: Findings of a 
        research program on attitude importance. Political 
        Communication, 11, 391-411.

Krosnick, J.A., & Smith, W.A. (1994). Attitude strength. In V.S. 
        Ramachandran (Ed.), Encyclopedia of human behavior. San Diego, 
        CA: Academic Press.

Ostrom, T.M., Bond, C., Krosnick, J.A., & Sedikides, C. (1994). 
        Attitude scales: How we measure the unmeasurable. In S. Shavitt 
        & T.C. Brock (Eds.), Persuasion: Psychological insights and 
        perspectives. Boston, MA: Allyn and Bacon.

Rahn, W.M., Krosnick, J.A., & Breuning, M. (1994). Rationalization and 
        derivation processes in survey studies of political candidate 
        evaluation. American Journal of Political Science, 38, 582-600.

Berent, M.K., & Krosnick, J.A. (1995). The relation between political 
        attitude importance and knowledge structure. In M. Lodge & K. 
        McGraw (Eds.), Political judgment: Structure and process. Ann 
        Arbor, MI: University of Michigan Press.

Boninger, D.S., Krosnick, J.A., & Berent, M.K. (1995). The origins of 
        attitude importance: Self-interest, social identification, and 
        value-relevance. Journal of Personality and Social Psychology, 
        68, 61-80.

Boninger, D.S., Krosnick, J.A., Berent, M.K., & Fabrigar, L.R. (1995). 
        The causes and consequences of attitude importance. In R.E. 
        Petty and J.A. Krosnick (Eds.), Attitude strength: Antecedents 
        and consequences. Hillsdale, NJ: Erlbaum.

Fabrigar, L.R., & Krosnick, J.A. (1995). Attitude importance and the 
        false consensus effect. Personality and Social Psychology 
        Bulletin, 21, 468-479.

Fabrigar, L.R., & Krosnick, J.A. (1995). Attitude measurement and 
        questionnaire design. In A.S.R. Manstead & M. Hewstone (Eds.), 
        Blackwell encyclopedia of social psychology. Oxford: Blackwell 
        Publishers.

Fabrigar, L.R., & Krosnick, J.A. (1995). Voting behavior. In A.S.R. 
        Manstead & M. Hewstone (Eds.), Blackwell encyclopedia of social 
        psychology. Oxford: Blackwell Publishers.

Krosnick, J.A., & Petty, R.E. (1995). Attitude strength: An overview. 
        In R.E. Petty and J.A. Krosnick (Eds.), Attitude strength: 
        Antecedents and consequences. Hillsdale, NJ: Erlbaum.

Krosnick, J.A., & Telhami, S. (1995). Public attitudes toward Israel: A 
        study of the attentive and issue publics. International Studies 
        Quarterly, 39, 535-554.
    Reprinted in Israel Affairs, vol. 2 (1995/1996).
    Reprinted in G. Sheffer (Ed.) (1997). U.S.-Israeli relations at the 
        crossroads (Israeli history, politics, and society). London: 
        Frank Cass & Co., Ltd.

Wegener, D.T., Downing, J., Krosnick, J.A., & Petty, R.E. (1995). 
        Measures and manipulations of strength-related properties of 
        attitudes: Current practice and future directions. In R.E. 
        Petty and J.A. Krosnick (Eds.), Attitude strength: Antecedents 
        and consequences. Hillsdale, NJ: Erlbaum.

Weisberg, H.F., Haynes, A.A., & Krosnick, J.A. (1995). Social group 
        polarization in 1992. In H.F. Weisberg (Ed.), Democracy's 
        feast: Elections in America. Chatham, NJ: Chatham House.

Krosnick, J.A., Narayan, S.S., & Smith, W.R. (1996). Satisficing in 
        surveys: Initial evidence. In M.T. Braverman & J.K. Slater 
        (Eds.), Advances in survey research (pp. 29-44). San Francisco: 
        Jossey-Bass.

Miller, J.M., & Krosnick, J.A. (1996). News media impact on the 
        ingredients of presidential evaluations: A program of research 
        on the priming hypothesis. In D. Mutz & P. Sniderman (Eds.), 
        Political persuasion and attitude change. Ann Arbor, MI: 
        University of Michigan Press.

Narayan, S., & Krosnick, J.A. (1996). Education moderates some response 
        effects in attitude measurement. Public Opinion Quarterly, 60, 
        58-88.

Visser, P.S., Krosnick, J.A., Marquette, J., & Curtin, M. (1996). Mail 
        surveys for election forecasting? An evaluation of the Columbus 
        Dispatch poll. Public Opinion Quarterly, 60, 181-227.

Krosnick, J.A., & Fabrigar, L.R. (1997). Designing rating scales for 
        effective measurement in surveys. In L. Lyberg, P. Biemer, M. 
        Collins, L. Decker, E. DeLeeuw, C. Dippo, N. Schwarz, and D. 
        Trewin (Eds.), Survey Measurement and Process Quality. New 
        York: Wiley-Interscience.

Miller, J.M., & Krosnick, J.A. (1997). The anatomy of news media 
        priming. In S. Iyengar and R. Reeves (Eds.), Do the media 
        govern? Politicians, voters, and reporters in America. Thousand 
        Oaks, CA: Sage.

Carson, R.T., Hanemann, W.M., Kopp, R.J., Krosnick, J.A., Mitchell, 
        R.C., Presser, S., Ruud, P.A., & Smith, V.K., with Conaway, M., 
        & Martin, K. (1997). Temporal reliability of estimates from 
        contingent valuation. Land Economics, 73, 151-163.

Carson, R.T., Hanemann, W.M., Kopp, R.J., Krosnick, J.A., Mitchell, 
        R.C., Presser, S., Ruud, P.A., & Smith, V.K., with Conaway, M., 
        & Martin, K. (1998). Referendum design and contingent 
        valuation: The NOAA panel's no-vote recommendation. Review of 
        Economics and Statistics, 80, 335-338.

Miller, J.M., & Krosnick, J.A. (1998). The impact of candidate name 
        order on election outcomes. Public Opinion Quarterly, 62, 291-
        330.

Visser, P.S., & Krosnick, J.A. (1998). The development of attitude 
        strength over the life cycle: Surge and decline. Journal of 
        Personality and Social Psychology, 75, 1388-1409.

Krosnick, J.A. (1999). Maximizing questionnaire quality. In J.P. 
        Robinson, P.R. Shaver, & L.S. Wrightsman (Eds.), Measures of 
        political attitudes. New York: Academic Press.

Krosnick, J.A. (1999). Survey research. Annual Review of Psychology, 
        50, 537-567.

Bassili, J.N., & Krosnick, J.A. (2000). Do strength-related attitude 
        properties determine susceptibility to response effects? New 
        evidence from response latency, attitude extremity, and 
        aggregate indices. Political Psychology, 21, 107-132.

Holbrook, A.L., Krosnick, J.A., Carson, R.T., & Mitchell, R.C. (2000). 
        Violating conversational conventions disrupts cognitive 
        processing of attitude questions. Journal of Experimental 
        Social Psychology, 36, 465-494.

Holbrook, A.L., Bizer, G.Y., & Krosnick, J.A. (2000). Political 
        behavior of the individual. In A.E. Kazdin (Ed.), Encyclopedia 
        of psychology. Washington, DC, and New York, NY: American 
        Psychological Association and Oxford University Press.

Krosnick, J.A., Holbrook, A.L., & Visser, P.S. (2000). The impact of 
        the Fall 1997 debate about global warming on American public 
        opinion. Public Understanding of Science, 9, 239-260.

Miller, J.M., & Krosnick, J.A. (2000). News media impact on the 
        ingredients of presidential evaluations: Politically 
        knowledgeable citizens are guided by a trusted source. American 
        Journal of Political Science, 44, 301-315.

Visser, P.S., Krosnick, J.A., & Lavrakas, P. (2000). Survey research. 
        In H.T. Reis & C.M. Judd (Eds.), Handbook of research methods 
        in social psychology. New York: Cambridge University Press.

Visser, P.S., Krosnick, J.A., Marquette, J., & Curtin, M. (2000). 
        Improving election forecasting: Allocation of undecided 
        respondents, identification of likely voters, and response 
        order effects. In P. Lavrakas & M. Traugott (Eds.), Election 
        polls, the news media, and democracy. New York, NY: Chatham 
        House.

Bizer, G.Y., & Krosnick, J.A. (2001). Exploring the structure of 
        strength-related attitude features: The relation between 
        attitude importance and attitude accessibility. Journal of 
        Personality and Social Psychology, 81, 566-586.

Holbrook, A.L., Krosnick, J.A., Visser, P.S., Gardner, W.L., & 
        Cacioppo, J.T. (2001). Attitudes toward presidential candidates 
        and political parties: Initial optimism, inertial first 
        impressions, and a focus on flaws. American Journal of 
        Political Science, 45, 930-950.

Krosnick, J.A. (2002). Is political psychology sufficiently 
        psychological? Distinguishing political psychology from 
        psychological political science. In J. Kuklinski (Ed.), 
        Thinking about political psychology. New York: Cambridge 
        University Press.

Krosnick, J.A. (2002). The challenges of political psychology: Lessons 
        to be learned from research on attitude perception. In J. 
        Kuklinski (Ed.), Thinking about political psychology. New York: 
        Cambridge University Press.

Krosnick, J.A. (2002). The causes of no-opinion responses to attitude 
        measures in surveys: They are rarely what they appear to be. In 
        R.M. Groves, D.A. Dillman, J.L. Eltinge, & R.J.A. Little 
        (Eds.), Survey nonresponse. New York: Wiley.

Krosnick, J.A., Holbrook, A.L., Berent, M.K., Carson, R.T., Hanemann, 
        W.M., Kopp, R.J., Mitchell, R.C., Presser, S., Ruud, P.A., 
        Smith, V.K., Moody, W.R., Green, M.C., & Conaway, M. (2002). 
        The impact of ``no opinion'' response options on data quality: 
        Non-attitude reduction or an invitation to satisfice? Public 
        Opinion Quarterly, 66, 371-403.

Krosnick, J.A., & McGraw, K.M. (2002). Psychological political science 
        vs. political psychology true to its name: A plea for balance. 
        In K.R. Monroe (Ed.), Political psychology. Mahwah, NJ: 
        Erlbaum.

Swait, J., Adamowicz, W., Hanemann, M., Diederich, A., Krosnick, J.A., 
        Layton, D., Provencher, W., Schakade, D., & Tourangeau, R. 
        (2002). Context dependence and aggregation in disaggregate 
        choice analysis. Marketing Letters, 13, 195-205.

Anand, S., & Krosnick, J.A. (2003). The impact of attitudes toward 
        foreign policy goals on public preferences among presidential 
        candidates: A study of issue publics and the attentive public 
        in the 2000 U.S. Presidential election. Presidential Studies 
        Quarterly, 33, 31-71.

Chang, L., & Krosnick, J.A. (2003). Measuring the frequency of regular 
        behaviors: Comparing the `typical week' to the `past week.' 
        Sociological Methodology, 33, 55-80.

Holbrook, A.L., Green, M.C., & Krosnick, J.A. (2003). Telephone vs. 
        face-to-face interviewing of national probability samples with 
        long questionnaires: Comparisons of respondent satisficing and 
        social desirability response bias. Public Opinion Quarterly, 
        67, 79-125.

Krosnick, J.A., Anand, S.N., & Hartl, S.P. (2003). Psychosocial 
        predictors of heavy television viewing among preadolescents and 
        adolescents. Basic and Applied Social Psychology, 25, 87-110.

Visser, P.S., Krosnick, J.A., & Simmons, J. (2003). Distinguishing the 
        cognitive and behavioral consequences of attitude importance 
        and certainty: A new approach to testing the common-factor 
        hypothesis. Journal of Experimental Social Psychology, 39, 118-
        141.

Bizer, G.Y., Krosnick, J.A., Holbrook, A.L., Wheeler, S.C., Rucker, 
        D.D., & Petty, R.E. (2004). The impact of personality on 
        cognitive, behavioral, and affective political processes: The 
        effects of need to evaluate. Journal of Personality, 72, 995-
        1028.

Bizer, G.Y., Visser, P.S., Berent, M.K., & Krosnick, J.A. (2004). 
        Importance, knowledge, and accessibility: Exploring the 
        dimensionality of strength-related attitude properties. In W.E. 
        Saris & P.M. Sniderman (Eds.), Studies in public opinion: 
        Gauging attitudes, nonattitudes, measurement error and change. 
        Princeton, NJ: Princeton University Press.

Krosnick, J.A., Miller, J.M., & Tichy, M.P. (2004). An unrecognized 
        need for ballot reform: Effects of candidate name order. In 
        A.N. Crigler, M.R. Just, and E.J. McCaffery (Eds.), Rethinking 
        the vote: The politics and prospects of American election 
        reform. New York, NY: Oxford University Press.

Miller, J.M., & Krosnick, J.A. (2004). Threat as a motivator of 
        political activism: A field experiment. Political Psychology, 
        25, 507-523.

Anand, S., & Krosnick, J.A. (2005). Demographic predictors of media use 
        among infants, toddlers, and preschoolers. American Behavioral 
        Scientist, 48, 539-561.

Holbrook, A.L., Berent, M.K., Krosnick, J.A., Visser, P.S., & Boninger, 
        D.S. (2005). Attitude importance and the accumulation of 
        attitude-relevant knowledge in memory. Journal of Personality 
        and Social Psychology, 88, 749-769.

Holbrook, A.L., & Krosnick, J.A. (2005). Meta-psychological vs. 
        operative measures of ambivalence: Differentiating the 
        consequences of perceived intra-psychic conflict and real 
        intra-psychic conflict. In S.C. Craig & M.D. Martinez (Eds.), 
        Ambivalence and the structure of public opinion. New York, NY: 
        Palgrave Macmillan.

Krosnick, J.A, Judd, C.M., & Wittenbrink, B. (2005). Attitude 
        measurement. In D. Albarracin, B.T. Johnson, & M.P. Zanna 
        (Eds.), Handbook of attitudes and attitude change. Mahwah, NJ: 
        Erlbaum.

Schaeffer, E.M., Krosnick, J.A., Langer, G.E., & Merkle, D.M. (2005). 
        Comparing the quality of data obtained by minimally balanced 
        and fully balanced attitude questions. Public Opinion 
        Quarterly, 69, 417-428.

Fabrigar, L.R., Krosnick, J.A., & MacDougall, B.L. (2006). Attitude 
        measurement: Techniques for measuring the unobservable. In M.C. 
        Green, S. Shavitt, & T.C. Brock (Eds.), Persuasion: 
        Psychological insights and perspectives. Thousand Oaks, CA: 
        Sage Publications.

Krosnick, J.A., Chang, L., Sherman, S.J., Chassin, L., & Presson, C. 
        (2006). The effects of beliefs about the health consequences of 
        cigarette smoking on smoking onset. Journal of Communication, 
        56, 518-537.

Krosnick, J.A., Holbrook, A.L., Lowe, L. & Visser, P.S. (2006). The 
        origins and consequences of democratic citizens' policy 
        agendas: A study of popular concern about global warming. 
        Climatic Change, 77, 7-43.

Krosnick, J.A., Holbrook, A.L., & Visser, P.S. (2006). Optimizing brief 
        assessments in research on the psychology of aging: A pragmatic 
        approach to survey and self-report measurement. In National 
        Research Council, When I'm 64. Committee on Aging Frontiers in 
        Social Psychology, Personality, and Adult Developmental 
        Psychology. Laura L. Carstensen and Christine R. Hartel, 
        editors. Board on Behavioral, Cognitive, and Sensory Sciences, 
        Division of Behavioral and Social Sciences and Education. 
        Washington, DC: The National Academies Press.

Visser, P.S., Bizer, G.Y., & Krosnick, J.A. (2006). Exploring the 
        latent structure of strength-related attitude attributes. In M. 
        Zanna (Ed.), Advances in Experimental Social Psychology. New 
        York, NY: Academic Press.

Cornell, D.G., Krosnick, J.A., & Chang, L. (2006). Student reactions to 
        being wrongly informed of failing a high-stakes test: The case 
        of the Minnesota Basic Standards Test. Educational Policy, 20, 
        718-751.

Holbrook, A.L., Krosnick, J.A., Moore, D., & Tourangeau, R. (2007). 
        Response order effects in dichotomous categorical questions 
        presented orally: The impact of question and respondent 
        attributes. Public Opinion Quarterly, 71, 325-348.

Malhotra, N., & Krosnick, J.A. (in press). The effect of survey mode on 
        inferences about political attitudes and behavior: Comparing 
        the 2000 and 2004 ANES to internet surveys with non-probability 
        samples. Political Analysis, 15, 286-323.

Malhotra, N., & Krosnick, J.A. (2007). Retrospective and prospective 
        performance assessments during the 2004 election campaign: 
        Tests of mediation and news media priming. Political Behavior, 
        29, 249-278.

Mahotra, N. & Krosnick, J.A. (2007). Procedures for updating 
        classification systems: A study of biotechnology and the 
        standard occupational classification system. Journal of 
        Official Statistics, 23, 409-432.

Schneider, D., Tahk, A., & Krosnick, J.A. (2007). Reconsidering the 
        impact of behavior prediction questions on illegal drug use: 
        The importance of using proper analytic methods in social 
        psychology. Social Influence, 2, 178-196.

Holbrook, A.L., Krosnick, J.A., & Pfent, A.M. (in press). Response 
        rates in surveys by the news media and government contractor 
        survey research firms. In J. Lepkowski, B. Harris-Kojetin, P.J. 
        Lavrakas, C. Tucker, E. de Leeuw, M. Link, M. Brick, L. Japec, 
        & R. Sangster (Eds.), Telephone survey methodology. New York: 
        Wiley.

Iyengar, S., Hahn, K.S., Krosnick, J.A., & Walker, J. (in press). 
        Selective exposure to campaign communication: The role of 
        anticipated agreement and issue public membership. Journal of 
        Politics.

Visser, P.S., Holbrook, A.L., & Krosnick, J.A. (in press). Knowledge 
        and attitudes. In W. Donsbach & M.W. Traugott (Eds.), Handbook 
        of public opinion research. Thousand Oaks, CA: Sage 
        Publications

Other Publications

Telhami, S., & Krosnick, J.A. (1989). American sentiment on Israeli-
        Palestinian fight: No favorites; Just make peace. Op-ed article 
        in The Los Angeles Times, March 14, 1989. (Reprinted in the 
        Columbus Dispatch, March 17, 1989)

Krosnick, J.A. (1990). The uses and abuses of public opinion polls: The 
        case of Louis Harris and Associates. Chronicles, 14, 47-49.

Krosnick, J.A. (1990). The impact of satisficing on survey data 
        quality. In Proceedings of the Bureau of the Census 1990 Annual 
        Research Conference (pp. 835-845). Washington, D.C.: U.S. 
        Government Printing Office.

Smith, W.R., Culpepper, I.J., & Krosnick, J.A. (1992). The impact of 
        question order on cognitive effort in survey responding. In 
        Proceedings of the Sixth National Conference on Undergraduate 
        Research. Minneapolis, MN: University of Minnesota Press.

Krosnick, J.A., & Hermann, M.G. (1993). Report on the 1991 Ohio State 
        University Summer Institute in Political Psychology. Political 
        Psychology, 14, 363-373.

Carson, R.T., Hanemann, W.M., Kopp, R.J., Krosnick, J.A., Mitchell, 
        R.C., Presser, S., Ruud, P.A., & Smith, V.K. (1994). 
        Prospective interim lost use value due to DDT and PCB 
        contamination in the Southern California Bight. La Jolla, CA: 
        Natural Resource Damage Assessment.

Carson, R.T., Conaway, M.B., Hanemann, W.M., Krosnick, J.A., Martin, 
        K.M., McCubbin, D.R., Mitchell, R.C., Presser, S. (1995). The 
        value of preventing oil spill injuries to natural resources 
        along California's central coast. La Jolla, CA: Natural 
        Resource Damage Assessment.

Krosnick, J.A., Visser, P.S., & Holbrook, A.L. (1998). American opinion 
        on global warming: The impact of the Fall 1997 debate. 
        Resources, 133, 5-9.

Krosnick, J.A. (2000). The threat of satisficing in surveys: The 
        shortcuts respondents take in answering questions. Survey 
        Methods Newsletter, 20, 4-8.

Krosnick, J.A. (2000). Americans are ready for the debacle to end. 
        Newsday, December 7, A63-A66.

Krosnick, J.A. (2001). The psychology of voting. The Psychology Place. 
        http://www.psychplace.com/editorials/krosnick/krosnick1.html

Green, M.C., & Krosnick, J.A. (2001). Comparing telephone and face-to-
        face interviewing in terms of data quality: The 1982 National 
        Election Studies Method Comparison Project. In D. O'Rourke 
        (Ed.), Health survey research methods. Hyattsville, Maryland: 
        Department of Health and Human Services. DHHS Publication No. 
        (PHS) 01-1013.

Silver, M.D., & Krosnick, J.A. (2001). Optimizing survey measurement 
        accuracy by matching question design to respondent memory 
        organization. In Federal Committee on Statistical Methodology 
        Research Conference, 2001. NTIS: PB2002-100103. http://
        www.fcsm.gov/01papers/Krosnick.pdf

Krosnick, J.A. (2003). Introduction. In G.R. Walden, Survey research 
        methodology, 1990-1999: An annotated bibliography. Westpoint, 
        Connecticut: Greenwood Press.

Krosnick, J.A. (2003). AAPOR in Nashville: The program for the 58th 
        annual conference. AAPOR News, 31, 1, 3.

Krosnick, J.A. (2003). Response rates, Huffington, and More: 
        Reflections on the 58th annual conference. AAPOR News, 31, 1, 
        4-5.

Krosnick, J.A. (2003). Proceedings of the fifty-eighth annual 
        conference of the American Association for Public Opinion 
        Research. Public Opinion Quarterly.

Fiorina, M., & Krosnick, J.A. (2004). The Economist/YouGov Internet 
        Presidential poll. http://www.economist.com/media/pdf/Paper.pdf

Krosnick, J.A. (2006). What pilots could tell us. Op-ed essay in The 
        New York Times, August 30, 2006.

Krosnick, J.A. (2006). Are we really safer in the skies today? Aviation 
        Law Prof Blog, September 5. http://lawprofessors.typepad.com/
        aviation/

Krosnick, J.A. (2006). In the voting booth, bias starts at the top. Op-
        ed in The New York Times, November 4, 2006.

Krosnick, J.A. (2006). In the voting booth, name order can sway an 
        election. Opinion essay in the ``Perspective'' section of The 
        San Jose Mercury News, November 26, 2006.

Book Reviews

Krosnick, J.A. (1987). Review of Political Cognition: The 19th Annual 
        Carnegie Symposium on Cognition, edited by R.R. Lau and D.O. 
        Sears. American Political Science Review, 81, 266-268.

Krosnick, J.A. (1988). Review of The Choice Questionnaire, by Peter 
        Neijens. Public Opinion Quarterly, 52, 408-411.

Krosnick, J.A. (1993). Review of Measurement Errors in Surveys, edited 
        by P.P. Biemer, R.M. Groves, L.E. Lyberg, N.A. Mathiowetz, & S. 
        Sudman. Public Opinion Quarterly, 57, 277-280.

Krosnick, J.A. (1994). A new introduction to survey methods: Review of 
        Questionnaire Design, Interviewing and Attitude Measurement, by 
        A.N. Oppenheim. Contemporary Psychology, 39, 221-222.

Krosnick, J.A. (1997). Review of Thinking About Answers: The 
        Application of Cognitive Processes to Survey Methodology, by S. 
        Sudman, N.M. Bradburn, and N. Schwarz, and Answering Questions: 
        Methodology for Determining Cognitive and Communicative 
        Processes in Survey Research, edited by N. Schwarz and S. 
        Sudman. Public Opinion Quarterly, 61, 664-667.

Krosnick, J.A. (1998). Review of What Americans Know about Politics and 
        Why It Matters, by M.X. Delli-Carpini and S. Keeter. The Annals 
        of the American Academy of Political and Social Science, 559, 
        189-191.

Presentations

Milburn, M.A., & Krosnick, J.A. (1979). Social psychology applied to 
        smoking and drug abuse prevention. Paper presented at the New 
        England Psychological Association Annual Meeting, Framingham, 
        Massachusetts.

Krosnick, J.A., McAlister, A.L., & Milburn, M.A. (1980). Research 
        design for evaluating a peer leadership intervention to prevent 
        adolescent substance abuse. Paper presented at the American 
        Psychological Association Annual Meeting, Montreal, Canada.

McAlister, A.L., Gordon, N.P., Krosnick, J.A., & Milburn, M.A. (1982). 
        Experimental and correlational tests of a theoretical model for 
        smoking prevention. Paper presented at the Society for 
        Behavioral Medicine Annual Meeting, Chicago, Illinois.

Kinder, D.R., Iyengar, S., Krosnick, J.A., & Peters, M.D. (1983). More 
        than meets the eye: The impact of television news on 
        evaluations of presidential performance. Paper presented at the 
        Midwest Political Science Association Annual Meeting, Chicago, 
        Illinois.

Krosnick, J.A. (1983). The relationship of attitude centrality to 
        attitude stability. Paper presented at the American 
        Sociological Association Annual Convention, Detroit, Michigan.

Alwin, D.F., & Krosnick, J.A. (1984). The measurement of values: A 
        comparison of ratings and rankings. Paper presented at the 
        American Association for Public Opinion Research Annual 
        Meeting, Delavan, Wisconsin.

Schuman, H., Ludwig, J., & Krosnick, J.A. (1984). Measuring the 
        salience and importance of public issues over time. Paper 
        presented at the American Association for Public Opinion 
        Research Annual Meeting, Delavan, Wisconsin.

Krosnick, J.A. (1984). Attitude extremity, stability, and self-report 
        accuracy: The effects of attitude centrality. Paper presented 
        at the American Association for Public Opinion Research Annual 
        Meeting, Delavan, Wisconsin.

Krosnick, J.A. (1984). The influence of consensus information on 
        predictions of one's own behavior. Paper presented at the 
        American Psychological Association Annual Meeting, Toronto, 
        Canada.

Krosnick, J.A., & Alwin, D.F. (1986). An evaluation of a cognitive 
        theory of response order effects in survey measurement. Paper 
        presented at the American Association for Public Opinion 
        Research Annual Meeting, St. Petersburg, Florida.

Krosnick, J.A. (1986). A new look at question order effects in surveys. 
        Paper presented at the Symposium on Cognitive Sciences and 
        Survey Research, Ann Arbor, Michigan.

Krosnick, J.A. (1987). The role of attitude importance in social 
        evaluation: A study of policy preferences, presidential 
        candidate evaluations, and voting behavior. Paper presented at 
        the Midwest Political Science Association Annual Meeting, 
        Chicago, Illinois.

Krosnick, J.A., Schuman, H., Carnot, C., Berent, M., & Boninger, D. 
        (1987). Attitude importance and attitude accessibility. Paper 
        presented at the Midwest Psychological Association Annual 
        Meeting, Chicago, Illinois.

Krosnick, J.A., & Sedikides, C. (1987). Self-monitoring and self-
        protective biases in use of consensus information to predict 
        one's own behavior. Paper presented at the Midwest 
        Psychological Association Annual Meeting, Chicago, Illinois.

Krosnick, J.A., Stephens, L., Jussim, L.J., & Lynn, A.R. (1987). 
        Sublimhinal priming of affect and its cognitive consequences. 
        Paper presented at the Midwest Psychological Association Annual 
        Meeting, Chicago, Illinois.

Krosnick, J.A., & Alwin, D.F. (1987). Satisficing: A strategy for 
        dealing with the demands of survey questions. Paper presented 
        at the American Association for Public Opinion Research Annual 
        Meeting, Hershey, Pennsylvania.

Judd, C.M., & Krosnick, J.A. (1987). The structural bases of 
        consistency among political attitudes: The effects of political 
        expertise and attitude importance. Paper presented at the 
        American Psychological Association Annual Meeting, New York, 
        New York.

Krosnick, J.A., & Milburn, M.A. (1987). Psychological determinants of 
        political opinionation. Paper presented at the American 
        Political Science Association Annual Meeting, Chicago, 
        Illinois.

Krosnick, J.A. (1987). The role of attitude importance in social 
        evaluation: A study of policy preferences, presidential 
        candidate evaluations, and voting behavior. Paper presented at 
        the Society for Experimental Social Psychology Annual Meeting, 
        Charlottesville, Virginia.

Krosnick, J.A. (1988). Psychological perspectives on political 
        candidate perception: A review of research on the projection 
        hypothesis. Paper presented at the Midwest Political Science 
        Association Annual Meeting, Chicago, Illinois.

Krosnick, J.A., Boninger, D.S., Berent, M.K., & Carnot, C.G. (1988). 
        The origins of attitude importance. Paper presented at the 
        Midwest Psychological Association Annual Meeting, Chicago, 
        Illinois.

Krosnick, J.A., Carnot, C.G., Berent, M.K., & Boninger, D.S. (1988). An 
        exploration of the relations among dimensions of attitude 
        strength. Paper presented at the Midwest Psychological 
        Association Annual Meeting, Chicago, Illinois.

Krosnick, J.A., Li, F., & Ashenhurst, J. (1988). Order of information 
        presentation and the effect of base-rates on social judgments. 
        Paper presented at the Midwest Psychological Association Annual 
        Meeting, Chicago, Illinois.

Krosnick, J.A., Berent, M.K., Carnot, C.G., & Boninger, D.S. (1988). 
        Attitude importance and recall of attitude relevant 
        information.Paper presented at the Midwest Psychological 
        Association Annual Meeting, Chicago, Illinois.

Krosnick, J.A., & Carnot, C.G. (1988). A comparison of two theories of 
        the origins of political attitude strength. Paper presented at 
        the Midwest Psychological Association Annual Meeting, Chicago, 
        Illinois.

Krosnick, J.A., & Alwin, D.F. (1988). The stability of political 
        attitudes across the life span. Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, 
        Toronto, Canada.

Krosnick, J.A., & Carnot, C.G. (1988). Identifying the foreign affairs 
        attentive public: A comparison of competing theories. Paper 
        presented to the Mershon Center Seminar on Foreign Policy 
        Decision Making, The Ohio State University, Columbus, Ohio.

Alwin, D.F., & Krosnick, J.A. (1988). The reliability of attitudinal 
        survey data. Paper presented at the International Conference on 
        Social Science Methodology, Dubrovnik, Yugoslavia.

Alwin, D.F., & Krosnick, J.A. (1988). Aging, cohort stability, and 
        change in socio-political attitudes: Exploring the 
        generational-persistence model. Paper presented at the 
        International Society of Political Psychology Annual Meeting, 
        Secaucus, New Jersey.

Krosnick, J.A., & Kinder, D.R. (1988). Altering the foundations of 
        popular support for the president through priming: Reagan, the 
        Iran-Contra affair, and the American public. Paper presented at 
        the American Political Science Association Annual Meeting, 
        Washington, D.C.

Krosnick, J.A., & Weisberg, H.F. (1988). Liberal/conservative 
        ideological structures in the mass public: A study of attitudes 
        toward politicians and social groups. Paper presented at the 
        American Political Science Association Annual Meeting, 
        Washington, D.C.

Krosnick, J.A. (1988). Government policy and citizen passion: A study 
        of issue publics in contemporary America. Paper presented at 
        the Shambaugh Conference on Communication, Cognition, Political 
        Judgment, and Affect, Iowa City, Iowa.

Berent, M.K., Krosnick, J.A., & Boninger, D.S. (1989). Attitude 
        importance and the valanced recall of relevant information. 
        Paper presented at the Midwest Psychological Association Annual 
        Meeting, Chicago, Illinois.

Betz, A., & Krosnick, J.A. (1989). Can people detect the affective tone 
        of subliminally presented stimuli? Paper presented at the 
        Midwest Psychological Association Annual Meeting, Chicago, 
        Illinois.

Krosnick, J.A., & Berent, M.K. (1989). Age-related changes in peer and 
        parental influence on heavy television viewing among children 
        and adolescents. Paper presented at the Midwest Psychological 
        Association Annual Meeting, Chicago, Illinois.

Alwin, D.F., & Krosnick, J.A. (1989). The reliability of attitudinal 
        survey data. Paper presented at the American Association for 
        Public Opinion Research Annual Meeting, St. Petersburg, 
        Florida.

Krosnick, J.A. (1989). The implications of social psychological 
        findings on compliance for recruiting survey respondents. Paper 
        presented at the American Association for Public Opinion 
        Research Annual Meeting, St. Petersburg, Florida.

Telhami, S., & Krosnick, J.A. (1989). Public attitudes and American 
        policy toward the Arab-Israeli conflict. Paper presented at the 
        International Society of Political Psychology Annual Meeting, 
        Israel.

Krosnick, J.A., & Alwin, D.F. (1989). Symbolic versus non-symbolic 
        political attitudes: Is there a distinction? Paper presented at 
        the American Political Science Association Annual Meeting, 
        Atlanta, Georgia.

Krosnick, J.A. (1989). The impact of cognitive sophistication and 
        attitude importance on response order effects and question 
        order effects. Paper presented at the conference entitled Order 
        effects in social and psychological research, Nags Head 
        Conference Center, Kill Devil Hills, North Carolina.

Krosnick, J.A. (1990). The impact of satisficing on survey data 
        quality. Paper presented at the Annual Research Conference of 
        the Bureau of the Census, U.S. Department of Commerce, 
        Washington, D.C.

Krosnick, J.A. (1990). New perspectives on survey questionnaire 
        construction: Lessons from the cognitive revolution. Invited 
        presentation at the 1990 Technical Conference of the United 
        States General Accounting Office, College Park, Maryland.

Krosnick, J.A. (1990). Americans' perceptions of presidential 
        candidates: A test of the projection hypothesis. Paper 
        presented at the Midwest Political Science Association Annual 
        Meeting, Chicago, Illinois.

Krosnick, J.A., & Berent, M.K. (1990). The impact of verbal labeling of 
        response alternatives and branching on attitude measurement 
        reliability in surveys. Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, 
        Lancaster, Pennsylvania.

Krosnick, J.A., & Alwin, D.F. (1990). The stability of political 
        preferences: Comparisons of symbolic and non-symbolic 
        attitudes. Paper presented at the International Society of 
        Political Psychology Annual Meeting, Washington, D.C.

Krosnick, J.A. (1990). Confounding of attitude objects with attitude 
        measurement techniques in studies of political attitude 
        stability. Paper presented at the Summer Institute in Survey 
        Research Techniques, University of Michigan.

Fabrigar, L.R., & Krosnick, J.A. (1991). The effect of question order 
        and attitude importance on the false consensus effect. Paper 
        presented at the Midwestern Psychological Association Annual 
        Meeting, Chicago, Illinois.

Berent, M.K., & Krosnick, J.A. (1991). Attitude measurement 
        reliability: The impact of verbal labeling of response 
        alternatives and branching. Paper presented at the Midwestern 
        Psychological Association Annual Meeting, Chicago, Illinois.

Lehman, D.R., Krosnick, J.A., West, R.L., & Li, F. (1991). The focus of 
        judgment effect: A question wording effect due to hypothesis 
        confirmation bias. Paper presented at the American Association 
        for Public Opinion Research Annual Meeting, Phoenix, Arizona.

Krosnick, J.A., Boninger, D.S., Chuang, Y.C., & Carnot, C.G. (1991). 
        Attitude strength: One construct or many related constructs? 
        Paper presented at the Nags Head Conference on Attitude 
        Strength, Nags Head, North Carolina.

Krosnick, J.A. (1991). Research on attitude importance: A summary and 
        integration. Paper presented at the Nags Head Conference on 
        Attitude Strength, Nags Head, North Carolina.

Krosnick, J.A., & Berent, M.K. (1991). Memory for political 
        information: The impact of attitude importance on selective 
        exposure, selective elaboration, and selective recall. Paper 
        presented at the Society for Experimental Social Psychology 
        Annual Meeting, Columbus, Ohio.

Krosnick, J.A., & Brannon, L.A. (1992). The impact of war on the 
        ingredients of presidential evaluations: George Bush and the 
        Gulf conflict. Paper presented at the Conference on the 
        Political Consequences of War, The Brookings Institution, 
        Washington, D.C.

Berent, M.K., & Krosnick, J.A. (1992). The relation between attitude 
        importance and knowledge structure. Paper presented at the 
        Midwest Political Science Association Annual Meeting, Chicago, 
        Illinois.

Smith, W.R., Culpepper, I.J., & Krosnick, J.A. (1992). The impact of 
        question order on cognitive effort in survey responding. Paper 
        presented at the Sixth National Conference on Undergraduate 
        Research, University of Minnesota, Minneapolis, Minnesota.

Krosnick, J.A., & Brannon, L.A. (1992). The impact of war on the 
        ingredients of presidential evaluations: George Bush and the 
        Gulf conflict. Paper presented at the American Association for 
        Public Opinion Research Annual Meeting, St. Petersburg, 
        Florida.

Narayan, S.S., & Krosnick, J.A. (1992). Response effects in surveys as 
        a function of cognitive sophistication. Paper presented at the 
        Midwestern Psychological Association Annual Meeting, Chicago, 
        Illinois.

Boninger, D.S., Krosnick, J.A., & Berent, M.K. (1992). Imagination, 
        perceived likelihood, and self-interest: A path toward attitude 
        importance. Paper presented at the Midwestern Psychological 
        Association Annual Meeting, Chicago, Illinois.

Culpepper, I.J., Smith, W., & Krosnick, J.A. (1992). The impact of 
        question order on satisficing in attitude surveys. Paper 
        presented at the Midwestern Psychological Association Annual 
        Meeting, Chicago, Illinois.

Berent, M.K., & Krosnick, J.A. (1992). Attitude importance, information 
        accessibility, and attitude-relevant judgments. Paper presented 
        at the Midwestern Psychological Association Annual Meeting, 
        Chicago, Illinois.

Krosnick, J.A., & Brannon, L.A. (1992). The impact of war on the 
        ingredients of presidential evaluations: George Bush and the 
        Gulf conflict. Paper presented at the International Society of 
        Political Psychology Annual Meeting, San Francisco, California.

Rahn, W.M., Krosnick, J.A., & Breuning, M. (1992). Rationalization and 
        derivation processes in political candidate evaluation. Paper 
        presented at the American Political Science Association Annual 
        Meeting, Chicago, Illinois.

Krosnick, J.A., & Brannon, L.A. (1992). Effects of knowledge, interest, 
        and exposure on news media priming effects: Surprising results 
        from multivariate analysis. Paper presented at the Society for 
        Experimental Social Psychology Annual Meeting, San Antonio, 
        Texas.

Berent, M.K., & Krosnick, J.A. (1993). Attitude importance and 
        selective exposure to attitude-relevant information. Paper 
        presented at the Midwestern Psychological Association Annual 
        Meeting, Chicago, Illinois.

Fabrigar, L.R., & Krosnick, J.A. (1993). The impact of personal and 
        national importance judgments on political attitudes and 
        behavior. Paper presented at the Midwestern Psychological 
        Association Annual Meeting, Chicago, Illinois.

Miller, J.M., & Krosnick, J.A. (1993). The effects of candidate ballot 
        order on election outcomes. Paper presented at the Midwestern 
        Psychological Association Annual Meeting, Chicago, Illinois.

Narayan, S.S., & Krosnick, J.A. (1993). Questionnaire and respondents 
        characteristics that cause satisficing in attitude surveys. 
        Paper presented at the Midwestern Psychological Association 
        Annual Meeting, Chicago, Illinois.

Narayan, S.S., & Krosnick, J.A. (1993). Response effects in surveys as 
        a function of cognitive sophistication. Paper presented at the 
        American Psychological Society Annual Meeting, Chicago, 
        Illinois.

Smith, W.R., & Krosnick, J.A. (1993). Need for cognition, prior 
        thought, and satisficing in attitude surveys. Paper presented 
        at the Midwestern Psychological Association Annual Meeting, 
        Chicago, Illinois.

Smith, W.R., & Krosnick, J.A. (1993). Cognitive and motivational 
        determinants of satisficing in surveys. Paper presented at the 
        American Psychological Society Annual Meeting, Chicago, 
        Illinois.

Berent, M.K., & Krosnick, J.A. (1994). Attitude importance and 
        selective exposure to attitude-relevant information. Paper 
        presented at the Midwest Political Science Association Annual 
        Meeting, Chicago, Illinois.

Fabrigar, L.R., & Krosnick, J.A. (1994). The impact of attitude 
        importance on consistency among attitudes. Paper presented at 
        the Midwestern Psychological Association Annual Meeting, 
        Chicago, Illinois.

Krosnick, J.A. (1994). Survey methods and survey results: Overturing 
        conventional wisdom. Paper presented to the American Marketing 
        Association, Columbus Chapter.

Krosnick, J.A., & Fabrigar, L.R. (1994). Attitude recall questions: Do 
        they work? Paper presented at the American Association for 
        Public Opinion Research Annual Meeting, Danvers, Massachusetts.

Miller, J.M., & Krosnick, J.A. (1994). Does accessibility mediate 
        agenda-setting and priming? Paper presented at the Midwestern 
        Psychological Association Annual Meeting, Chicago, Illinois.

Smith, W.R., & Krosnick, J.A. (1994). Sources of non-differentiation 
        and mental coin-flipping in surveys: Tests of satisficing 
        hypotheses. Paper presented at the American Association for 
        Public Opinion Research Annual Meeting, Danvers, Massachusetts.

Visser, P.S., & Krosnick, J.A. (1994). Mail surveys for election 
        forecasting? An evaluation of the Columbus Dispatch Poll. Paper 
        presented at the Midwestern Psychological Association Annual 
        Meeting, Chicago, Illinois.

Visser, P.S., Krosnick, J.A., & Curtin, M. (1994). Mail surveys for 
        election forecasting? Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, 
        Danvers, Massachusetts.

Krosnick, J.A., & Brannon, L.A. (1995). News media priming and the 1992 
        U.S. presidential election. Paper presented at the American 
        Political Science Association Annual Meeting, Chicago, 
        Illinois.

Krosnick, J.A., & Cornet, P.J. (1995). Attitude importance and attitude 
        change revisited: Shifts in attitude stability and measurement 
        reliability across a presidential election campaign. Paper 
        presented at the American Psychological Society Annual Meeting, 
        New York, New York.

Krosnick, J.A., & Fabrigar, L.R. (1995). Designing rating scales for 
        effective measurement in surveys. Invited address at the 
        International Conference on Survey Measurement and Process 
        Quality, Bristol, England.

Krosnick, J.A., Narayan, S.S., & Smith, W.R. (1995). The causes of 
        survey satisficing: Cognitive skills and motivational factors. 
        Paper presented at the Midwest Association for Public Opinion 
        Research, Chicago, Illinois.

Miller, J.M., Fabrigar, L.R., & Krosnick, J.A. (1995). Contrasting 
        attitude importance and collective issue importance: Attitude 
        properties and consequences. Paper presented at the Midwestern 
        Psychological Association Annual Meeting, Chicago, Illinois.

Miller, J.M., & Krosnick, J.A. (1995). Ballot order effects on election 
        outcomes. Paper presented at the Midwest Political Science 
        Association Annual Meeting, Chicago, Illinois.

Miller, J.M., & Krosnick, J.A. (1995). Mediators and moderators of news 
        media priming: It ain't accessibility, folks. Paper presented 
        at the International Society of Political Psychology Annual 
        Meeting, Washington, D.C.

Narayan, S.S., & Krosnick, J.A. (1995). Education moderates response 
        effects in surveys. Paper presented at the American Association 
        for Public Opinion Research Annual Meeting, Ft. Lauderdale, 
        Florida.

Smith, W.R., & Krosnick, J.A. (1995). Mental coin-flipping and non-
        differentiation in surveys: Tests of satisficing hypotheses. 
        Invited address at the Midwestern Psychological Association 
        Annual Meeting, Chicago, Illinois.

Visser, P.S., & Krosnick, J.A. (1995). The relation between age and 
        susceptibility to attitude change: A new approach to an old 
        question. Paper presented at the Midwestern Psychological 
        Association Annual Meeting, Chicago, Illinois.

Visser, P.S., & Krosnick, J.A. (1995). Mail surveys win again: Some 
        explanations for the superior accuracy of the Columbus Dispatch 
        poll. Paper presented at the American Association for Public 
        Opinion Research Annual Meeting, Ft. Lauderdale, Florida.

Ankerbrand, A.L., Krosnick, J.A., Cacioppo, J.T., & Visser, P.S. 
        (1996). Candidate assessments and evaluative space. Paper 
        presented at the Midwestern Psychological Association Annual 
        Meeting, Chicago, Illinois.

Bizer, G.Y., & Krosnick, J.A. (1996). Attitude accessibility and 
        importance revisited. Paper presented at the Midwestern 
        Psychological Association Annual Meeting, Chicago, Illinois.

Krosnick, J.A. (1996). Linking survey question structure to data 
        quality: The impact of no-opinion options. Paper presented at 
        the conference on ``Quality Criteria in Survey Research,'' 
        sponsored by the World Association for Public Opinion Research, 
        Cadenabbia, Italy.

Krosnick, J.A., & Brannon, L.A. (1996). News media priming during the 
        1992 U.S. presidential election campaign. Paper presented at 
        the International Society of Political Psychology Annual 
        Meeting, Vancouver, British Columbia.

Miller, J.M., Fabrigar, L.R., & Krosnick, J.A. (1996). The roles of 
        personal importance and national importance in motivating issue 
        public membership. Paper presented at the Midwest Political 
        Science Association Annual Meeting, Chicago, Illinois.

Miller, J.M., & Krosnick, J.A. (1996). Can issue public membership be 
        triggered by the threat of a policy change? Paper presented at 
        the International Society of Political Psychology Annual 
        Meeting, Vancouver, British Columbia.

Krosnick, J.A., & Visser, P.S. (1996). Changes in political attitude 
        strength through the life cycle. Paper presented at the Society 
        for Experimental Social Psychology Annual Meeting, Sturbridge, 
        Massachusetts.

Miller, J.M., & Krosnick, J.A. (1997). The impact of policy change 
        threat on issue public membership. Paper presented at the 
        Midwest Political Science Association Annual Meeting, Chicago, 
        Illinois.

Ankerbrand, A.L., Krosnick, J.A., Cacioppo, J.T., Visser, P.S., & 
        Gardner, W. (1997). Attitudes toward political candidates 
        predict voter turnout. Paper presented at the Midwestern 
        Psychological Association Annual Meeting, Chicago, Illinois.

Ankerbrand, A.L., & Krosnick, J.A. (1997). Response order effects in 
        dichotomous questions: A social desirability explanation. Paper 
        presented at the American Psychological Society Annual Meeting, 
        Washington, DC.

Krosnick, J.A. (1997). Miraculous accuracy in political surveys: The 
        keys to success. Presentation in the Federation of Behavioral, 
        Psychological, and Cognitive Sciences Seminar on Science and 
        Public Policy, Library of Congress, Washington, D.C.

Krosnick, J.A. (1997). Non-attitudes and no-opinion filters. Paper 
        presented at the Conference on no opinion, instability, and 
        change in public opinion research. University of Amsterdam, the 
        Netherlands.

Krosnick, J.A. (1997). Attitude strength. Paper presented at the 
        Conference on no opinion, instability, and change in public 
        opinion research. University of Amsterdam, the Netherlands.

Bizer, G.Y., & Krosnick, J.A. (1998). The relation between attitude 
        importance and attitude accessibility. Paper presented at the 
        Midwestern Psychological Association Annual Meeting, Chicago, 
        Illinois.

Holbrook, A., Krosnick, J.A., Carson, R.T., & Mitchell, R.C. (1998). 
        Violating conversational conventions disrupts cognitive 
        processing of survey questions. Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, St. 
        Louis, Missouri.

Krosnick, J.A. (1998). Applying stated preference methods to assessing 
        the value of public goods. Paper presented at the National 
        Oceanic and Atmospheric Administration Application of Stated 
        Preference Methods to Resource Compensation Workshop, 
        Washington, DC.

Krosnick, J.A. (1998). Implications of psychological research on 
        justice and compensation for handling of natural resource 
        damage cases. Paper presented at the National Oceanic and 
        Atmospheric Administration Application of Stated Preference 
        Methods to Resource Compensation Workshop, Washington, DC.

Krosnick, J.A. (1998). Acquiescence: How a standard practice in many 
        survey organizations compromises data quality. Paper presented 
        at the conference on ``Quality Criteria in Survey Research,'' 
        sponsored by the World Association for Public Opinion Research, 
        Cadenabbia, Italy.

Krosnick, J.A., Lacy, D., & Lowe, L. (1998). When is environmental 
        damage Americans' most important problem? A test of agenda-
        setting vs. the issue-attention cycle. Paper presented at the 
        International Society of Political Psychology Annual Meeting, 
        Montreal, Quebec, Canada.

Visser, P.S., Krosnick, J.A., Marquette, J., & Curtin, M. (1998). 
        Improving election forecasting: Allocation of undecided 
        respondents, identification of likely voters, and response 
        order effects. Paper presented at the American Association for 
        Public Opinion Research Annual Meeting, St. Louis, Missouri.

Krosnick, J.A. (1998). The impact of science on public opinion: How 
        people judge the national seriousness of global warming and 
        form policy preferences. Paper presented at the American 
        Political Science Association Annual Meeting, Boston, 
        Massachusetts.

Krosnick, J.A. (1998). Response choice order and attitude reports: New 
        evidence on conversational conventions and information 
        processing biases in voting and in election forecasting polls. 
        Paper presented at the Society of Experimental Social 
        Psychology Annual Meeting, Lexington, Kentucky.

Krosnick, J.A. (1998). The impact of the Fall 1997 debate about global 
        warming on American public opinion. Paper presented at 
        Resources for the Future, Washington, D.C.

Krosnick, J.A. (1998). What the American public believes about global 
        warming: Results of a national longitudinal survey study. Paper 
        presented at the Amoco Public and Government Affairs and 
        Government Relations Meeting, Woodruff, Wisconsin.

Krosnick, J.A. (1998). What the American public believes about global 
        warming: Results of a national longitudinal survey study. Paper 
        presented in the Second Annual Carnegie Lectures on Global 
        Environmental Change, Carnegie Museum of Natural History, 
        Pittsburgh, Pennsylvania.

Green, M.C., & Krosnick, J.A. (1999). Survey satisficing: Telephone 
        interviewing increases non-differentiation and no opinion 
        responses. Paper presented at the Midwestern Psychological 
        Association Annual Meeting, Chicago, Illinois.

Green, M.C., & Krosnick, J.A. (1999). Comparing telephone and face-to-
        face interviewing in terms of data quality: The 1982 National 
        Election Studies Method Comparison Project. Paper presented at 
        the Seventh Annual Conference on Health Survey Research 
        Methods, Williamsburg, Virginia.

Holbrook, A.L., Krosnick, J.A., Carson, R.T., & Mitchell, R.C. (1999). 
        Violating conversational conventions disrupts cognitive 
        processing of attitude questions. Paper presented at the 
        American Association for Public Opinion Research Annual 
        Meeting, St. Petersburg, Florida.

Krosnick, J.A. (1999). What happens when survey respondents don't try 
        very hard? The notion of survey satisficing. Paper presented at 
        the National Center for Social Research, London, United 
        Kingdom.

Krosnick, J.A. (1999). Satisficing: A single explanation for a wide 
        range of findings in the questionnaire design literature. Paper 
        presented at Linking the Path: A Conference for Analysts, 
        Researchers, and Consultants, sponsored by the Gallup 
        Organization, Lincoln, Nebraska.

Krosnick, J.A. (1999). Methodology for the NAOMS Survey. Presentation 
        at the Workshop on the Concept of the National Aviation 
        Operations Monitoring System (NAOMS), Sponsored by the National 
        Aeronautics and Space Administration, Alexandria, Virginia.

Krosnick, J.A. (1999). Refining measurement of public values for 
        policy-making: A test of contingent valuation procedures. Paper 
        presented at the American Political Science Association Annual 
        Meeting, Atlanta, Georgia.

Krosnick, J.A. (1999). The threat of satisficing in surveys: The 
        shortcuts respondents take in answering questions. Paper 
        presented at the National Center for Social Research Survey 
        Methods Seminar on Survey Data Quality, London, England.

Krosnick, J.A. (1999). Optimizing questionnaire design: How to maximise 
        data quality. Paper presented at the National Center for Social 
        Research Survey Methods Seminar on Survey Data Quality, London, 
        England.

Krosnick, J.A. (1999). The causes and consequences of no-opinion 
        responses in surveys. Paper presented at the International 
        Conference on Survey Nonresponse, Portland, Oregon.

Miller, J.M., & Krosnick, J.A. (1999). The impact of threats and 
        opportunities on political participation. Paper presented at 
        the Midwest Political Science Association Annual Meeting, 
        Chicago, Illinois.

O'Muircheartaigh, C., Krosnick, J.A., & Helic, A. (1999). Middle 
        alternatives, acquiescence, and the quality of questionnaire 
        data. Paper presented at the American Association for Public 
        Opinion Research Annual Meeting, St. Petersburg, Florida.

Bizer, G.Y., & Krosnick, J.A. (2000). The importance and accessibility 
        of attitudes: Helping explain the structure of strength-related 
        attitude attributes. Paper presented at the Midwestern 
        Psychological Association Annual Meeting, Chicago, Illinois.

Holbrook, A.L., Krosnick, J.A., Visser, P.S., Gardner, W.L., & 
        Cacioppo, J.T. (2000). The formation of attitudes toward 
        presidential candidates and political parties: An asymmetric 
        nonlinear process. Paper presented at the American 
        Psychological Society Annual Meeting, Miami, Florida.

Holbrook, A.L., Krosnick, J.A., Visser, P.S., Gardner, W.L., & 
        Cacioppo, J.T. (2000). The formation of attitudes toward 
        presidential candidates and political parties: An asymmetric, 
        nonlinear, interactive process. Paper presented at the American 
        Political Science Association Annual Meeting, Washington, D.C.

Krosnick, J.A. (2000). Peering into the future of thinking and 
        answering: A psychological perspective on internet survey 
        respondents. Paper presented at Survey Research: Past, Present, 
        and Internet, the 2000 Nebraska Symposium on Survey Research, 
        University of Nebraska, Lincoln, Nebraska.

Krosnick, J.A. (2000). The present and future of research on survey 
        non-responses: Reflections on Portland '99 and beyond. 
        Roundtable presentation at the American Association for Public 
        Opinion Research Annual Meeting, Portland, Oregon.

Holbrook, A.L., Krosnick, J.A., Moore, D.W., & Tourangeau, R. (2000). 
        Response order effects in Gallup surveys: Linguistic structure 
        and the impact of respondent ability, motivation, and task 
        difficulty. Paper presented at the American Association for 
        Public Opinion Research Annual Meeting, Portland, Oregon.

Miller, J.M., Krosnick, J.A., & Lowe, L. (2000). The impact of policy 
        change threat on financial contributions to interest groups. 
        Paper presented at an invited conference, Political 
        Participation: Building a Research Agenda, Center for the Study 
        of Democratic Politics, Princeton University, Princeton, New 
        Jersey.

Miller, J.M., & Krosnick, J.A. (2000). Attitude change outside the 
        laboratory: News media ``priming'' turns out not to be priming 
        after all. Paper presented at the Society of Experimental 
        Social Psychology Annual Meeting, Atlanta, Georgia.

Saris, W., & Krosnick, J.A. (2000). The damaging effect of acquiescence 
        response bias on answers to agree/disagree questions. Paper 
        presented at the American Association for Public Opinion 
        Research Annual Meeting, Portland, Oregon.

Visser, P.S., & Krosnick, J.A. (2000). Exploring the distinct 
        mechanisms through which strength-related attitude attributes 
        confer resistance to attitude change. Paper presented at the 
        Society for Personality and Social Psychology Annual Meeting, 
        Nashville, Tennessee.

Bizer, G.Y., & Krosnick, J.A. (2001). Need to evaluate and need for 
        cognition predict political attitudes and behavior. Paper 
        presented at the Midwestern Psychological Association, Chicago, 
        Illinois.

Krosnick, J.A. (2001). Who shapes public policy? Presentation made at 
        the Annual Conference of the Ohio Farm Bureau Federation, 
        Columbus, Ohio.

Krosnick, J.A., & Bizer, G.Y. (2001). Exploring the structure of 
        strength-related attitude features: The relation between 
        attitude importance and attitude accessibility. Paper presented 
        at the Society for Personality and Social Psychology Annual 
        Meeting, San Antonio, Texas.

Krosnick, J.A., Visser, P.S., & Holbrook, A.L. (2001). Real-time 
        attitude change outside the laboratory: The case of the 1997 
        national debate on global warming. Paper presented at the 
        Society for Personality and Social Psychology Annual Meeting, 
        San Antonio, Texas.

Krosnick, J.A., & Miller, J.M. (2001). An unrecognized need for ballot 
        reform: Effects of candidate name order. Paper presented at the 
        conference entitled Election Reform: 2000 and Beyond, sponsored 
        by the USC-Caltech Center for the Study of Law and Politics and 
        the Jesse M. Unruh Institute of Politics, University of 
        Southern California, Los Angeles, California.

Miller, J.M., & Krosnick, J.A. (2001). What motivates political 
        cognition and behavior? Paper presented at the Midwest 
        Political Science Association Annual Meeting, Chicago, 
        Illinois.

Green, M.C., Krosnick, J.A., & Holbrook, A.L. (2001). Experimental 
        comparisons of the quality of data obtained from face-to-face 
        and telephone surveys. Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, 
        Montreal, Canada.

Silver, M.D., & Krosnick, J.A. (2001). An experimental comparison of 
        the quality of data obtained in telephone and self-administered 
        mailed surveys with a listed sample. Paper presented at the 
        American Association for Public Opinion Research Annual 
        Meeting, Montreal, Canada.

Chang, L., & Krosnick, J.A. (2001). The representativeness of national 
        samples: Comparisons of an RDD telephone survey with matched 
        Internet surveys by Harris Interactive and Knowledge Networks. 
        Paper presented at the American Association for Public Opinion 
        Research Annual Meeting, Montreal, Canada.

Chang, L., & Krosnick, J.A. (2001). The accuracy of self-reports: 
        Comparisons of an RDD telephone survey with Internet Surveys by 
        Harris Interactive and Knowledge Networks. Paper presented at 
        the American Association for Public Opinion Research Annual 
        Meeting, Montreal, Canada.

O'Muircheartaigh, C., & Krosnick, J.A. (2001). A cross-national 
        comparison of middle alternatives, acquiescence, and the 
        quality of questionnaire data. Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, 
        Montreal, Canada.

Marquette, J., Green, J., & Krosnick, J.A. (2001). Experimental 
        analysis of the accuracy of pre-election vote choice reports. 
        Paper presented at the American Association for Public Opinion 
        Research Annual Meeting, Montreal, Canada.

Holbrook, A.L., Krosnick, J.A., Carson, R.T., & Mitchell, R.C. (2001). 
        Violating conversational conventions disrupts cognitive 
        processing of attitude questions. Paper presented at the 2001 
        Fifth Tri-Annual UC Berkeley Invitational Choice Symposium, 
        Pacific Grove, California.

Krosnick, J.A. (2001). Americans' perceptions of the health risks of 
        cigarette smoking: A new opportunity for public education. 
        Paper presented at the invited conference ``Survey Research on 
        Household Expectations and Preferences,'' Institute for Social 
        Research, University of Michigan, Ann Arbor, Michigan.

McCready, W., Skitka, L., & Krosnick, J.A. (2001). Using a web-enabled 
        national panel to conduct social psychological experiments. 
        Workshop presented at the Society of Experimental Social 
        Psychology Annual Meeting, Spokane, Washington.

Krosnick, J.A., Courser, M., Mulligan, K., & Chang, L. (2001). 
        Exploring the determinants of vote choices in the 2000 
        Presidential election: Longitudinal analyses to document 
        causality. Paper presented at the American Political Science 
        Association Annual Meeting, San Francisco, California.

Silver, M.D., & Krosnick, J.A. (2001). Optimizing survey measurement 
        accuracy by matching question design to respondent memory 
        organization. Paper presented at the Federal Committee on 
        Statistical Methodology Research Conference, Arlington, 
        Virginia.

Krosnick, J.A., Courser, M., Mulligan, K., & Chang, L. (2002). 
        Exploring the causes of vote choice in the 2000 Presidential 
        election: Longitudinal analyses to document the causal 
        determinants of candidate preferences. Paper presented at a 
        conference entitled ``Assessing the Vitality of Electoral 
        Democracy in the U.S.: The 2000 Election,'' The Mershon Center, 
        Ohio State University, Columbus, Ohio.

Miller, J.M., & Krosnick, J.A. (2002). Mediators and moderators of news 
        media agenda-setting. Paper presented at the Midwest Political 
        Science Association Annual Meeting, Chicago, Illinois.

Shaeffer, E.M., Krosnick, J.A., & Holbrook, A.L. (2002). Assessing the 
        efficacy of object rankings following ratings. Paper presented 
        at the Midwestern Psychological Association Annual Meeting, 
        Chicago, Illinois.

Lampron, S., Krosnick, J.A., Petty, R.E., & See, M. (2002). Self-
        interest, values, involvement, and susceptibility to attitude 
        change. Paper presented at the Midwestern Psychological 
        Association Annual Meeting, Chicago, Illinois.

Krosnick, J.A. (2002). Comments on Baruch Fischhoff's ``Environmental 
        Risk: What's Worth Knowing--and Saying?'' Paper presented at 
        the 2nd Annual Public Policy Symposium, ``Responding to 
        Contemporary Environmental Risks.'' Sponsored by the Ohio State 
        University Environmental Policy Initiative, Fischer College of 
        Business, Ohio State University, Columbus, Ohio.

Thomas, R.K., Uldall, B.R., & Krosnick, J.A. (2002). More is not 
        necessarily better: Effects of response categories on 
        measurement stability and validity. Paper presented at the 
        American Association for Public Opinion Research Annual 
        Meeting, St. Petersburg, Florida.

Uldall, B.R., Thomas, R.K., & Krosnick, J.A. (2002). Reliability and 
        validity of web-based surveys: Effects of response modality, 
        item format, and number of categories. Paper presented at the 
        American Association for Public Opinion Research Annual 
        Meeting, St. Petersburg, Florida.

Shook, N., Krosnick, J.A., & Thomas, R.K. (2002). Following the storm: 
        Public opinion changes and political reactions in surveys. 
        Paper presented at the American Association for Public Opinion 
        Research Annual Meeting, St. Petersburg, Florida.

Chang, L., & Krosnick, J.A. (2002). Comparing self-administered 
        computer surveys and auditory interviews: An experiment. Paper 
        presented at the American Association for Public Opinion 
        Research Annual Meeting, St. Petersburg, Florida.

Silver, M.D., & Krosnick, J.A. (2002). Optimizing survey measurement 
        accuracy by matching question design to respondent memory 
        organization. Paper presented at the American Association for 
        Public Opinion Research Annual Meeting, St. Petersburg, 
        Florida.

Krosnick, J.A., Visser, P.S., Holbrook, A.L., & Berent, M.K. (2002). 
        Challenging the common-factor model of strength-related 
        attitude attributes: Contrasting the antecedents and 
        consequences of attitude importance and attitude-relevant 
        knowledge. Paper presented at the General Meeting of the 
        European Association of Experimental Social Psychology, San 
        Sebastian, Spain.

Krosnick, J.A., Miller, J.M., & Tichy, M.P. (2002). An unrecognized 
        need for ballot reform: Effects of candidate name order. Paper 
        presented at the International Society for Political Psychology 
        Annual Meeting, Berlin, Germany.

Chang, L., & Krosnick, J.A. (2002). RDD telephone vs. Internet survey 
        methodology for studying American presidential elections: 
        Comparing sample representativeness and response quality. Paper 
        presented at the American Political Science Association Annual 
        Meeting, Boston, Massachusetts.

Bizer, G.Y., Krosnick, J.A., Holbrook, A.L., Petty, R.E., Rucker, D.D., 
        & Wheeler, S.C. (2002). The impact of personality on electoral 
        behavior and cognition: A study of need for cognition and need 
        to evaluate. Paper presented at the American Political Science 
        Association Annual Meeting, Boston, Massachusetts.

Krosnick, J.A., Visser, P.S., & Holbrook, A.L. (2002). Social 
        psychology under the microscope: Do classic experiments 
        replicate when participants are representative of the general 
        public rather than convenience samples of college students? 
        Paper presented at the Society of Experimental Social 
        Psychology Annual Meeting, Columbus, Ohio.

Visser, P.S., Krosnick, J.A., Simmons, J. (2002). Distinguishing the 
        cognitive and behavioral consequences of attitude importance 
        and certainty. Paper presented at the Society of Experimental 
        Social Psychology Annual Meeting, Columbus, Ohio.

Chang, L., & Krosnick, J.A. (2002). RDD telephone vs. Internet survey 
        methodology for studying American presidential elections: 
        Comparing sample representativeness and response quality. 
        Invited presentation at Westat, Rockville, Maryland.

Chang, L., & Krosnick, J.A. (2002). Comparing the quality of data 
        obtained from telephone and Internet surveys: Field and 
        laboratory experiments. Invited paper presented at the FCSM 
        Statistical Policy Seminar ``Challenges to the Federal 
        Statistical System in Fostering Access to Statistics.' 
        Bethesda, Maryland.

Lampron, S.F., Krosnick, J.A., Shaeffer, E., Petty, R.E., & See, M. 
        (2003). Different types of involvement moderate persuasion 
        (somewhat) differently: Contrasting outcome-based and value-
        based involvement. Paper presented at the Society for 
        Personality and Social Psychology Annual Meeting, Los Angeles, 
        California.

Visser, P.S., & Krosnick, J.A. (2003). Attitude strength: New insights 
        from a life-course development perspective. Paper presented at 
        the Society for Personality and Social Psychology Annual 
        Meeting, Los Angeles, California.

Krosnick, J.A. (2003). Basic methodological work for and in repeated 
        cross-sectional and longitudinal surveys: A few thoughts. Paper 
        presented at the National Science Foundation Workshop on 
        Repeated Cross-sectional and Longitudinal Surveys, Arlington, 
        Virginia.

Pfent, A.M., & Krosnick, J.A. (2003). Rationalization of presidential 
        candidate preferences. Paper presented at the Midwestern 
        Psychological Association Annual Meeting, Chicago, Illinois.

Holbrook, A.L., & Krosnick,, J.A. (2003). Meta-psychological and 
        operative measures of psychological constructs: The same or 
        different? Paper presented at the Midwestern Psychological 
        Association Annual Meeting, Chicago, Illinois.

Krosnick, J.A., Visser, P.S., & Holbrook, A.L. (2003). Social 
        psychology under the microscope: Do classic experiments 
        replicate when participants are representative of the general 
        public rather than convenience samples of college students? 
        Invited presentation at the Midwestern Psychological 
        Association Annual Meeting, Chicago, Illinois.

Saris, W.E., Krosnick, J.A., & Shaeffer, E.M. (2003). Comparing the 
        quality of agree/disagree and balanced forced choice questions 
        via an MTMM experiment. Paper presented at the Midwestern 
        Psychological Association Annual Meeting, Chicago, Illinois.

Anand, S., & Krosnick, J.A. (2003). Satisficing in attitude surveys: 
        The impact of cognitive skills and motivation on response 
        effects. Paper presented at the Midwestern Psychological 
        Association Annual Meeting, Chicago, Illinois.

Bizer, G.Y., Krosnick, J.A., Holbrook, A.L., Petty, R.E., Rucker, D.D., 
        & Wheeler, S.C. (2003). The impact of personality on political 
        beliefs, attitudes, and behavior: Need for cognition and need 
        to evaluate. Paper presented at the American Psychological 
        Society Annual Meeting, Atlanta, Georgia.

Holbrook, A.L., Pfent, A., & Krosnick J.A. (2003). Response rates in 
        recent surveys conducted by non-profits and commercial survey 
        agencies and the news media. Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, 
        Nashville, Tennessee.

Shaeffer, E.M., Langer, G.E., Merkle, D.M., & Krosnick, J.A. (2003). A 
        comparison of minimal balanced and fully balanced forced choice 
        items. Paper presented at the American Association for Public 
        Opinion Research Annual Meeting, Nashville, Tennessee.

Pfent, A., Krosnick, J.A., & Courser, M. (2003). Rationalization and 
        derivation processes in presidential elections: New evidence 
        about the determinants of citizens' vote choices. Paper 
        presented at the American Association for Public Opinion 
        Research Annual Meeting, Nashville, Tennessee.

Krosnick, J.A., Visser, P.S., & Holbrook, A.L. (2003). How to 
        conceptualize attitude strength and how to measure it in 
        surveys: Psychological perspectives. Paper presented at the 
        American Association for Public Opinion Research Annual 
        Meeting, Nashville, Tennessee.

Chang, L., & Krosnick, J.A. (2003). Comparing data quality in telephone 
        and internet surveys: Results of lab and field experiments. 
        Invited paper presented at the American Statistical Association 
        Annual Meetings, San Francisco, California.

Pfent, A., & Krosnick, J.A. (2003). Post-decisional dissonance 
        reduction by a new method: Rationalization of political 
        candidate choices illuminates the basic dynamics of decision-
        making. Paper presented at the Society of Experimental Social 
        Psychology Annual Meeting, Boston, Massachusetts.

Krosnick, J.A., & Fabrigar, L.R. (2003). ``Don't know'' and ``no 
        opinion'' responses: What they mean, why they occur, and how to 
        discourage them. Invited paper presented at the Basel Workshop 
        on Item Non-response and Data Quality in Large Social Surveys, 
        University of Basel, Basel, Switzerland.

Krosnick, J. A.(2003). Comments on theories of persuasion. Invited 
        discussant at the conference entitled ``Integrating Message 
        Effects and Behavior Change Theories in Cancer Prevention, 
        Treatment, and Care,'' Annenberg Public Policy Center, 
        Annenberg School for Communication, University of Pennsylvania, 
        Philadelphia, Pennsylvania.

Krosnick, J.A. (2003). Survey methodology--scientific basis. 
        Presentation at the National Aviation Operations Monitoring 
        Service Working Group Meeting #1, Seattle, Washington.

Krosnick, J.A. (2003). Survey methodology--NAOMS design decisions. 
        Presentation at the National Aviation Operations Monitoring 
        Service Working Group Meeting #1, Seattle, Washington.

Krosnick, J.A. (2004). Survey methodology--scientific basis. 
        Presentation at the National Transportation Safety Board, 
        Washington, DC.

Krosnick, J.A. (2004). Survey methodology--NAOMS design decisions. 
        Presentation at the National Transportation Safety Board, 
        Washington, DC.

Krosnick, J.A. (2004). Public uses of the news media. Presentation as a 
        part of the symposium ``Politics and the media,'' Social 
        Sciences Resource Center, Stanford Libraries, Stanford 
        University, Stanford, CA.

Krosnick, J.A. (2004). Peering into the minds of respondents: The 
        cognitive and social processes underlying answers to survey 
        questions. Invited keynote lecture at the International 
        Symposium in Honour of Paul Lazarsfeld, Katholieke Universiteit 
        Leuven (Belgium).

Krosnick, J.A., Shook, N., & Thomas, R.K. (2004). Public opinion change 
        in the aftermath of 9/11. Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, 
        Phoenix, Arizona.

Holbrook, A.L., & Krosnick, J.A. (2004). Vote over-reporting: A test of 
        the social desirability hypothesis. Paper presented at the 
        American Association for Public Opinion Research Annual 
        Meeting, Phoenix, Arizona.

Chang, L., & Krosnick, J.A. (2004). Assessing the accuracy of event 
        rate estimates from national surveys. Paper presented at the 
        American Association for Public Opinion Research Annual 
        Meeting, Phoenix, Arizona.

Shaeffer, E.M., Lampron, S.F., Krosnick, J.A., Tompson, T.N., Visser, 
        P.S., & Hanemann, W.M. (2004). A comparison of open vs. closed 
        survey questions for valuing environmental goods. Paper 
        presented at the American Association for Public Opinion 
        Research Annual Meeting, Phoenix, Arizona.

Holbrook, A.L., Berent, M.K., Krosnick, J.A., Visser, P.S., & Boninger, 
        D.S. (2004). Attitude importance and the accumulation of 
        attitude-relevant knowledge in memory. Paper presented at the 
        American Political Science Association Annual Meeting, Chicago, 
        Illinois.

Chang, L., & Krosnick, J.A. (2004). Measuring the frequency of regular 
        behaviors: Comparing the `typical week' to the `past week.' 
        Paper presented at the American Political Science Association 
        Annual Meeting, Chicago, Illinois.

Krosnick, J.A. (2004). What do Americans want government to do about 
        global warming? Evidence from national surveys. Invited 
        presentation at the ``Workshop on Global Warming: The 
        Psychology of Long Term Risk,'' Cooperative Institute for 
        Climate Science, Woodrow Wilson School of Public and 
        International Affairs, Princeton University, Princeton, New 
        Jersey.

Krosnick, J.A., & Malhotra, N. (2004). The causes of vote choice in the 
        2004 American Presidential Election: Insights from the 2004 
        YouGov surveys. Paper presented at the conference ``The 2004 
        American Presidential Election: Voter Decision-Making in a 
        Complex World,'' Stanford University, Stanford, California.

Krosnick, J.A., Visser, P.S., & Holbrook, A.L. (2004). The impact of 
        social psychological manipulations embedded in surveys on 
        special populations. Paper presented at the Pacific Chapter of 
        the American Association for Public Opinion Research Annual 
        Meeting, San Francisco, California.

Krosnick, J.A. (2005). The future of the American National Election 
        Studies. Roundtable: The political psychology of surveys. Paper 
        presented at the Midwestern Political Science Association 
        Annual Meeting, Chicago, Illinois.

Malhotra, N., & Krosnick, J.A. (2005). What motivated Americans' views 
        of the candidates and vote preferences across the 2004 
        presidential campaign? Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, Miami, 
        Florida.

Garland, P., Krosnick, J.A., & Clark, H.H. (2005). Does question 
        wording sometimes send unintended signals about expected 
        answers? Paper presented at the American Association for Public 
        Opinion Research Annual Meeting, Miami, Florida.

Callegaro, M., De Keulenaer, F., Krosnick, J.A., & Daves, R. (2005). 
        Interviewer effects in an RDD telephone pre-election poll in 
        Minneapolis 2001: An analysis of the effects of interviewer 
        race and gender. Paper presented at the American Association 
        for Public Opinion Research Annual Meeting, Miami, Florida.

Krosnick, J.A., & Rivers, D. (2005). Web survey methodologies: A 
        comparison of survey accuracy. Paper presented at the American 
        Association for Public Opinion Research Annual Meeting, Miami, 
        Florida.

Holbrook, A.L., & Krosnick, J.A. (2005). Vote over-reporting: Testing 
        the social desirability hypothesis in telephone and Internet 
        surveys. Paper presented at the American Association for Public 
        Opinion Research Annual Meeting, Miami, Florida.

Anand, S., Krosnick, J.A., Mulligan, K., Smith, W., Green, M., & Bizer, 
        G. (2005). Effects of respondent motivation and task difficulty 
        on nondifferentiation in ratings: A test of satisficing theory 
        predictions. Paper presented at the American Association for 
        Public Opinion Research Annual Meeting, Miami, Florida.

Rivers, D., & Krosnick, J.A. (2005). Comparing major survey firms in 
        terms of survey satisficing: Telephone and internet data 
        collection. Paper presented at the American Association for 
        Public Opinion Research Annual Meeting, Miami, Florida.

Krosnick, J.A. (2005). Thought piece on survey participation. Paper 
        presented at the conference entitled ``New Approaches to 
        Understanding Participation in Surveys,'' Belmont Conference 
        Center, Elkridge, Maryland.

Malhotra, N., & Krosnick, J.A. (2005). Pilot test of new procedures for 
        identifying new and emerging occupations and their places in 
        the SOC: A study of biotechnology. Paper presented at the U.S. 
        Bureau of Labor Statistics, Washington, DC.

Holbrook, A.L., & Krosnick, J.A. (2005). Do survey respondents 
        intentionally lie and claim that they voted when they did not? 
        New evidence using he list and randomized response techniques. 
        Paper presented at the American Political Science Association 
        Annual Meeting, Washington, DC.

Malhotra, N., & Krosnick, J.A. (2005). The determinants of vote choice 
        in the 2004 U.S. Presidential Election. Paper presented at the 
        American Political Science Association Annual Meeting, 
        Washington, DC.

Krosnick, J.A. (2005). Effects of survey data collection mode on 
        response quality: Implications for mixing modes in cross-
        national studies. Paper presented at the conference ``Mixed 
        Mode Data Collection in Comparative Social Surveys,'' City 
        University, London, United Kingdom.

Krosnick, J.A., & Malhotra, N. (2006). The impact of presidential job 
        performance assessments on vote choices in 2004. Paper 
        presented at the conference ``The Wartime Election of 2004,'' 
        Ohio State University, Columbus, Ohio.

Rabinowitz, J.L. & Krosnick, J.A. (2006). Investigating the 
        discriminant validity of symbolic racism. Paper presented at 
        the annual meeting of the Society for Personality and Social 
        Psychology, Palm Springs, California.

Krosnick, J.A. (2006). An evaluation framework: Total survey error in 
        research practice. Paper presented at the Survey Methods 
        Symposium sponsored by Central Market Research and Insights, 
        Microsoft, Redmond, Washington.

Krosnick, J.A. (2006). Data quality from phone vs. internet surveys. 
        Paper presented at the Survey Methods Symposium sponsored by 
        Central Market Research and Insights, Microsoft, Redmond, 
        Washington.

Krosnick, J.A. (2006). The distinguishing characteristics of frequent 
        survey participants. Paper presented at the annual meeting of 
        the Midwest Political Science Association, Chicago, Illinois.

Krosnick, J.A. (2006). An overview of the mission of the American 
        National Election Studies. Presentation at the annual meeting 
        of the Midwest Political Science Association, Chicago, 
        Illinois.

Krosnick, J.A. (2006). The use of the internet in valuation surveys. 
        Presentation at the workshop ``Morbidity and Mortality: How Do 
        We Value the Risk of Illness and Death?'', sponsored by the 
        U.S. Environmental Protection Agency, the National Center for 
        Environmental Research, and the National Council on Economic 
        Education, Washington, DC.

Krosnick, J.A. (2006). What the American public thinks about climate 
        change: Findings from a new Stanford/ABC/Time Magazine Survey. 
        Presentation at the ``California Climate Change Policy 
        Workshop,'' sponsored by the Woods Institute for the 
        Environment, California State Capital Building, Sacramento, 
        California.

Holbrook, A.L., & Krosnick, J.A. (2006). Vote over-reporting: A test of 
        the social desirability hypothesis. Paper presented at the 
        American Psychological Association Annual Meeting, New Orleans, 
        Louisiana.

Bannon, B., Krosnick, J.A., & Brannon, L. (2006). News media priming: 
        Derivation or rationalization? Paper presented at the American 
        Political Science Annual Meeting, Philadelphia, Pennsylvania.

Malhotra, N., Krosnick, J.S., & Thomas, R. (2006). The effect of polls 
        on political behavior. Paper presented at the American 
        Political Science Annual Meeting, Philadelphia, Pennsylvania.

Krosnick J.A. (2006). Doing social psychology that's relevant and 
        valued and valuable. Paper presented at the Society of 
        Experimental Social Psychology Annual Meeting, Philadelphia, 
        Pennsylvania.

Krosnick, J.A. (2006). Overview of the American National Election 
        Studies: Lessons learned about the causes of voter turnout and 
        candidate choice. Paper presented at the conference ``The 
        Psychology of Voting and Election Campaigns,'' Social Science 
        Research Institute, Duke University, Durham, North Carolina.

Krosnick, J.A. (2006). What Americans really think about climate 
        change. Presentation to the Stanford Women's Club of the East 
        Bay, Contra Costa County Library, Orinda, California.

Krosnick, J.A. (2006). The impact of survey mode and the merging of 
        face-to-face recruitment with Internet data collection. Paper 
        presented at the 2006 Federal Committee on Statistical 
        Methodology Statistical Policy Seminar, ``Keeping Current: What 
        We Know--What We Need to Learn.'' Washington, DC.

Krosnick, J.A. (2006). Comparisons of the accuracy of information 
        obtained by face-to-face, telephone, Internet, and paper and 
        pencil data collection. Paper presented at the Pacific Chapter 
        of the American Association for Public Opinion Research Annual 
        Meeting, San Francisco, California.

Bizer, G.Y., Krosnick, J.A., Holbrook, A.L., Wheeler, S.C., Rucker, 
        D.D., & Petty, R.E. (2007). The impact of personality on 
        political beliefs, attitudes, and behavior: Need for cognition 
        and need to evaluate. Paper presented at the Society for 
        Personality and Social Psychology Annual Meeting, Memphis, 
        Tennessee.

Sargent, M.J., Rabinowitz, J., Shull, A., & Krosnick, J.A. (2007). 
        Support for government efforts to promote racial equality: 
        Effects of antigroup affect and perceptions of value violation. 
        Paper presented at the Society for Personality and Social 
        Psychology Annual Meeting, Memphis, Tennessee.

Krosnick, J.A. (2007). Americans' beliefs about global climate change: 
        New national survey findings. Paper presented at the American 
        Association for the Advancement of Science Annual Meeting, San 
        Francisco, California.

Krosnick, J.A. (2007). Comparisons of survey modes and a new hybrid. 
        Paper presented at the American Association for the Advancement 
        of Science Annual Meeting, San Francisco, California.

Garland, P., & Krosnick, J.A. (2007). The impact of race on evaluations 
        of artistic products: Evidence of 'ownership' bias among 
        prejudiced whites. Paper presented at the National Conference 
        of Black Political Scientists, Burlingame, California.

Lupia, A., & Krosnick, J.A. (2007). Remaking the American National 
        Election Studies. Paper presented at the National Conference of 
        Black Political Scientists, Burlingame, California.

Krosnick, J.A. (2007). What Americans really think about climate 
        change: Attitude formation and change in response to a raging 
        scientific controversy. Presentation sponsored by the 
        California Research Bureau at the California State House, 
        Sacramento, California.

Harbridge, L., & Krosnick, J.A. (2007). Presidential approval and gas 
        prices: The Bush presidency in historical context. Paper 
        presented at the American Association for Public Opinion 
        Research annual meeting, Garden Grove, California.

Krosnick, J.A., & Smith, T. (2007). Proposing questionnaire design 
        experiments for the General Social Survey. Paper presented at 
        the American Association for Public Opinion Research annual 
        meeting, Garden Grove, California.

Cote, F., Tahk, A., & Krosnick, J.A. (2007). Comparing the validity of 
        public predictions of changes in the economy: RDD telephone 
        data vs. volunteer samples completing paper and pencil 
        questionnaires. Paper presented at the American Association for 
        Public Opinion Research annual meeting, Garden Grove, 
        California.

Schneider, D., Krosnick, J.A., & Ophir, E. (2007). Ballot order effects 
        in California from 1976 to 2006. Paper presented at the 
        American Association for Public Opinion Research annual 
        meeting, Garden Grove, California.

O'Muircheartaigh, C., Krosnick, J.A., & Dennis, J.M. (2007). Face-to-
        face recruitment of an Internet survey panel: Lessons from an 
        NSF-sponsored demonstration project. Paper presented at the 
        American Association for Public Opinion Research annual 
        meeting, Garden Grove, California.

Malhotra, N., & Krosnick, J.A. (2007). The effect of survey mode and 
        sampling on inferences about political attitudes and behavior: 
        Comparing the 2000 and 2004 ANES to Internet surveys with non-
        probability samples. Paper presented at the American 
        Association for Public Opinion Research annual meeting, Garden 
        Grove, California.

Krosnick, J.A., Malhotra, N., & Miller, L. (2007). Survey mode in the 
        21st Century: Probability vs. non-probability samples of a 
        nation's population. Paper presented at the conference entitled 
        ``Cyberinfrastructure and National Election Studies: The 
        Wivenhoe House Conference.'' University of Essex, Colchester, 
        UK.

Pasek, J., & Krosnick, J.A. (2007). Trends over time in America: 
        Probability/telephone vs. non-probability/internet. Paper 
        presented at the conference entitled ``Cyberinfrastructure and 
        National Election Studies: The Wivenhoe House Conference.'' 
        University of Essex, Colchester, UK.

Krosnick, J.A. (2007). Methods and results from the New Scientist 
        Survey on Climate Change Policy. Presentation at the National 
        Press Club, Washington, DC.

Krosnick, J.A. (2007). The ANES Recompetition and its Implications for 
        the GSS recompetition. Presentation at the American 
        Sociological Association annual meeting, New York, New York.

Harder, J., & Krosnick, J.A., (2007). Causes of voter turnout: A social 
        psychological perspective. Paper presented at the American 
        Psychological Association annual meeting, San Francisco, 
        California.

Schneider, D., Berent, M.K., Thomas, R., & Krosnick, J.A. (2007). 
        Measuring customer satisfaction and loyalty: Improving the 'net 
        promoter' score. Paper presented at the World Association for 
        Public Opinion Research annual meeting, Berlin, Germany.

Cobb, C., & Krosnick, J.A. (2007). The impact of postdoc appointments 
        on science and engineering career outcomes and job 
        satisfaction. Paper presented at the conference ``Using Human 
        Resource Data,'' Science Resources Statistics Workshop, 
        Washington, DC.

Off-Campus Academic Colloquia

1985--State University of New York at Stony Brook, Department of 
        Political Science; Princeton University, Department of 
        Sociology; Princeton University, Department of Politics; 
        University of California at Berkeley, Department of Sociology; 
        Yale University, Department of Sociology; Yale University, 
        Department of Political Science; Ohio State University, 
        Department of Psychology; University of Southern California, 
        Annenberg School for Communication.

1986--University of Michigan, Department of Sociology.

1987--Yale University, Department of Psychology; Yale University, 
        Department of Political Science; University of Michigan, 
        Department of Sociology.

1988--University of Minnesota, Department of Political Science.

1990--University of Florida, Department of Psychology; University of 
        Florida, Bureau of Economic and Business Research; Denison 
        University, Department of Psychology.

1991--University of Michigan, Summer Institute in Survey Research 
        Techniques.

1992--University of Michigan, Summer Institute in Survey Research 
        Techniques; University of Michigan, Department of 
        Communication.

1993--University of Wisconsin, Departments of Psychology, Sociology, 
        and Political Science; University of Michigan, Summer Institute 
        in Survey Research Techniques.

1994--Yale University, Department of Psychology; University of 
        Michigan, Research Center for Group Dynamics; Cornell 
        University, Peace Studies Center.

1995--University of Michigan, Summer Institute in Survey Research 
        Techniques; University of Minnesota, Department of Political 
        Science.

1996--University of Pennsylvania, Annenberg School for Communication; 
        University of Chicago, Center for Decision Research; Purdue 
        University, Department of Psychology.

1997--Stanford University, Department of Psychology; University of 
        California-Berkeley, Institute of Governmental Studies; 
        University of California-Berkeley, Institute of Personality and 
        Social Research; University of California-Irvine, Department of 
        Social Sciences; University of California-Los Angeles, 
        Institute for Social Science Research; University of 
        California-Santa Barbara, Department of Psychology; University 
        of California-Santa Cruz, Board of Psychology; Center for 
        Advanced Study in the Behavioral Sciences; London School of 
        Economics and Political Science, Methodology Institute.

1998--Arizona State University, Department of Psychology; London School 
        of Economics and Political Science, Methodology Institute; 
        University of Amsterdam, Department of Psychology; Carnegie 
        Mellon University, Center for the Integrated Study of the Human 
        Dimensions of Global Change, Department of Engineering and 
        Public Policy.

1999--University of Chicago, American Politics Workshop, Department of 
        Political Science; Indiana University, Departments of Political 
        Science and Psychology; University of Minnesota, Departments of 
        Political Science and Psychology.

2000--University of California, Los Angeles, Department of Political 
        Science; University of Southern California, Jesse M. Unruh 
        Institute of Politics; University of Michigan, Institute for 
        Social Research, Survey Research Center.

2001--The William and Flora Hewlett Foundation, Menlo Park, California; 
        London School of Economics and Political Science, Methodology 
        Institute; Resources for the Future, Washington, DC.

2002--University of Colorado-Boulder, Department of Psychology; 
        University of Florida-Gainesville, Department of Psychology; 
        Stanford University, Department of Communication; University of 
        Chicago, Harris School of Public Policy; Uppsala University 
        (Sweden), Department of Government; University of North 
        Carolina, Department of Political Science; University of 
        Chicago, Political Psychology Workshop, Departments of 
        Psychology and Political Science; Pitzer College, Department of 
        Political Science.

2003--University of Illinois at Chicago, College of Urban Planning and 
        Public Affairs; University of Illinois at Chicago, Survey 
        Research Laboratory; Stanford University, Social Psychology 
        Research Seminar (April); Stanford University, Social 
        Psychology Research Seminar (October); Stanford University, 
        Department of Psychology Colloquium Series.

2004--Harvard University, Research Workshop in American Politics, 
        Department of Government; Stanford University, Organizational 
        Behavior Seminar, Graduate School of Business; Stanford 
        University, Marketing Seminar, Graduate School of Business; 
        Stanford University, American Empirical Seminar, Stanford 
        Institute for the Quantitative Study of Society; University of 
        California, Davis, Distinguished Lecture Series, Departments of 
        Psychology and Political Science.

2005--The Rand Organization, Santa Monica, California.

2006--Harvard University, Department of Psychology; Duke University, 
        Social Science Research Institute; University of North 
        Carolina, Chapel Hill, Department of Political Science; 
        University of Florida, Department of Psychology; University of 
        Florida, Department of Political Science; University of 
        California, Santa Barbara, Department of Psychology.

2007--The Rand Organization, Santa Monica, California.

Consulting and Court Testimony

Socio-Environmental Studies Laboratory, National Institutes of Health, 
        Washington, D.C.

National Oceanic and Atmospheric Administration, Washington, D.C.

Environmental Protection Agency, Washington, D.C.

National Aeronautics and Space Administration (Robert Dodd and 
        Associates/The Battelle Memorial Institute), Mountain View, 
        California.

Center for Survey Methods Research, U.S. Bureau of the Census, 
        Washington, D.C.

Office of Survey Methods Research, U.S. Bureau of Labor Statistics, 
        Washington, D.C.

Leadership Analysis Group, U.S. Central Intelligence Agency, McLean, 
        Virginia.

United States Government Accountability Office, Washington, DC.

Centers for Disease Control and Prevention, Atlanta, Georgia.

National Cancer Institute, Rockville, Maryland.

Center for Human Resource Research, Ohio State University, Columbus, 
        Ohio.

Office of Lake County Prosecuting Attorney, Painesville, Ohio.

The Attorney General of the State of Ohio, Columbus, Ohio.

Centre for Comparative Social Surveys, City University, London, United 
        Kingdom.

Rand Corporation, Santa Monica, California.

Stanford University Alumni Association, Stanford, California.

SRI International, Arlington, Virginia.

The Attorney General of Oklahoma.

Office of Social Research, CBS Inc., New York, New York.

ABC News, New York, New York.

Home Box Office, New York, New York.

Google, Mountain View, California.

Pfizer, Inc., New York, New York.

American Civil Liberties Union of Northern California/Brad Seligman/
        Howard, Rice, Nemerovski, Canady, Falk, & Rabkin, San 
        Francisco/Berkeley, California.

Beau Townsend Ford Dealership, Dayton, Ohio.

United States Trotting Association, Columbus, Ohio.

Berlex Laboratories, Inc., Wayne, New Jersey.

YouGov, London, United Kingdom.

MJ Research, Waltham, Massachusetts.

Empire Blue Cross/Blue Shield, New York, New York.

Momentum Market Intelligence, Portland, Oregon.

Central Market Research and Insights, Microsoft, Redmond, Washington.

The Urban Institute, Washington, D.C.

Industrial Economics, Cambridge, Massachusetts.

Healthcare Research Systems, Columbus, Ohio.

Survey Research Center, University of Maryland, College Park, Maryland.

Center for Human Resource Research, Columbus, Ohio.

Washington State University, Pullman, Washington.

Turner Research, Jacksonville, Florida.

NuStats, Austin, Texas.

Kaiser Family Foundation, Menlo Park, California.

Achievement Associates, Darnestown, Maryland.

The Saguaro Seminar: Civic Engagement in America, Harvard University, 
        Cambridge, Massachusetts.

Donald McTigue, Esq., Columbus, Ohio.

Thompson Coburn LLP, St. Louis, Missouri.

Shook, Hardy, & Bacon LLP, Kansas City, Missouri.

Arnold and Porter LLP, New York, New York.

Bradley W. Hertz, Esq., Los Angeles, California.

Larson King LLP, Minneapolis, Minnesota.

Paul, Hastings, Janofsky, and Walker, LLP, San Francisco, California.

Carr, Korein, Tillery, LLP, Chicago, Illinois.

Milberg, Weiss, Bershad, Hynes, and Lerach, LLP, New York, New York.

Bourgault & Harding, Las Vegas, Nevada.

Aikin Gump Strauss Hauer & Feld, LLP, Washington, DC.

McManemin and Smith, PC, Dallas, Texas.

Zimmerman Reed, PLLP, Minneapolis, Minnesota.

Spolin Silverman, Cohen, and Bertlett LLP, Santa Monica, California.

Righetti Wynne P.C., San Francisco, California.

Blackwell Sanders Peper Martin LLP, Kansas City, Missouri.

Davis Wright Tremaine LLP, Seattle, Washington.

Storch Amini & Munves, P.C., New York, New York.

Twomey Law Office, Epsom, New Hampshire.

Righetti Law Firm, P.C., San Francisco, California.

Dostart Clapp Gordon & Coveney LLP, San Diego, California.

Wynne Law Firm, Greenbrae, California.

Lorens and Associates, San Diego, California.

Arias, Ozzello & Gignac, LLP, Los Angeles, California.

Keller Grover, LLP, San Francisco, California.

Law Offices of Kevin T. Barnes, Los Angeles, California.

Cohelan & Khoury, San Diego, California.

Law Offices of Joseph Antonelli, West Covina, California.

Short Courses on Questionnaire Design

Internal Revenue Service, Washington, DC.

United States General Accounting Office, Washington, DC.

Office of Management and Budget, The White House, Washington, DC.

United States Government Accountability Office, Washington, DC.

Science Resources Statistics Program, National Science Foundation, 
        Washington, DC.

National Opinion Research Center, Chicago, Illinois.

Survey Research Laboratory, University of Illinois at Chicago, Chicago, 
        Illinois.

Center for AIDS Prevention Studies, Department of Epidemiology and 
        Biostatistics, University of California, San Francisco, 
        California.

Monitor Company, Cambridge, Massachusetts.

American Association for Public Opinion Research Annual Meeting, St. 
        Louis, Missouri.

American Association for Public Opinion Research Annual Meeting, 
        Portland, Oregon.

American Association for Public Opinion Research Annual Meeting, Miami, 
        Florida.

New York Chapter of the American Association for Public Opinion 
        Research, New York, New York.

Office for National Statistics, London, United Kingdom.

Market Strategies, Southfield, Michigan.

Total Research Corporation, Princeton, New Jersey.

Pfizer, Inc., New York, New York.

Worldwide Market Intelligence Conference, IBM, Rye, New York.

American Society of Trial Consultants Annual Meeting, Williamsburg, 
        Virginia.

American Society of Trial Consultants Annual Meeting, Westminster, 
        Colorado.

American Society of Trial Consultants Annual Meeting, Memphis, 
        Tennessee.

American Marketing Association Advanced Research Techniques Forum, 
        Vail, Colorado.

Satisfaction Research Division, IBM, White Plains, New York.

American Marketing Association Marketing Effectiveness Online Seminar 
        Series.

Faculty of Education, University of Johannesburg, Johannesburg, South 
        Africa.

Odom Institute, University of North Carolina, Chapel Hill, North 
        Carolina.

Google, Mountain View, California.

Eric M. Mindich Encounters with Authors, Harvard University, Cambridge, 
        Massachusetts.

RTI International, Research Triangle Park, North Carolina.

BC Stats, Province of British Columbia Ministry of Labour and Citizens' 
        Services, Victoria, British Columbia, Canada.

Alphadetail, San Mateo, California.

    Chairman Gordon. Thank you, Doctor, and Captain McVenes, 
you are recognized.

  STATEMENT OF CAPTAIN TERRY L. MCVENES, EXECUTIVE AIR SAFETY 
      CHAIRMAN, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL

    Captain McVenes. Mr. Chairman, Mr. Hall, Members of the 
Committee, good afternoon, and thank you for the opportunity to 
outline the Air Line Pilots Association's views on aviation 
safety and the role that we play in protecting the traveling 
public.
    ALPA is the world's largest pilot union. We represent more 
than 60,000 pilots at 42 airlines in the United States and 
Canada. ALPA was founded in 1931, and for more than 76 years 
now ALPA has had a tremendous impact on improving aviation 
safety. Today ALPA continues to be the world's leading aviation 
safety advocate, protecting the safety interests of our 
passengers, our fellow crew members, and cargo around the 
world.
    Over the past 10 years the U.S. aviation industry has seen 
a 65 percent decrease in the accident rate, and as a result, 
the U.S. safety record is the envy of the rest of the world. 
Much of our success is due to the collaborative approach that 
has taken place among airline managements, labor, and the FAA 
in voluntary collection and analysis of de-identified safety-
related data. By analyzing recorded data that is obtained 
during routine flight operations and receiving written reports 
from the front-line employees in a confidential and non-
punitive environment, we can not only see what is happening out 
there but also why it is happening.
    Today these stand-alone programs at individual airlines are 
reaching their maturity, and that is a reflection of the 
dynamic nature of any data collection effort. It has to adapt 
to changes in the environment, and in this case, the changes in 
the aviation industry.
    As safety professionals continue to see value in these 
programs and work with them in more detail, it has become clear 
that even more can be learned by sharing safety information 
among various stakeholders in the industry. The FAA and the 
airline industry, including ALPA, continue to work together on 
developing a formalized process in which safety information can 
be accessed through secure networks under mutually-agreeable 
rules of engagement.
    ALPA has been working closely with the FAA, NASA, and the 
airlines to develop a process that will make the safety 
information available to decision-makers to help them in their 
efforts to manage risks. This process is also invaluable in the 
sharing of accident and incident prevention strategies across 
the entire industry.
    Again, though, I would point out that as time goes on, the 
industry continues to refine our processes for maximizing the 
safety benefits that the traveling public receives from 
collecting data while at the same time protecting those 
employees and the airlines that bring the data to the table in 
the first place.
    NASA, especially through the Aviation Safety Reporting 
System or ASRS, has always been an important player in aviation 
safety. Its human factors research in particular has provided 
great value to our industry. The NAOMS survey was part of the 
early effort to provide more information to help all of us 
improve aviation safety. And this first survey was a test of 
the process and methodology, and we understand that the data 
extracted from this survey were summarized, and those summaries 
were shared with government and industry.
    But as in any first test the data didn't correlate very 
well with data from other sources, possibly due to the mix of 
general aviation and airline operations. The aviation community 
had plans to further analyze those discrepancies and determine 
if the data was reliable, but the funding for NAOMS ran out, 
and that is when ALPA stepped in to help keep that project 
alive as part of our involvement with the Commercial Aviation 
Safety Team or CAST. And while we have been working with CAST 
to modify that survey, we did not receive any collected data 
from NASA.
    So what should we do with the data now? Well, there are 
several solutions that are available. We have heard some of 
them this afternoon. The one that makes a lot of sense is to 
provide NASA with the necessary resources so it can complete 
its peer review of the data, then analyze that data, while at 
the same time maintain the confidentiality and protective 
provisions that apply to voluntarily supplied safety 
information.
    Other solutions may also exist, but regardless of the 
solution, it is important to keep in mind that raw data 
distributed without appropriate analysis and scrutiny to ensure 
its validity can lead to unintended consequences. Incomplete or 
inaccurate conclusions can be reached if the collection method 
is flawed or if people looking at the data aren't familiar with 
aviation or the context of how that information was provided.
    No one knows and understands the data better than the 
stakeholders that provided the data in the first place. That is 
why it is so important that those stakeholders work closely 
with the analysts of the data, and this will ensure accurate 
and meaningful conclusions can be reached. Just as importantly, 
if raw data is simply dumped onto the general public without 
the quality controls I have mentioned, it would undermine the 
confidence that pilots and the airline community that had 
voluntarily and confidentially supplied data and other sources. 
We have to make sure that that confidentiality remains secure.
    Now, as an airline captain, one who represents the safety 
interests of 60,000 other airline pilots, I am concerned that 
this could very well erode the very programs that have driven 
the excellent safety record of airline travel that the public 
has come to rely on.
    Thank you, and again, for the opportunity to testify today, 
and I will be pleased to address any questions you may have.
    [The prepared statement of Captain McVenes follows:]
             Prepared Statement of Captain Terry L. McVenes
    Good afternoon and thank you for the opportunity to outline the Air 
Line Pilots Association's views on aviation safety and the role we play 
in protecting the traveling public. ALPA is the world's largest pilot 
union, representing more than 60,000 pilots who fly for 42 airlines in 
the U.S. and Canada. ALPA was founded in 1931, and for more than 76 
years, ALPA has had a tremendous impact on improving aviation safety. 
Today, ALPA continues to be the world's leading aviation safety 
advocate, protecting the safety interests of our passengers, fellow 
crew members, and cargo around the world.
    Over the past 10 years, the U.S. aviation industry has seen a 65 
percent decrease in the accident rate, and as a result, the U.S. safety 
record is the envy of the rest of the world. Much of our success is due 
to the collaborative approach that has taken place among airline 
managements, labor, and the FAA in the voluntary collection and 
analysis of de-identified safety related data. By analyzing recorded 
data obtained during routine flight operations and receiving written 
reports from the front line employees in a confidential and non-
punitive environment, we can not only see what is happening, but also 
why it is happening. Today, these stand-alone safety programs at 
individual airlines are reaching their maturity. That is a reflection 
of the dynamic nature of any data collection effort--it must adapt to 
changes in the environment; in this case, the changes in the aviation 
industry.
    As safety professionals continue to see value in these programs and 
work with them in more detail, it has become clear that even more can 
be learned by sharing safety information among the various stakeholders 
in the industry. The FAA and the airline industry, including ALPA, 
continue to work together on developing a formalized process in which 
safety information can be accessed through secure networks under 
mutually agreeable rules of engagement. ALPA has been working closely 
with the FAA, NASA, and the airlines to develop a process that will 
make this safety information available to decision-makers to help them 
in their efforts to manage risk. This process is also invaluable in the 
sharing of accident- and incident-prevention strategies across the 
industry. Again, though, I would point out that as time goes on, the 
industry continues to refine our processes for maximizing the safety 
benefits that the traveling public receives from collecting data while 
at the same time protecting those employees and airlines that bring the 
data to the table.
    NASA, especially through the Aviation Safety Reporting System 
(ASRS) program, has always been an important player in aviation safety. 
Its human factors research, in particular, has provided great value to 
our industry. The National Aviation Operations Monitoring Service 
(NAOMS) survey was part of the early effort to provide more information 
to help all of us improve aviation safety. This first survey was a test 
of the process and methodology. We understand that the data extracted 
from this survey were summarized and those summaries were shared with 
the government and industry. As in any first test, the data didn't 
correlate very well with data from other sources, possibly due to the 
mix of general aviation and airline operations. The aviation community 
had plans to further analyze those discrepancies and determine if the 
data were reliable, but funding for NAOMS ran out. That is when ALPA 
stepped in to help keep the project alive as a part of our involvement 
with the Commercial Aviation Safety Team (CAST). While we have been 
working with CAST to modify the survey, we did not receive any of the 
collected data from NASA.
    What should happen to the data now? Several solutions are 
available. One that makes a lot of sense is to provide NASA with the 
necessary resources so that it can complete a peer review of the data 
and then analyze the data, while at the same time maintain the 
confidentiality and protective provisions that apply to voluntarily 
supplied safety information. Other solutions may also exist.
    Regardless of the solution, it is important to keep in mind that 
raw data, distributed without appropriate analysis and scrutiny to 
ensure its validity, can lead to unintended consequences. Incomplete or 
inaccurate conclusions can be reached if the collection method is 
flawed or if people looking at the data aren't familiar with aviation 
or the context of how that information was provided. No one knows and 
understands the data better than the stakeholders that provide the data 
in the first place. That is why it is so important that those 
stakeholders work closely with the analysts of the data. This will 
ensure accurate and meaningful conclusions can be reached.
    Just as importantly, if raw data are simply distributed to the 
general public without the quality controls I've mentioned, it would 
undermine the confidence that pilots and the airline community have 
that voluntarily and confidentially supplied safety data will remain 
secure. As an airline captain, and one who represents the safety 
interests of 60,000 other airline pilots, I'm concerned that this could 
very well erode the very programs that have driven the excellent safety 
record of airline travel that the public has come to rely on.
    Thank you, again for the opportunity to testify today. I will be 
pleased to address any questions that you may have.

                     Biography for Terry L. McVenes
    Capt. Terry McVenes serves as the Executive Air Safety Chairman for 
the Air Line Pilots Association, International, representing ALPA 
pilots in airline safety and engineering matters arising within the 
industry. His responsibilities include oversight of more than 600 
safety representatives from 42 airlines in the United States and 
Canada, as well as budgetary and management supervision of more than 
200 projects within the ALPA safety structure.
    Capt. McVenes chairs the Steering and Oversight Committee for the 
ALPA International safety structure and is a former member of the 
Operations Committee and MMEL Working Group. He represents ALPA pilots 
on the FAA's Voluntary Aviation Safety Information Sharing Aviation 
Rule-making Committee and serves as its co-chairman. He has spoken at 
many international forums on a wide variety of aviation safety topics. 
He has also authored numerous articles on aviation safety, which have 
appeared in national and international publications.
    Prior to his current appointment, Capt. McVenes served as Executive 
Air Safety Vice Chairman, Chairman of the Central Air Safety Committee 
for U.S. Airways, and Chairman of the Aircraft Evaluation Committee. He 
coordinated the establishment of the Aviation Safety Action Program 
(ASAP) at U.S. Airways and served as a member of the FOQA Monitoring 
Team. He has participated in numerous accident and incident 
investigations and was a member of several line safety audit teams. 
Capt. McVenes also served as a member of the Airbus Integration Team 
and the Fuel Awareness and Conservation Team.
    Capt. McVenes began his airline career in 1978 with Rocky Mountain 
Airways in Denver, Colo., flying the DHC-6 (Twin Otter) and DHC-7 (Dash 
7) aircraft. In March 1985, he was hired by Pacific Southwest Airlines 
(PSA), which later merged into US Airways. He is rated on the DHC-7, 
BAe-146, FK-28, DC-9, MD-80, A-320, and B-737. He currently is a 
captain on the A320 for U.S. Airways and has more than 17,000 hours of 
flying time.
    Prior to his airline career, Capt. McVenes was employed as an 
engineer for the Boeing Company in Seattle, Wash. He holds a Bachelor 
of Science degree in aerospace engineering from the University of 
Colorado and the certificate of aviation safety management from the 
University of Southern California.

                               Discussion

                      NAOMS Survey and Methodology

    Chairman Gordon. Thank you, Captain McVenes.
    Dr. Krosnick, is it fair to summarize a portion of your 
testimony by saying that when the methodology and the program 
was set up, the NAOMS Program, that it was set up in a way that 
the confidentiality of the material would be protected?
    And if that was the case, and I think that, again, NASA 
certified that when they said that they set it up by saying, we 
have no means for--anyway--they assured us in their report that 
that would be the case. So how long should it take them to get 
that information to us?
    Dr. Krosnick. I would think less than a week to assure that 
any incidental open-ended responses in the file don't happen to 
mention an airport or an airline. And the Director mentioned 
the idea of eliminating fields in the data set. I would think 
the normal federal procedure would be to redact words rather 
than entire fields of data.
    Chairman Gordon. Well, I would hope that NASA would hear 
your testimony and that the end of the year is a worst-case 
scenario and next week is a best-case scenario.
    Also, Dr. Krosnick, the purpose of the NAOMS was to go 
beyond the event driven or so-called action response syndrome 
to aviation safety and develop a statistical, valid database 
for safety-related events for decision-makers. It was 
specifically designed to overcome the shortcomings of the 
voluntary anecdotal Aviation Safety Reporting System, which 
couldn't be used to tell anyone how often certain events 
occurred.
    Is that accurate?
    Dr. Krosnick. Yes. That is exactly right. That, the ASRS 
System relies on pilots to voluntarily choose to fill out a 
form and mail it in when they feel an event has occurred that 
merits that. And certainly plenty of forms are filled out and 
mailed in every year, but because it is voluntary, there is 
every reason to believe that many events that occur do not get 
reported through that system.
    So the purpose of NAOMS was to assure that with a 
representative sample of pilots who were interviewed every week 
of every year, that it would be possible to count up events in 
many categories that never get described in reports to ASRS.
    Chairman Gordon. And was it successful in doing so?
    Dr. Krosnick. Well, we can't quite answer that question, 
can we? What we know is that we designed--I should say the team 
designed with my help a superb methodology and implemented it 
with the approval of OMB, which is a pretty tough critic of 
survey methods in the Federal Government, and so we can believe 
in the method, but when the data come back, the next step is to 
analyze those data fully, write reports, have those reports 
peer reviewed, and proceed ahead with assessments of validity, 
which we would have loved to do if the funding hadn't been shut 
down early.
    Chairman Gordon. Well, it seems to me that this was an 
extraordinary high percentage of return. And you mentioned, 
what did you, was it 40,000 commercial pilots?
    Dr. Krosnick. Twenty-four thousand commercial pilots 
interviewed.
    Chairman Gordon. Right. I understand that, but how many are 
there in total?
    Dr. Krosnick. Oh, in the population?
    Chairman Gordon. Yes, sir.
    Dr. Krosnick. I will defer to Bob Dodd on that.
    Chairman Gordon. Or maybe Captain McVenes. Approximately 
what number of commercial pilots are there?
    Captain McVenes. There is probably roughly 100,000 
commercial pilots.
    Dr. Krosnick. That is the number that we worked with.
    Chairman Gordon. So, you know, it is, to me a fourth that 
responded voluntarily is an incredible number and should be----
    Dr. Krosnick. Well, if you don't mind, let us be careful 
about that.
    Chairman Gordon. Okay.
    Dr. Krosnick. It is actually not 24,000 pilots who were 
interviewed. It is 24,000 interviews were conducted. So we drew 
statistical samples of very small numbers of pilots to be 
interviewed each week.
    Chairman Gordon. How many would you say, how many different 
pilots would have been interviewed?
    Dr. Krosnick. About 8,000 a year.
    Chairman Gordon. Which is still an exceptionally large 
sampling.
    Dr. Krosnick. Yeah. Much bigger than most surveys. 
Absolutely.
    Chairman Gordon. And was it intended to be a continuing 
permanent database or just a short-term experiment?
    Dr. Krosnick. Well, the slide that I showed earlier that 
NASA displayed at all the public meetings that we did early on 
indicated that it was planned to be a permanent monitoring 
system.
    Chairman Gordon. Well, then I hope that we get it up and 
running. I think it--again, let me, once again state that the 
United States of America has the safest air transportation 
system in the world, and I think part of that reason as Mr. 
Hall said earlier, was because of the transparency, of 
continuing to try to do things better, better, better, better, 
and this is just one more effort to raise that extraordinarily 
high bar or I won't say raise it any higher but keep it there.
    I thank you, and Mr. Hall is recognized.

                 Survey Methodology and Confidentiality

    Mr. Hall of Texas. Thank you, Mr. Chairman. Captain 
McVenes, you said regardless of the solution it is important to 
keep in mind that raw data distributed without appropriate 
analysis and scrutiny to ensure its validity can lead to 
unintended consequences. Actually, sir, we have heard from 
several researchers that commercial and general aviation pilots 
were very receptive and even were very eager to share their 
experiences and views with NASA researchers in part because 
they were told that they would be anonymous and would be 
protected.
    So how confident are you that releasing the data with 
confidential information removed as described by Administrator 
Griffin will not hinder pilots from participating in future 
surveys?
    Captain McVenes. Well, the confidentiality piece is so very 
important.
    Mr. Hall of Texas. Very important.
    Captain McVenes. Because it is what makes that transparency 
happen. It makes people want to report knowing that that 
information is going to be used pro-actively in a safety-
related type of activity as opposed to some other activity of 
any sort of sensationalism or whatever it may be. So that is 
why it is very important to keep that flow of information 
coming, and the reason that we have been successful as an 
industry to get a lot of voluntary participation in these 
programs, whether it is the NAOMS survey or the individual 
programs that are going on at our airlines, is because that 
information is used pro-actively. It is not used in a punitive 
type of environment. It is used for safety purposes. And that 
is why that is so important.
    Mr. Hall of Texas. And Dr. Dodd, you and Dr. Krosnick were 
shaking your head indicating that you agree with his----
    Dr. Dodd. That is correct.
    Dr. Krosnick. Yeah. I think it is very important that 
respondent confidentiality----
    Mr. Hall of Texas. Yeah. It certainly makes sense.
    Dr. Krosnick.--never be compromised.
    Mr. Hall of Texas. Sure.
    Dr. Krosnick. And the good news is for everyone here that 
the survey data were collected in a way so that no one could 
identify the pilots. In other words, the data are in electronic 
files that do not have the identities of the pilots in them. 
And so there are 24,000 rows of numbers indicating the answers 
that they gave to statistical questions but not in any way 
indicating their name, phone number, or identity in any other 
way.
    So that is the good news.
    Mr. Hall of Texas. And I think the Chairman in his inquiry 
to you asked you in your testimony you state that NAOMS was 
always envisioned to continue operating, and whether or not 
this was planned to be continued at NASA or at another 
government agency like the FAA. How was it? Who did finish it 
that last year?
    Dr. Krosnick. Well, in the--all of the work on NAOMS to 
date has been done by NASA, and so my understanding is that 
there was a planned attempt at a hand-off of the methodology to 
ALPA. The plan as you have heard already from the Chairman was 
to switch from telephone interviewing, which we had determined 
to be the most reliable way to make these measurements, over to 
Internet data collection, where respondents could go to a 
website and answer questionnaires there.
    Unfortunately, a test of that methodology was carried out 
by NASA, and as I understand it was unfortunately quite a 
failure, that hardly any pilots participated in the Internet 
version of the survey. And I am not surprised by that, because 
our research methods literature suggests that respondents of 
this sort are far more likely to participate if the telephone 
call method is used.
    So my personal concern at the moment is the only plans I 
have heard for ALPA possibly to pick up this project are with 
this methodology which has already shown to be not feasible. 
But more importantly I guess I share perhaps the implication of 
what you are suggesting, and that is that I don't know that 
this is an operation that can work effectively outside of 
government. And I think it is particularly important to 
recognize, as I said in my comments, that NASA is really 
trusted by pilots, as I am sure Capt. McVenes will acknowledge, 
because the ASRS has been so successful in collecting very 
detailed information that is made public and that reveals a lot 
about the details of bad things that go on. We heard earlier a 
transcript of a pilot talking about falling asleep in the 
cockpit. That is a pretty scary story, and that is on the 
Internet for anyone to read.
    And so, you know, the possibility that that information 
being revealed to the public and its benefits seems clearly to 
outweigh the possibility that someone could get in trouble 
because NASA has successfully protected people from that. And I 
believe NASA has the trust and credibility with pilots to 
continue to do that.

                Why Didn't the FAA Continue the Project?

    Mr. Hall of Texas. Doctor, thank you. I will ask any of the 
three of you, do you all know why FAA didn't pick up the 
project? Why didn't they pick the project up?
    Dr. Dodd. Well, I don't think we originally planned for FAA 
to pick up the project, and what Dr. Krosnick was addressing is 
key to that issue, and that is NASA has a reputation among the 
pilot community of protecting their identity.
    The Aviation Safety Reporting System, which you have heard 
referenced a number of times today, is a program that has been 
in existence for 30 years. During that time not one pilot's 
confidentiality has been compromised. There has never been any 
reverse engineering where somebody has gone into the report and 
been able to identify who the reporter was, and because of that 
NASA was chosen to be the primary and best government agency to 
do this work because of that reputation.
    The FAA's mission is slightly different, and of course, the 
FAA is responsible for enforcement and certification of pilots. 
And because of that, pilots may be unwilling to voluntarily 
report issues that might result in them getting a slap on the 
hand, if you will, or what we call a certificate of action.
    So historically surveys run by the FAA among the pilot 
community don't have a very high response rate, which is one of 
the metrics that we use to evaluate how well we are doing with 
the survey.
    As an aside, with this particular survey that NAOMS, that 
NASA did with NAOMS, we had an 85 percent acceptance rate among 
the pilots contacted who agreed to do the survey. That is an 
exceptionally high response rate and gives us confidence that 
the pilots were willing to meaningfully engage in the process.
    Mr. Hall of Texas. Thank you. My time really has expired. I 
yield back any time I have or don't have.
    Chairman Gordon. Not much, Mr. Hall.
    The Space and Aeronautics Subcommittee Chairman, Mr. Udall, 
is represented or recognized.

                   Best Organization to Operate NAOMS

    Mr. Udall. Thank you, Mr. Chairman. Again, I want to thank 
the panel for your compelling and insightful testimony.
    Dr. Dodd, if I could focus on part of your testimony to 
start with, you stated, I want to get this right. I believe 
that NAOMS should be reinstituted and operated by an 
independent and unbiased organization. Should NAOMS be operated 
by NASA, some other organization? What would you recommend?
    Dr. Dodd. I think there is a number of suitable 
organizations, and it would depend on a number of issues. I 
think Dr. Krosnick's observation that this is inherently a 
government type of activity is absolutely correct. So I would 
not hazard to recommend what agencies might be appropriate. I 
think NASA at the working staff level did an outstanding job 
with this project, and they have the technical expertise to do 
that. So I certainly would have no objections from NASA 
continuing to do this work.
    So certainly that would be one agency that fits my 
definition.
    Mr. Udall. Do the other panelists care to comment on that 
question?
    Dr. Krosnick. Yeah. I agree, of course, that NASA is 
suitable as I have suggested already in my comments, and from 
the extensive learning I have benefited from about the airline 
operation and industry, it is hard for me to identify another 
organization from my many hours talking with pilots that the 
practitioners would have the same confidence in. To some degree 
there is specialization in these federal agencies, and the FAA 
is particularly good at collecting large electronic databases 
from machines.
    NASA's specialty in this area has been activities like ASRS 
where humans are reporting their experiences. So to some degree 
NAOMS fits very nicely under the NASA umbrella. And I agree 
with Dr. Dodd that NASA has done a wonderful job with this 
project and has earned the recognition that they deserve, I 
think, by that quality of work, and why not let them continue.
    Captain McVenes. And certainly from our perspective, you 
know, having NASA continue with the project is-- we certainly 
wouldn't object to. Our role in the whole thing was to keep it 
alive in whatever way we could. And to Mr. Hall's point as, you 
know, why FAA didn't take it over directly, kind of indirectly 
they were involved with it in the fact that their work with the 
commercial aviation safety team, as well as the rest of the 
industry, we were trying to utilize that group as a way to keep 
this thing going and involve all the stakeholders including the 
FAA on this.

                         Termination of Program

    Mr. Udall. If I might return to you, Captain for a second, 
final question, editorialize briefly, and my colleague, 
Congressman Lipinski asked a question in the earlier round, the 
first panel, what, why did NASA stop? What was underway here, 
and it is curious, but sitting that aside, I want to thank you, 
Captain, for your willingness to testify on such short notice 
in front of the Committee.
    Captain McVenes. My pleasure.
    Mr. Udall. And I was struck by one of your statements which 
read, NASA has always been an important player in aviation 
safety. It is human factors, research in particular, that 
provide a great value to our industry. At some committee 
hearings that I have chaired earlier this year we have heard 
numerous concerns raised about the cutbacks and the NASA human 
factors R&D programs in recent years, particularly in the 
applied areas.
    Have you heard these same concerns raised, and do you share 
them, and after the Captain is finished, if the other two 
panelists would care to comment, I would sure appreciate it.
    Captain McVenes. Yeah. We were concerned. I know we wrote 
several letters from our president to the various groups here 
in Washington to try to change the mind of those that 
controlled the purse strings over that, because we saw a great 
value in human factors research that was going on, especially 
as it applied to some of the automation, changes that were 
taking place in our aircraft, and so that is why we were very 
interested in trying to keep that alive as best we could.
    This is an important part of aviation, especially the 
future of aviation as we continue to evolve with new 
technologies, we understand what that human element is in the 
role of how we fly our airplanes. And NASA played a very big 
role in that in the past, and unfortunately, they are not doing 
it as much anymore as they--we feel they should be.
    Dr. Krosnick. I agree, and if you look at the slide that is 
still up on the screen, you will see that was an ambitious work 
plan for a great deal of research to be carried out over a long 
period of time, and the budget that was established for that 
work in the beginning was appropriately generous to cover the 
cost at an A-plus quality level.
    But that budget shrank regularly during the years and 
contracted for reasons we were not informed about, such that in 
the end there was not money available to pay for most of the 
work to be done. And it was that sort of choking off of the 
project that accounts for the incompletion of the work.
    And I think, you know, you are perhaps pointing to a larger 
issue at NASA about changing priorities and changing budgets in 
a way that Bob is actually even more informed about than I am.
    Dr. Dodd. The only additional----
    Mr. Udall. Mr. Chairman, if I might use of Mr. Hall's 
remaining time for Dr. Dodd to comment.
    Dr. Dodd. Very quickly. The NASA human factors program, we 
saw it while we were involved with the NAOMS Project of year by 
year having funding removed from the program, and we saw it, 
and at the local level and saw that pain that it caused among 
the staff at NASA Ames.
    The other thing I want to point out is that aviation is an 
incredibly labor-intensive activity. I won't go through all the 
activities that are involved with it, but human factors is key. 
It is usually human error that is associated with most of our 
major problems, and we need to continue to fund that research 
and that focus on that because it is not going to go away.
    Mr. Udall. Thank you. Thank you, Mr. Chairman.
    Chairman Gordon. Sir, your time has expired, and now the 
Vice Chairman of the Science and Technology Committee, Mr. 
Lipinski, is recognized for five minutes.
    Mr. Lipinski. Thank you, Chairman Gordon. I want to thank 
all of our witnesses for their testimony today, especially 
Captain McVenes. As Mr. Udall said, I know you did this on 
short notice. We appreciate that.
    Dr. Krosnick, I am not sure if you remember 14 years ago, I 
think it was, I did the summer program, political psychology, 
at Ohio State University.
    Dr. Krosnick. That is why you look familiar. There we go.
    Mr. Lipinski. And so I have known you for, going back many 
years there, and I certainly have a great deal of respect for 
your work.
    I wanted to sort of keep going down the line of what I 
started on earlier with the first panel. I asked them to put 
the timeline up there. I ask you, Dr. Krosnick, because I think 
I--actually I heard this earlier. I was in my office listening 
to the testimony, and when I heard this, I decided I had to 
come and run back here to ask some questions.
    Where did the process stop in this timeline?
    Dr. Krosnick. I think Dr. Dodd is the best person to 
describe it.
    Mr. Lipinski. Okay.
    Dr. Dodd. We basically--2003, is when we really had the 
plug pulled on us. We--one of the things I should clarify is 
that NASA had a five-year program from a budgeting point of 
view for this project and many others, and so when you hear 
NASA saying that there was an end point for this particular 
project, it was because of a five-year budgeting exercise and 
that the project was not continued outside of that budget for 
the next cycle.
    It stopped in 2003, essentially, as far as continuing 
development. In 2002, we were getting ready for air traffic 
controllers. We did three focus groups with 15 air traffic 
controllers each, and we had about a year and a half 
development cycle planned for the development of the air 
traffic controller questionnaire. We briefed NASA. They were 
very receptive to the idea, and at that point is when we 
stopped ADC development, and it was because of the funding 
issues clearly were going to be cut back at that point. And so 
we dropped that out of the plan at that point. We didn't have 
the money for the development. We focused on continuing the 
pilot survey.
    Mr. Lipinski. That is even more information than I was 
aware of, but it fits perfectly into my question, and none of 
you, I believe, can answer this but I have questions that I 
asked Dr. Griffin, and I think he was mistaken about there not 
being--the program not being interrupted at a certain point, 
that it had, you know, gone its full course.
    Certainly there have been issues involving air traffic 
controllers and the FAA. That is a major issue, something that 
we have been dealing with, trying to get dealt with in the 
Transportation Committee. It is a big labor issue, and it seems 
to me that what Dr. Dodd just said seems to fit with possibly 
when it was time to actually go and do the survey of the air 
traffic controllers, that is where this stopped.
    And so I really would like to, Mr. Chairman, I think that 
is an important point to look at because what it comes down to 
is safety is the most important thing, and the whole purpose of 
this was for safety. It is $11 million, it is six years that 
was spent on it, but what can we do to improve safety.
    I am not going to say the sky is falling literally, but as 
you said, Mr. Chairman, it is just trying to make a safe system 
even safer, and I just want to leave out there the, you know, I 
don't know if anyone--if Dr. Dodd or anyone else has any other 
comments on that, but the possibility of there got to be a 
place where the FAA perhaps did not want to go with the survey 
of the air traffic controllers at that time, and that is where 
this stopped.
    Now, if anyone wants to add anything to that or we would 
just leave it there. So any witnesses want to add anything to 
that?
    Dr. Krosnick. I really can't comment because I didn't know 
what the FAA decision-making was on that or senior NASA 
management as far as funding decisions. I am sure that there 
were probably other issues as part of that process, and other 
than that I can't comment.
    Mr. Lipinski. Thank you. I will leave it at that, Mr. 
Chairman.
    Chairman Gordon. Thank you, Mr. Lipinski, and my thanks to 
our witnesses today for their time and expertise and Dr. 
Krosnick, I hope you will make yourself available and your 
expertise to NASA if they need you to help do this final, you 
know, cleaning if there is any need to be of this list.
    And if there is no objection, the record will remain open 
for additional statements from the Members and for answers to 
any follow-up questions the Committee may ask of the witnesses.
    Without objection, so ordered.
    [Whereupon, at 4:05 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, Administrator, National Aeronautics 
        and Space Administration (NASA)

Questions submitted by Chairman Bart Gordon

Q1.  Please provide a full discussion of the transfer of the NAOMS 
methodology to the Air Line Pilots Association (ALPA), including 
revisions in the questionnaire, ALPA's contribution to the cost of the 
transfer and revisions, and whether any peer review was conducted on 
either the original survey methodology or the revised methodology as 
transferred to ALPA. If the NAOMS methodology was not peer-reviewed, 
please describe what process was used to validate the methodology prior 
to transfer to ALPA.

A1. Transfer of the NAOMS Methodology to ALPA
    The NAOMS team adapted the computer-assisted, telephone interview 
process (original survey methodology) to a web-based, data collection 
mode (revised survey methodology) using commercial, off-the-shelf 
(COTS) software (ILLUME by DatStat Inc.). NASA conducted testing during 
the months of February and March 2006 to compare the web-based survey 
process with the original computer-assisted telephone survey process.
    The NAOMS team purchased a one-year license starting in December 
2006 from DatStat to apply ILLUME technology to a web-based survey that 
replicated the functionality of the original computer-assisted 
telephone survey. NASA transferred this license to ALPA in January 
2007.
    The NAOMS team provided training sessions for the ALPA team on the 
NAOMS web-based survey methodology.
    NASA has asked the National Academy of Sciences to assess the NAOMS 
survey methodology, and to the extent possible, to assess the potential 
utility of the survey responses.

Revisions in the Questionnaire

    There were revisions to the content of the questionnaire associated 
with adaptation for web-based surveys. Modifications were made to the 
computer-assisted telephone interface model to adapt the questions so 
they would capture the same data via the web-based interface model. In 
addition, some questions were modified to simplify the telephone survey 
questions for the web-based survey application.

ALPA's Contribution to the Cost of the Transfer

    ALPA is estimated to have contributed approximately one work-year 
equivalent to support the transfer of the web-based survey methodology.

Peer-Review of the NAOMS Methodology

    From 1998 to 2004, the NAOMS project team gave approximately 17 
PowerPoint briefings to various audiences, mainly government and 
industry personnel. (These briefings have been provided to the House 
Committee on Science and Technology at their request.) However, none of 
the research conducted in the NAOMS project has been peer-reviewed to 
date. PowerPoint briefings to stakeholders, while having some value, do 
not constitute peer review. Accordingly, no product of the NAOMS 
project, including the survey methodology, the survey data, and any 
analysis of those data, should be viewed or considered at this stage as 
having been validated.
    It should be noted that NASA's assertion that none of results from 
the NAOMS project can be considered validated does not mean that NASA 
is drawing conclusions about the validity of the survey data; we are 
simply stating that no such conclusions can be credibly drawn. That 
said, comparisons of some of the results reported in the briefings 
prepared by the NAOMS project team to event rates that are known with 
reasonable certainty, such as engine failures, have led NASA to 
conclude that there is reason to question the results presented by the 
NAOMS project team in their various briefings.
    In order to rectify this situation as best as possible, NASA has 
asked the National Academy of Sciences to assess the NAOMS survey 
methodology, and to the extent possible, to assess the potential 
utility of the survey responses.

Q2.  Please provide a breakout by fiscal year by recipient of the $11.3 
million you stated in your testimony was spent on the NAOMS project.

A2. Battelle was the prime contractor for the NAOMS project; $11.23 
million is the total full cost of the project. The costs break out by 
fiscal year as follows:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Question submitted by Representative Daniel Lipinski

Q1.  I have major concerns that it is going to be difficult to make 
improvements in the aviation industry if the agencies cannot work 
collaboratively and trust each other's work. Dr. Griffin, could you 
comment on your working relationship with the FAA?

A1. A solid collaborative working relationship between NASA and the 
Federal Aviation Administration (FAA) is critical to the successful 
outcome of the Nation's vision for the Next Generation Air 
Transportation System (NextGen). The working relationship between NASA 
and the FAA has traditionally been solid and continues to strengthen at 
all levels. As part of the Joint Planning and Development Office 
(JPDO), a multi-agency organization focused on developing the NextGen, 
the FAA and NASA have formed a strong partnership with a common goal of 
a greatly improved future air transportation system for the Nation. 
Both the NASA and FAA Administrators are members of a Senior Policy 
Committee (SPC) that oversees the work of the JPDO. Among its key 
activities, the Committee works to provide policy guidance, resolve 
major policy issues, and identify and align resource needs. The 
partnership to bring about NextGen encompasses not only safety research 
but also air traffic management and environmental research. 
Participation of both Administrators on the SPC demonstrates at the 
highest level within each agency a relationship that is committed to a 
future aviation system that is responsive to the mobility needs of the 
public.
    To further ensure that a strong working relationship between NASA 
and FAA is promoted at all levels, Dr. Lisa Porter, the NASA Associate 
Administrator for Aeronautics, meets regularly with senior management 
of the FAA to have open and frank discussions on matters the two 
agencies are jointly working. For example, during FY 2007, Dr. Porter 
and Mr. Nicholas Sabatini, the FAA Associate Administrator for Aviation 
Safety, held joint meetings to monitor the progress of technologies 
that were being developed by NASA and implemented by the FAA into what 
has become the Aviation Safety Information and Analysis Sharing (ASIAS) 
system. At the beginning of FY 2008, the ASIAS system successfully 
transitioned from NASA to the FAA and the aviation industry as a means 
to share a wide variety of safety data pertaining to the national air 
transportation system. Going forward, NASA continues to develop 
advanced methods and algorithms for analyzing multiple and varied 
sources of safety data in order to enable the ability to discover 
safety precursors before accidents occur. In addition, NASA will 
continue to work collaboratively with the FAA and industry to 
transition these new methods into the evolving NextGen.
    With regard to air traffic management research, NASA Aeronautics, 
the FAA Air Traffic Organization (ATO), and the JPDO are working 
collaboratively to establish a process to transfer technologies from 
fundamental research and development (R&D) into implementation for the 
NextGen. This process, which ensures research is sufficient and 
appropriate to enable NextGen, has top-level commitment from Dr. Porter 
and Ms. Victoria Cox, Vice President for Operations Planning Services, 
ATO. A coordinating committee that includes both FAA and NASA 
representatives oversees four research transition teams that are 
organized around the NextGen Concept of Operations framework. This 
framework connects the FAA's Operational Evolution Partnership elements 
with the NASA research. Teams are collaboratively working to plan near-
term R&D transition in areas such as surface management and long-term 
transition in areas such as dynamic airspace allocation.
    As NextGen evolves to handle the projected growth in the national 
air transportation system, environmental concerns, including the 
expected increase in noise and air pollution from a variety of 
emissions, pose a significant hurdle that must be overcome. The future 
aircraft fleet will need to include technology advancements that enable 
the growth in the air transportation system without additional impact 
on the environment. NASA and the FAA have a long history of 
collaborative work in this area. A variety of predictive tools 
developed at NASA have been incorporated into the FAA Environmental 
Management System and used to inform regulatory decisions. In addition, 
over the last year, the FAA and NASA have worked together on the 
development of the Goals and Objectives for the Energy & Environment 
portion of the National Plan for Aeronautics R&D. Both agencies 
continue to work closely to ensure that fundamental technology 
developed at NASA can be transitioned to the future fleet.
    Finally, NASA and the FAA actively participate in each other's 
advisory/review committees with representatives of each agency 
engaging, in an advisory role, in determining the strategic directions 
of the research of the other. For example, Dr. Porter serves on the 
FAA's Research and Development Advisory Committee (REDAC) which reviews 
and then advises the FAA senior management on the relevance and 
progress of their research and development activities. Further 
strengthening this collaboration across multiple technical areas and 
management levels, representatives from each of the three NASA Research 
Programs in Aeronautics serve as members on subcommittees to the FAA 
REDAC. In a similar fashion, and at the request of NASA, the FAA has 
provided representatives to participate on NASA review panels to assess 
the technical quality, performance, and relevance of NASA research 
programs. For two of the NASA programs, the designated leads of the 
review panels were FAA representatives. In addition, NASA researchers 
serve on various technical committees, such as the Radio Technical 
Commission for Aeronautics (RTCA) special committees that provide 
advice to the FAA on technical matters. NASA also makes use of FAA 
subject matter experts to help evaluate proposals received from 
universities and industry via the NASA Research Announcement process. 
These examples of interagency participation on advisory committees, and 
other joint activities across all levels, demonstrate a working 
relationship based on trust and respect for the talent and integrity 
between NASA and the FAA, particularly at the senior leadership level. 
Continued commitment to such a partnership is critical to the future 
success of NextGen.

Questions submitted by Representative Russ Carnahan

Q1.  Dr. Griffin, news reports have indicated that NASA Associate 
Administrator, Thomas S. Luedtke, said that revealing the findings 
could damage the public's confidence in airlines and affect airline 
profits. Do you believe that it is more important to keep the American 
people in the dark about the basic reality of where we are in terms of 
airline safety than to paint an honest portrait for our constituents?

A1. The Associated Press (AP) requested the survey results from this 
project through the Freedom of Information Act (FOIA). NASA made a 
determination not to release the survey results, using an exemption 
available under the FOIA. I stated earlier, both to the public and in 
Congressional testimony, that I do not agree with the way the FOIA 
exemption was explained and regret any impression that NASA was in any 
way putting commercial interests ahead of public safety. That was not, 
and never will be, the case.

Q2.  In Mr. Luedtke's final denial letter to the AP regarding its 
request for the survey results, he wrote that ``release of the 
requested data, which are sensitive and safety-related, could 
materially affect the public confidence in, and the commercial welfare 
of, the air carriers and general aviation companies whose pilots 
participated in the survey . . .'' This seems to indicate that the 
results portrayed a fairly dire assessment of air safety travel--was 
Mr. Luedtke going to worst case scenario or is this a legitimate 
doomsday scenario?

A2. Mr. Luedtke's determination to not release the survey results was 
neither. The determination had nothing to do with survey results, as no 
final report or conclusions had been made. Rather, Mr. Luedtke's letter 
articulated NASA's determination that the raw survey responses 
contained information protected by the Freedom of Information Act 
(FOIA) Exemption 4, which incorporates Trade Secrets Act protection for 
confidential commercial information. This exemption requires the 
protection of confidential commercial information that is voluntarily 
provided to the Agency and would not customarily be released to the 
public. Confidential commercial information is defined very broadly and 
includes company information: 1) relating to its business, including 
processes, operations and statistical data; 2) which is obtained from 
someone outside the government; and, 3) which is not generally released 
to the public.
    In response to the FOIA request from the AP, NASA cited concerns 
for ``public confidence'' and for the ``commercial welfare'' of air 
carriers as the supporting basis for the exemption cited in denying the 
request for the data. This sentence, though taken from case law, was a 
mistake, as NASA Administrator Griffin has made clear. The intent was 
better explained in the following sentences in the NASA response, which 
noted that the airlines and aviation industry may have a commercial 
interest in this data. It does not reflect any conclusions drawn from 
the data. NASA regrets any impression that the Agency was in any way 
trying to put commercial interests ahead of public safety. That was 
not, and never will be, the case.
                   Answers to Post-Hearing Questions
Responses by James E. Hall, Managing Partner, Hall and Associates, LLC; 
        Former Chairman, National Transportation Safety Board (NTSB)

Question submitted by Representative Daniel Lipinski

Q1.  The FAA has responded to the stories on NAOMS by pointing out how 
safe the skies have been in recent years. At the same time, congestion 
at airports has been growing, we have had several near-miss collisions 
at airports just this year, and the projections are that aviation 
traffic will keep growing. Are the safety systems in place today 
adequate to meet the emerging challenges in aviation?

A1. I am pleased that the question asked for comments on the adequacy 
of our nation's current safety structure to address rising challenges, 
particularly when many falsely believe that our past safety successes 
are sufficient to guarantee continued success in the future. In short, 
Rep. Lipinski, the answer to your question is no.
    The FAA is correct in pointing out that the skies have been safer 
in recent years. In the ten year period following the 1996 Gore 
Commission, the airline industry successfully reduced fatal accidents 
by 65 percent. It is certainly safer to fly today than it was ten years 
ago. However, there are two major reasons why this success, while 
laudable, should not lead us to conclude that all is well in the 
aviation industry.

1. Safety Requires Constant Vigilance

    The ten-year reduction in fatal accidents was the product of 
substantial changes--most of which were recommended by the Gore 
Commission--on the way the FAA, NTSB, DOT, airlines, and others handled 
safety and regulation. These changes occurred largely in response to 
two high-profile accidents and the general trends of rapid expansion in 
the industry, technological and aircraft design development, and large 
projected increases in passenger volume.
    In other words, while prior to 1996 we had an aviation safety 
framework--and though overall aviation safety had increased in the 
preceding 40 years--that framework was deemed no longer adequate to 
meet future challenges. The current safety of the skies that the FAA 
cites is therefore due to the historical commitment in our nation's 
safety culture to resist complacency and satisfaction with existing 
safety frameworks. This commitment to constant vigilance and 
improvement should continue to be reaffirmed.

2. Nine Fatal Accidents Per Year: The Next Generation of Risks

    Today there are dangerous trends in the aviation industry that 
could pose serious safety risks if we do in fact regress to 
complacency. As you note in your question, near-miss incidents are 
still a major concern and congestion and volume are soaring. Near-
misses are illustrative of the new challenges facing aviation safety. 
Because we have reduced the number of major mishaps and fatalities we 
must analyze such close-calls and nonfatal incidents in order to see if 
hidden dangers lurk beneath the surface of seemingly positive 
statistics. This is why the denial of the NAOMS data was so 
particularly distressing.
    Airport congestion and volume, for their part, are but some 
examples of what I call the ``Next Generation of Risks,'' which also 
includes a dramatic shortage of air traffic controllers, pilots, and 
technology upgrades. Perhaps the most significant statistic I can find 
in response to your question is that cited in the February 2007 GAO 
study (Federal Aviation Administration: Challenges Facing the Agency in 
Fiscal Year 2008 and Beyond, GAO-07-490T), which stated that:

         ``although the system remains extraordinarily safe, if the 
        current accident rate continues while air traffic potentially 
        triples in the next 20 years, this country would see nine fatal 
        commercial accidents each year, on average.''

    Nine fatal accidents and hundreds or thousands of deaths per year 
would not only represent an annual tragedy and dramatic reversal of 
historical safety trends, but would also severely affect the confidence 
of the flying public--ironically, the very reason NASA initially 
provided for withholding the NAOMS data.
    Clearly, we do not currently have the safety system necessary for 
the next generation of risks. The FAA estimates it will lose about 70 
percent of the air traffic controller workforce over the next 10 years. 
In 2009, airlines will have to fill 20,000 pilot openings due to 
retirements and other factors. Passenger volume is projected to reach 
one billion by 2015 and close to 2.3 billion by 2027. Numerous other 
potential dangers to aviation safety also exist, but perhaps the 
greatest threat is the idea that because we are safe now, there is no 
cause to worry or even think about future hazards. Nothing, in fact, 
could be more dangerous to the aviation traveling public.
    I applaud the Committee's past and recent attention to aviation 
safety and I urge the Members to continue to exercise their vital 
oversight role as a driving force behind safety improvement and reform. 
Chairman Gordon, thank you again for the opportunity to be of service 
to yourself, the Committee, and the Congress. Please do not hesitate to 
contact me if I may be of any further assistance.
                   Answers to Post-Hearing Questions
Responses by Robert S. Dodd, Safety Consultant and President, Dodd & 
        Associates, LLC

Questions submitted by Chairman Mark Udall

Q1.  In his testimony at the hearing, NASA Administrator Griffin 
compared the NAOMS project with the existing Aviation Safety Reporting 
System (ASRS), stating that ``One of the primary differences between 
ASRS and this survey was that ASRS is managed by aviation specialists. 
When a report is made, the aviation specialists can contact the 
submitter of the report and ask follow-up questions. They are 
knowledgeable about aviation safety. This (NAOMS) survey was conducted 
by telephone polling surveyors who have no knowledge or had no 
knowledge at all as to aviation or aviation safety. They had no domain 
expertise and it is precisely that which has led to some of the 
problems that we are discussing today.''

Q1a.  Do you agree or disagree with Administrator Griffin's 
characterization? Why?

A1a. I do not agree with the Administrator's characterization. There 
are two implicit assumptions in his statement that are in error. One 
relates to interviewer expertise and the other implies that NAOMS and 
ASRS are similar.
    First, the Administrator implied that having knowledgeable aviation 
interviewers is preferred because it allows the interviewer to conduct 
follow-up questions with the interview subject to capture additional 
information, or perhaps answer questions if the interview subject was 
confused about a particular question. While on the surface this may 
appear to be the preferred approach, it is in reality the wrong 
approach.
    It is vitally important in survey research that the questions be 
applied in the same way for each interview subject. This is a basic and 
fundamental characteristic of any quality survey. The way questions are 
asked matter and can influence how an interview subject responds. 
Consequently, questionnaires must be carefully designed AND 
interviewers trained to conduct the interview in the same way each and 
every time.
    NAOMS interviewers were not allowed to deviate in any way from the 
prepared questionnaire. The questions were designed to be clear. For 
the vast majority of questions, pilots were not confused and did not 
ask for clarification. For those few questions where pilots did ask for 
clarification, the NAOMS team prepared scripted responses in advance 
for the interviewers to use for the most common clarification 
questions. That was the only acceptable response if a pilot asked a 
question.
    NAOMS interviewers were professional interviewers who had extensive 
experience in conducting interviews. They were trained to conduct the 
NAOMS interview over three separate sessions lasting a total of 12 
hours. Each interviewer was then certified to conduct the interviews 
through simulated interviews with NAOMS aviation experts posing as 
pilots. As mentioned, their performance was also randomly monitored by 
their managers.
    NAOMS interviewers were not aviation experts and this was 
preferred. The NAOMS team did not want the interviewers to offer 
impromptu responses to pilots if they asked questions about the survey 
or a particular question. The goal was for each question to be asked 
the same way each time it was applied. Aviation knowledge was not 
required for this to occur. What was required was professional and 
disciplined interviewers experienced in conducting telephone 
interviews. NAOMS interviews were also randomly monitored so managers 
could ensure this basic tenet was being followed.
    The second assumption that appeared in the Administrator's 
statement is that NAOMS and ASRS are in some way compatible. The 
programs are similar in that they both collect data on aviation 
incidents from pilots but they are very different in their design and 
goals.
    The ASRS is a voluntary reporting system where the PILOT INITIATES 
the contact with NASA to report an incident they experienced. NAOMS is 
voluntary reporting system where the PILOT IS ASKED to voluntarily 
provide information on incidents he or she may have experienced. ASRS 
is designed to collect information on a SPECIFIC INCIDENT while NAOMS 
is designed to collect information on the frequency of occurrence of a 
BROAD RANGE OF INCIDENTS.
    ASRS data cannot be used to estimate the frequency of safety events 
in the National Airspace System (NAS) but ASRS reports are very useful 
in understanding why a particular event occurred. NAOMS on the other 
hand was designed to provide accurate estimates on how often events 
occurred and to measure changes in event rates over time but NAOMS was 
not designed to collect data on why events occurred. NAOMS was designed 
to provide a method for the ongoing systematic collection, analysis and 
interpretation of the frequency of incidents in the NAS for use in 
assisting the planning, implementation and evaluation of the Nation's 
air safety system.

Q1b.  If the NAOMS project ere to be restarted would there be any 
changes that you think should be made either to the methodology or 
implementation of the project?

A1b. The biggest issue that would need to be addressed would be the 
establishment of an advisory board and working group. The advisory 
board would address strategic issues such as funding, operating 
agreements among organizations and oversight of the program. The 
working group would provide guidance on survey methodology and 
application, data analysis, publications and recommendations to the 
aviation industry. Both of these organizations would need to support 
the program and believe in its value. NAOMS NASA staff tried to engage 
the aviation community and encouraged the development of a working 
group. This was not successful. That lack of success may have been 
related to fear of the results, lack of confidence in survey methods, 
and lack of certainly on how the data might be used. In any event, this 
in my opinion was the key factor that doomed NAOMS to failure.
    The second largest issue that would have to be addressed would be 
establishment of a reliable funding stream for NAOMS not subject to the 
variations in agency budget cycles. (It is assumed that NAOMS would be 
operated by a government entity.) Ideally, NAOMS should receive funding 
directly from Congress until it was fully accepted and integrated into 
the Nation's aviation safety oversight system. Reduced funding once the 
system was operating would cause a compromise in data quality and 
usefulness. This would likely happen if NAOMS was part of an Agency's 
budget.
    The last issue that would need to be addressed would be revisions 
to the NAOMS survey process. The questionnaire for the Air Carrier 
pilots is mature and well vetted but it should be reviewed for 
acceptance by the working group and modified accordingly (without 
compromising technical accuracy). The General Aviation pilot survey 
would require more work to ensure it was measuring safety incidents as 
intended. Finally, development work would have to be initiated to 
include other aviation safety stakeholders like maintenance 
technicians, air traffic controllers and others.

Questions submitted by Representative Daniel Lipinski

Q1.  Peggy Gilligan, the Deputy Associate Administrator for Aviation 
Safety at the FAA recently cast doubt on the survey by questioning 
NASA's methodology. For example, she is quoted as stating that the 
answers in the study were not sufficiently detailed. Further, Dr. 
Griffin's testimony highlights inconsistencies in the study as compared 
to surveys conducted in other ways and also calls into question the 
validity of the methodology. Dr. Dodd, your testimony explains that the 
process was meticulously designed and very thorough. Could you 
elaborate on your work on the survey and explain why others may call 
the study into question?

A1. It is difficult for me to respond to Question One since the 
criticism of the NAOMS questions and study methodology are offered in 
the abstract without specific citations or examples. It should be noted 
that both FAA and NASA management had numerous opportunities to review 
and comment on the NAOMS questions, the program design and the 
associated methodology. These opportunities were afforded the FAA and 
NASA through two industry workshops, numerous industry briefings, and 
program reviews. Critical comments and questions were offered by NASA 
and FAA and the NAOMS team was responsive.
    I think FAA and NASA criticisms however highlight two failings of 
the NAOMS team and the aviation industry at large. Ideally, detailed 
criticisms should have been vetted and discussed within the context of 
a vibrant and engaged industry working group so that such concerns 
could have been addressed while the program was operating. This type of 
procedure would have resulted in a stronger product. This didn't happen 
because no ongoing working group was ever successfully established and 
functional. The failure was NASA's inability to establish an engaged 
working group that was supportive of the project. NASA staff tried but 
the aviation industry was not supportive.
    The second failure was not having the NAOMS questionnaire and 
underlying methodology reviewed and critiqued by survey methodology 
experts not affiliated with the NAOMS team or the aviation community. 
This demonstrated a certain naivete on part of the NAOMS team. Such a 
review should have been accomplished by experts who could comment 
knowledgeably on survey program development and design, questionnaire 
development, data security and respondent anonymity and other issues. 
This wasn't done and consequently, the NAOMS team continues to respond 
to criticisms of the survey design and methodology by organizations not 
well versed in such issues.
    While NASA and FAA are certainly entitled to their opinion, their 
organizational expertise does not lie in survey research. Criticisms of 
the NAOMS methodology should be considered within the context of the 
background and knowledge of those offering the criticism.

Q2.  How would NAOMS data be used by an aviation safety expert to 
improve safety in the skies?

A2. NAOMS was modeled after a public health epidemiologic surveillance 
system. The Centers for Disease Control and Prevention (CDC) states a 
surveillance system is ``the ongoing systematic collection, analysis 
and interpretation of . . . data for use in the planning, 
implementation and evaluation of public health practice.'' \1\ In the 
case of NAOMS, ``public health practice'' could be replaced with the 
term ``aviation system safety.''
---------------------------------------------------------------------------
    \1\ Thacker SB, Berkelman RL, Public Health Surveillance in the 
United States, Epidemiological Review, 1988; 10:164-90.
---------------------------------------------------------------------------
    NAOMS was designed to accomplish two different tasks. First, it was 
designed to reliably track aviation safety incident trends. This was 
accomplished by asking a routine set of questions that remained 
constant over time. If a ``statistically valid'' increase in a 
particular response (trend) was noted then the appropriate safety 
experts in government and industry would determine if the trend was of 
concern. If so, then an appropriate supplemental investigation would be 
initiated to determine why the trend was changing.
    Tracking trends would allow safety experts to recognize changes in 
the aviation system before losses occurred. Additionally, NAOMS event 
trending would allow aviation safety experts the ability to measure the 
positive effects of safety enhancements. If a particular safety 
enhancement was working, reported events (trends) associated with that 
issue should decrease.
    In addition to the ability to accurately measure and track safety 
incident trends, NAOMS was also designed to collect information on 
targeted or special topics. These would have been small focused data 
collection efforts on particular topics of interest. The NAOMS 
questionnaire was designed to be flexible so questions could be added 
to evaluate a particular topic such as the introduction of a new 
technology or new procedure. Data would be collected for a specific 
period of time (determined by the need) and evaluated. Once the data 
collection and associated evaluation was completed, the data collection 
for that topic would stop and questions for a new topic added if 
needed. The ability to trend data over time, and to evaluate specific 
issues relatively quickly,\2\ is a very powerful combination for safety 
oversight.
---------------------------------------------------------------------------
    \2\ The NAOMS team estimated that a special topic section could be 
added to the questionnaire in about three months.
---------------------------------------------------------------------------
    The NAOMS team envisioned NAOMS trend analysis to be an automated 
and ongoing process. Evaluation of the trends would be done regularly 
with exceedance limits set so notification of meaningful changes would 
be automatic. Manual review of the results would occur monthly. The 
industry working group and other interested parties would receive 
regular updates and immediate notice if worrisome trends emerged. 
Regular meetings of the working group were envisioned for review of the 
data. Publication of annual reports summarizing the data collected over 
the previous year was also planned.
    NAOMS was designed to be an early warning system and a method by 
which to collect targeted safety information quickly, reliably and 
cheaply. NAOMS was never designed to replace current safety initiatives 
but to supplement current information systems and provide capabilities 
currently not available.
                   Answers to Post-Hearing Questions
Responses by Jon A. Krosnick, Frederic O. Glover Professor in 
        Humanities and Social Sciences, Stanford University

Questions submitted by Chairman Mark Udall

Q1.  In his testimony at the hearing, NASA Administrator Griffin noted 
that a ``2004 Review of NASA's Aerospace Technology Enterprise by the 
National Academies concluded that there was not a compelling argument 
for continued independent data collection in the NAOMS project.'' He 
went on to quote the Review as stating that the ``NAOMS Project seems 
to be developing a methodology to establish trends in aviation safety 
performance that are already available through other sources within 
industry and government.'' Do you agree with the National Academies 
assessment? If not, why not?

A1. The National Academies Panel spent about one hour with the NAOMS 
team amidst a long visit they paid to Mountain View, California, to 
collect information on an array of projects in addition to NAOMS. The 
Panel did not receive a detailed briefing on the NAOMS methodology, its 
development, or the data that had been collected. Thus, the panel was 
limited in its ability to fully understand the project.
    In its written report, the Panel stated the following:

         ``NAOMS consists of a longitudinal survey of aircraft 
        operators, gather information about safety-related experiences 
        of pilots, cabin crews, and maintenance operators for both 
        general aviation and air carriers. . . . It provides 
        statistically reliable results about the frequency of 
        occurrence of safety-related incidents.'' (An Assessment of 
        NASA's Aeronautics Technology Programs, 2004, p. 100).

         ``The NAOMS approach is built on research and implementation 
        of national surveys such as those of the Bureau of Labor 
        Statistics. The NAOMS sampling methods have been grounded in 
        sound interview polling science.''

    Thus, the Panel believed that the NAOMS project was intended to 
include data collection not only from pilots but also from flight 
attendants and mechanics. And the panel recognized that the NAOMS 
methodology was well established and credible.
    The Panel did not conclude that NAOMS should be terminated. 
Instead, they recommended that ``NASA should combine the National 
Aviation Operations Monitoring Service methodology and resources with 
the Aviation Safety Reporting System program data to identify aviation 
safety trends.''
    The Panel did express concern about the issue of potential 
redundancy with other data sources but mentioned only one instance of 
such overlap: engine shutdowns, which are tracked by the FAA. The Panel 
did not provide a thorough analysis of the extent of such redundancy.
    In fact, there was a very small degree of such overlap, and it was 
intentionally designed into the NAOMS data collection system. The 
purpose of this overlap was to allow for cross-validation of the NAOMS 
measurements. That is, we expected to find similar rates and trends in 
the NAOMS data as would be seen in the FAA data on engine shutdowns, as 
long as the NAOMS survey question wording exactly matched the 
specifications of the records being kept by the FAA. If we were to see 
such correspondence across data sources, that would be reassuring about 
the validity of the NAOMS data. Building questionnaires with such a 
plan for validation is a normal part of designing a new questionnaire-
based measurement system.
    If NAOMS were to reveal levels of and trends in event rates that 
corresponded closely with rates and trends of the same events as 
measured in other ways, questions addressing these events could then 
have been removed from the NAOMS questionnaires. But if NAOMS rates and 
trends turned out to be very different from those produced by different 
data sources, this would merit further investigation. The discrepancy 
could be attributable to inadequacy in either or both measurement 
methods, and it would be worthwhile to investigate both possibilities.
    For example, NAOMS event rates may be considerably higher than 
those yielded by voluntary or mandatory airline or government reporting 
systems because people must take the initiative to report events via 
the latter systems, and if some people accidentally or intentionally 
fail to report some events, the registered rates in the administrative 
records will be misleadingly low. Much as we might hope that employees 
will fully and properly participate in all voluntary and mandatory 
reporting systems, it is possible that they do not. This possibility 
should not be disregarded when comparing NAOMS event rates to rates of 
the same events monitored in other ways.
    In sum, the NAS Panel did note redundancy between NAOMS and other 
record-keeping systems, but only a very small proportion of events 
measured by the NAOMS questionnaires were being tracked with other 
methods. Indeed the purpose of NAOMS was to track reliable trends in 
types of events not being measured in any other ways.

Q2.  In his testimony at the hearing, NASA Administrator Griffin 
compared the NAOMS Project with the existing Aviation Safety Reporting 
System (ASRS), stating that ``One of the primary differences between 
ASRS and this survey was that ASRS is managed by aviation specialists. 
When reports are made, the aviation specialists can contact the 
submitter of the report and ask follow-up questions. They are 
knowledgeable about aviation safety. This [NAOMS] survey was conducted 
by telephone polling surveyors, who have no knowledge or had no 
knowledge at all as to aviation or aviation safety. They had no domain 
expertise, and it is precisely that which has led to some of the 
problems that we are here discussing today.''

Q2a.  Do you agree or disagree with Administrator Griffin's 
characterization? Why?

A2a. Dr. Griffin was correct when he said that the ASRS is ``managed'' 
by aviation specialists. This was true for NAOMS as well.
    Dr. Griffin was not quite correct in saying that ``the aviation 
specialists can contact the submitter of the report and ask follow-up 
questions.'' The managers of the ASRS program do not contact event 
reporters.
    Instead, retired pilots and other air travel professionals are 
employed by ASRS as interviewers. These individuals routinely telephone 
pilots who submit reports to ASRS to debrief them and acquire details 
about the event not provided by the written report. This is a key 
feature of the ASRS data gathering system: its focus is not on 
quantitative trends but rather is on gathering rich qualitative 
information about the events that pilots choose to report.
    In contrast, NAOMS is not designed to collect such rich contextual 
information. Rather, NAOMS is designed simply to count events and track 
trends. It is therefore not necessary for telephone interviewers to 
have expertise in aviation, because their task is simply to read aloud 
well designed and technically correct questions to pilots and record 
the counts of events that the pilots report. NAOMS' question wordings 
were crafted through an extensive process of pretesting to assure that 
they would be clear and understandable as administered in this fashion 
and would not require aviation expertise from the interviewers.
    In fact, it would be undesirable for the interviewers to engage in 
any conversation with the survey respondents about the events they 
report--doing so would violate one of the central premises of high 
quality, objective survey data collection: interviewers must read the 
exact same question in exactly the same way to all respondents and 
provide no feedback on the answers provided, so as to minimize any 
potential for interviewer-induced bias.
    Nonetheless, the NAOMS interviewers did receive some training in 
aviation matters from an experienced pilot before they began conducting 
the NAOMS interviews. The purpose of this training was to clarify the 
meanings of the questions and terminology in the questionnaire, so that 
the interviewers could competently handle any unexpected interchanges 
with respondents on technical issues.
    Furthermore, there is no factual basis for Dr. Griffin's claim that 
lack of domain expertise among the interviewers ``has led to some of 
the problems that we are here discussing today.'' Because the job of 
the interviewers was to read the questions and record the answers 
accurately, lack of domain expertise could not have accounted for any 
of Dr. Griffin's concerns about the data.

Q2b.  If the NAOMS Project were to be restarted, would there be any 
changes that you think should be made to either the methodology or 
implementation of the Project?

A2b. If the NAOMS data collection were to be restarted, I would 
recommend the following:

         1)  Conduct thorough analysis of the data collected already by 
        NAOMS, in comparison with other databases tracking some of the 
        same events, to assess the quality of the NAOMS data.

         2)  Restart telephone interviewing of air carrier pilots using 
        the same interviewing methodology as was being used when data 
        collection was suspended.

         3)  Draw samples of air carrier pilots to be interviewed from 
        the full population of licensed pilots. The FAA maintains an 
        updated list of this population, so the samples should be drawn 
        from this list. A subset of this list has been made available 
        to the public, but because that public subset is only partial, 
        the NAOMS sample should be drawn from the full FAA list.

         4)  An external advisory committee should be formed to oversee 
        and advise on all data collection activities, following the 
        example set by most major survey data collection projects 
        funded by the Federal Government. This committee should be 
        composed of a mixture of aviation and survey research experts. 
        Ultimately, all design decisions regarding implementation of 
        NAOMS data collection should be made by the project's Principal 
        Investigator(s), based upon the advice of the advisory 
        committee.

         5)  The data that are collected each month should be released 
        in electronic files accompanied by full written documentation 
        of the data collection procedures as soon as possible after 
        each month's interviewing is completed.

         6)  All releases of data should be accompanied by written 
        documentation telling analysts how to properly compute event 
        rates and over-time trends. Because the design of the survey is 
        complex, such documentation will be useful to help assure that 
        the public does not draw unfounded inferences from the data.

         7)  The Principal Investigator of NAOMS should issue monthly 
        reports documenting rates and trends in the recently collected 
        data, modeled after the press releases put out by the 
        Conference Board and the University of Michigan's Survey 
        Research Center documenting their monthly surveys measuring 
        consumer confidence.

         8)  Data collection from general aviation pilots should be 
        restarted using the procedures that NAOMS employed prior to 
        data collection suspension.

         9)  Data collection from air traffic controllers, flight 
        attendants, and mechanics should be initiated after preparatory 
        design work is initiated and completed. This preparatory work 
        should include focus groups and other data collections to build 
        a list of events to ask about, experimental studies to document 
        optimal recall period lengths for these professionals, and 
        studies to document the predominant organization of events in 
        these professionals' memories. Data should be collected from 
        these individuals via telephone interviewing.

        10)  In keeping with the National Academy of Sciences 
        recommendation, it would be desirable to coordinate NAOMS data 
        analysis with ASRS data analysis. Whenever possible, trends in 
        ASRS reports for an event should be compared with NAOMS trends 
        of the same event to explore comparability. Likewise, NAOMS 
        rates should be compared with rated generated using any other 
        data sources tracking a small number of events measured by both 
        NAOMS and other record-keeping systems.

Questions submitted by Representative Daniel Lipinski

Q1.  Peggy Gilligan, the Deputy Associate Administrator for Aviation 
Safety at the FAA, recently cast doubt on the survey by questioning 
NASA's methodology. For example, she is quoted as stating that the 
answers in the study were not sufficiently detailed. Further, Dr. 
Griffin's testimony highlights inconsistencies in the study as compared 
to surveys conducted in other ways and also calls into question the 
validity of the methodology. Dr. Krosnick, your testimony explains that 
the process was meticulously designed and very thorough. Could you 
elaborate on your work on the survey and explain why others might call 
the study into question?

A1. I was invited to help with the development of NAOMS because the 
project sought to design surveys of the highest quality to produce the 
most accurate measurement possible according to best practices of 
survey research used throughout the Federal Government.
    I served as an advisor to the team that carried out the work. 
Specifically, I attended numerous project planning meetings and public 
dissemination meetings (at which I made presentations on the science 
behind the survey component of the project and the findings of our 
pretest studies). I designed a series of pretesting studies to 
ascertain (1) the optimal length of time to include in the period that 
respondents would be asked to describe, (2) the order in which the 
questions should be asked, and (3) whether the data should be collected 
by telephone interviewing, face-to-face interviewing, or paper and 
pencil questionnaires. I oversaw the analysis of data collected in 
those studies and oversaw the process of writing reports describing 
their findings. I also participated in the design and implementation of 
focus groups held with air carrier pilots, air traffic controllers, and 
general aviation pilots to build lists of safety-related events that 
they witnessed while working. I oversaw the process of conducting 
cognitive think-aloud pretesting interviews with air carrier pilots to 
assure that the questionnaires were understandable. And I provided 
advise on most other aspects of the study design.
    My goal in providing this advice was to be sure that NAOMS design 
decisions would yield the most accurate possible measurements.
    Many observers have raised concerns about the reliability of the 
NAOMS data. These include administrators at the FAA and administrators 
at NASA.
    Some expressions of concern have addressed the procedures used to 
collect the NAOMS data. These concerns were articulated prior to the 
public release of a full report by Battelle describing the procedures 
used to collect the data and the rationales for those procedures (as 
far as I know, that report has not yet been publicly released). It 
therefore strikes me as premature for anyone to offer opinions about 
inadequacies in the NAOMS procedures.
    For example, Dr. Griffin expressed concern that the NAOMS 
interviewers were not aviation experts and were not tasked with 
collecting detailed information about safety-related events through 
conversational interviewing. As I explained above, this approach to 
interviewing is appropriate for ASRS but not for NAOMS. Standard 
practice in high quality survey interviewing involves reading the same 
questions identically to all respondents and not offering any 
additional comments or improvising conversation with the respondents, 
so as to minimize the potential for such improvised conversation to 
bias respondents' answers. Thus, concerns about lack of aviation 
experience among the interviewers are misplaced.
    Other expressions of concern have focused on the rates of events 
documented using the NAOMS data. For example, during his testimony, Dr. 
Griffin mentioned that NAOMS indicated that diversions to alternate 
airports occurred at implausibly high rates. Some other NAOMS critics 
have similarly articulated concerns that NAOMS rates vastly exceeded 
rates of the same events documented by other monitoring mechanisms.
    I believe that there are at least two possible reasons for these 
expressions of concern. First, the NAOMS surveys were designed to yield 
multiple measurements of the same event, and any rate calculations must 
be made adjusting for this multiple registering of single events. In 
Appendix A of this letter, I explain how statistical calculations must 
be implemented to correct for this inherent aspect of NAOMS data 
collection.
    I am concerned that this sort of calculation correction was not 
implemented properly by people who have analyzed the NAOMS data to 
date. If so, this would lead to the misleading impression of event 
rates much higher than really occurred and much higher than other data 
sources might indicate.
    A second possible reason for concern about NAOMS rates is 
inadequate attention to the details of the wording of the NAOMS 
questions and the measurement being made by other data sources. 
Consider, for example, Dr. Griffin's testimony that NAOMS data 
indicated that four times per day, a transport aircraft was landed at 
an unscheduled airport in order to deal with an unruly passenger. Dr. 
Griffin said that to his knowledge, that has happened a total of two or 
three times since September 11, 2001.
    If such a discrepancy were really present between the NAOMS data 
and administrative records of such events, it would be a basis for 
concern about the accuracy of one or both of those streams of data. But 
in fact, the discrepancy Dr. Griffin pointed to is an illusion.
    In fact, the NAOMS survey did not ask the pilots to report how many 
times they had to land an airplane at an unscheduled airport in order 
to deal with an unruly passenger. Instead, the NAOMS question asked: 
``During the last 60 days, how many times did an in-flight aircraft on 
which you were a crew member expedite landing or divert to an alternate 
airport due to a passenger disturbance?'' Notice that this question 
combines diversions with expedited landings. It is therefore not 
appropriate to compare the total number of NAOMS reports of events in 
this category with another measuring system's assessment of the number 
of times that unruly passengers caused diversions to alternate 
airports. Of course, the NAOMS question will yield higher rates than 
the other monitoring system will.
    These are two of the possible reasons for unfounded concerns about 
the accuracy of NAOMS data: incorrect computation of statistics using 
the data, and insufficient attention to the details of the survey 
question wordings and the types of events tracked by other monitoring 
systems. Mistakes of the sort outlined above would cause the illusory 
appearance of implausibly high event rates in the NAOMS survey.
    Assuming that such calculation and interpretation mistakes have 
been made and have led to a misperception that NAOMS event rates are 
unusually high, it is understandable that people observing those rates 
might take them to be dangerous if released publicly, for at least two 
reasons. First, as the NASA FOIA appeal reply outlined, reports of 
event rates much higher than have been recognized might cause public 
concern about the safety of flying and impact the economic viability of 
commercial airlines. Based on my knowledge of the risk perception and 
decision-making literatures generated by social and behavioral 
scientists, I believe that releasing such numbers in the context of a 
public report about NAOMS is very unlikely to increase public fear of 
flying or decrease airline passenger loads. But it is certainly 
possible. So an observer within NASA or the FAA might fear negative 
consequences of releasing high rates based on NAOMS data.
    Second, staff within the FAA may perceive that event rates higher 
than those yielded by their own monitoring systems could call those 
monitoring systems into question. And in fact, that is just what higher 
rates from NAOMS should do, in my opinion. Staff members who wish to 
protect the appearance of integrity of those systems might prefer that 
such concern not be raised in the public mind. But in my opinion, every 
measurement system is potentially subject to error, so it is always 
preferable to track important events using multiple measuring tools and 
to check their correspondence. Rather than assuming that one measuring 
tool is necessarily correct and the other is inaccurate, a discrepancy 
should inspire scrutiny of the implementation of both methods. Such 
scrutiny may lead to the detection of flaws in either or both measuring 
systems, which can in the end inspire repairs that enhance accuracy of 
assessments in the future.
    In sum, I believe that some observers may be motivated to criticize 
NAOMS because of perception that NAOMS yielded implausibly high event 
rates. After careful and proper statistical calculations are 
implemented, accompanied by careful attention to the exact wordings of 
the NAOMS questions, these rates may turn out to be considerably lower 
and may match rates of events tracked using other monitoring systems.

Q2.  Dr. Krosnick, you are a renowned expert on survey methodology and 
statistical analysis brought in as a subcontractor on the NAOMS 
project. Did the process used to develop the NAOMS survey instrument 
seem inadequate in any way? Did you lack expert feedback--peer review--
as the methodology of the project went forward?

A2. I believe that the NAOMS development process was indeed consistent 
with best practices in survey methodology. Indeed, in some ways, the 
preparatory design work exceeded that done for many major, long-
standing federally funded and administered survey research projects. 
And the very high response rates that typified NAOMS are evidence of 
little if any non-response bias in the resulting data. In sum, I 
believe that NASA did an excellent job of funding top-level 
methodological work and that Battelle and its subcontractors did their 
work to the highest standards of excellence.
    The NAOMS project implemented survey methods that have been 
extensively peer reviewed and have been widely accepted as standard 
practice in the industry for decades. The tailoring of implementation 
of those procedures to the NAOMS context was also done using pretesting 
procedures that have well-established status in the methods literature.
    As I mentioned during my oral testimony, the project sought peer 
commentary and suggestions by social scientists and aviation experts at 
many public and private briefing meetings. These conversations yielded 
useful suggestions that influenced the design of NAOMS. In addition, 
the White House Office of Management and Budget reviewed the NAOMS 
procedure in order to approve its data collection. OMB routinely 
evaluates federal survey project methodology and makes suggestions for 
improvement, and we benefited from this process as well.
    The only potentially valuable form of peer review that was not 
implemented but might have been helpful would have entailed forming a 
committee of peer reviewers who were paid to critique the methodology 
as harshly as possible and to suggest alternative methods to implement 
the survey. I believe that such a procedure would most likely have 
yielded few if any suggestions of changes to the methodology that was 
employed. But it could have been done prior to NAOMS' suspension and 
could still be implemented today.

Appendix A:

                 Explanation of Inflated Probabilities

                   of Event Occurrences in NAOMS Data

    This Appendix explains why each event that occurs during the course 
of air travel has an inflated probability of occurrence in the NAOMS 
survey, by design, because it is witnessed by multiple people. And this 
Appendix explains how correction for this aspect of the survey design 
must be implemented in order to properly generate estimates of rates of 
events.
    Consider, for example, the NAOMS question asking pilots to report 
the number of times a bird hit a plane on which he/she was working. 
Each such bird strike would be witnessed by at least two pilots (the 
pilot and co-pilot) and could have been witnessed by three pilots (on 
aircraft with a third working cockpit crew member). Thus, the 
probability that each bird strike would be reported by some respondent 
in the survey was twice or three times as high as would have occurred 
if only one person had witnessed each event. And for events that 
involve two aircraft at the same time (e.g., a near miss), between four 
and six cockpit crew members will witness the event.
    Some observers have asserted that such inflated probabilities can 
be ignored, because the relatively small number of pilots interviewed 
each month relative to the total population of pilots means that the 
chances that the same event will be reported in the survey by two 
different respondents is extremely small. That is true, but it is 
irrelevant to the multiple-counting issue: each event nonetheless has 
twice or three times the probability of being reported by someone.
    To illustrate how the calculation of event rates must be done, 
imagine that there are 10,000 total active air carrier pilots and that 
1,000 of them were interviewed and asked to describe events that 
occurred during some or all of January, 2001.\1\ Imagine further that 
during these interviews, the total number of January bird strikes 
reported by all respondents was 50.
---------------------------------------------------------------------------
    \1\ Remember that some NAOMS respondents were interviewed on almost 
every day of each year, and they were asked to report the total number 
of events of each type that they witnessed during the past 60 days. 
Therefore, some respondents will have made reports for periods 
including all of January, 2001. And other respondents will have made 
reports for periods including only part of that month. Therefore, the 
data from different respondents must be integrated carefully, to 
recognize the fact that some people's reports included a mixture of 
days in January and days in other months.
---------------------------------------------------------------------------
    To calculate the total number of bird strikes that occurred in 
January, it might be tempting to divide the number 50 by the sampling 
fraction (1,000/10,000), which would equal 500. But this would be 
incorrect.
    To calculate the total number of events properly, it would be 
necessary to use information from the NAOMS questionnaires about the 
type of aircraft flown by each pilot who reported a bird strike to 
infer whether that bird strike was most likely witnessed by only two 
pilots or three pilots (this can be determined by type of aircraft). 
Then each bird strike report must be divided by the total number of 
pilots who would most likely have witnessed it (two or three)--so some 
bird strikes would contribute one-half to the total and others would 
contribute one-third to the total. Then the resulting fractions could 
be added up across respondents, divided by 1,000 and multiplied by 
10,000 to yield an estimate of the total number of bird strikes that 
occurred during January.
    Another calculation method would involve dividing the total number 
of bird strikes reported to have happened during January, 2000, by the 
total number of hours that the interviewed sample of pilots said they 
flew during that month or by the total number of flight legs that the 
interviewed sample of pilots said they flew during that month. These 
rates could then be multiplied by the total number of flight hours 
flown by all pilots during the month or by the total number of legs 
flown by all pilots during that month, respectively. But again, these 
numbers would be inappropriately high, because they would be inflated 
due to the doubled or tripled probability of reporting the same event 
by multiple witnesses. So again, each respondent's report of an event 
should be counted as either one-half or one-third (depending on whether 
two or three cockpit crew were working on the aircraft); these 
fractions should then be summed, and the total should be multiplied by 
the total number of hours or legs flown by the entire population of 
pilots during the month of interest.
                   Answers to Post-Hearing Questions
Responses by Captain Terry L. McVenes, Executive Air Safety Chairman, 
        Air Line Pilots Association, International

Question submitted by Representative Daniel Lipinski

Q1.  When Battelle ran this project, the names of survey participants 
were removed from their records within 24 hours of the conclusion of 
their survey. Is that the kind of step that you would endorse in any 
other survey of this kind?

A1. Participation in the survey by pilots was done under the assumption 
that it would be completely confidential. That premise was key to 
getting open and honest reporting. As I understand it, follow-up 
questioning wasn't part of the methodology used in the survey and the 
names of the participants wasn't germane to the type of questions 
asked. Consequently, it is my belief that future surveys of this type 
should also de-identify the participants as was done in the NAOMS 
survey. This would further promote the confidence in that 
confidentiality as well as provide the industry with quality safety 
information.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
